<html>
<title> - CHALLENGES AND OPPORTUNITIES FOR IMPROVING SCHOOL NUTRITION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      CHALLENGES AND OPPORTUNITIES FOR IMPROVING SCHOOL NUTRITION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 4, 2008

                               __________

                           Serial No. 110-80

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
40-944 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 4, 2008....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    53
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Questions submitted to witnesses.........................    55
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, prepared statement of.................    54

Statement of Witnesses:
    Corrigan, Kathleen A., MBA, RD, director, food and nutrition 
      services, Mt. Diablo Unified School District...............    14
        Prepared statement of....................................    16
        Written responses to questions for the record............    55
    Hecht, Kenneth, California Food Policy Advocates.............    17
        Prepared statement of....................................    19
        Written responses to questions for the record............    57
    Hill, Mary, president, School Nutrition Association..........     7
        Prepared statement of....................................     9
        USDA dietary guidelines memo.............................    12
        Written responses to questions for the record............    60
    Houston, Hon. Kate J., Deputy Under Secretary, Food, 
      Nutrition, and Consumer Services, U.S. Department of 
      Agriculture................................................    21
        Prepared statement of....................................    23
        USDA responses to questions for the record...............    63
    Parham, Penny, administrative director, department of food 
      and nutrition, Miami-Dade County...........................    26
        Prepared statement of....................................    28
        Written responses to questions for the record............    69
    Rivas, Dora, vice president, School Nutrition Association; 
      director of child nutrition, Dallas........................    29
        Prepared statement of....................................    31
        Additional submission: ``Westland/Hallmark Meat Co. 
          Recall Costs''.........................................    33


      CHALLENGES AND OPPORTUNITIES FOR IMPROVING SCHOOL NUTRITION

                              ----------                              


                         Tuesday, March 4, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 3:30 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Tierney, Wu, Holt, Davis of California, Grijalva, 
Sarbanes, Loebsack, Yarmuth, Hare, Courtney, McKeon. Castle, 
Biggert, Kline, and Foxx
    Staff Present: Alex Nock, Deputy Staff Director; Brian 
Kennedy, General Counsel; Michael Zola, Chief Investigative 
Counsel; Patrick Findlay, Investigative Counsel; Sharon Lewis, 
Senior Disability Policy Advisor; Thomas Kiley, Communications 
Director; Rachel Racusen, Deputy Communications Director; 
Danielle Lee, Press/Outreach Assistant; Ann-Frances Lambert, 
Administrative Assistant to Director of Education Policy; 
Lamont Ivey, Staff Assistant, Education; Lloyd Horwich, Policy 
Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Ryan Holden, Senior Investigator, 
Oversight; Denise Forte, Director of Education Policy; Sarah 
Dyson, Administrative Assistant, Oversight; Alejandra Ceja, 
Senior Budget/Appropriations Analyst; Tylease Alli, Hearing 
Clerk; Joe Novotny, Chief Clerk; Sally Stroup, Minority Staff 
Director; Robert Borden, Minority General Counsel; Kirsten 
Duncan, Minority Professional Staff Member; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Cameron 
Coursen, Minority Assistant Communications Director; Susan 
Ross, Minority Director of Education and Human Services Policy; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller. The Committee on Education and Labor will 
come to order to conduct a hearing on the challenges and 
opportunities of improving school nutrition.
    I want to welcome all of our witnesses and the audience and 
the Members of Congress to this hearing.
    Today's hearing will examine ways to improve the school 
nutrition safety and the school food supply. Federal nutrition 
programs are intended to provide children with healthful food 
to eat at school. During the last reauthorization of the Child 
Nutrition and National School Lunch Act, we required meals to 
be in line with the Department of Health and Human Services' 
dietary guidelines. We looked to sound nutritional science that 
suggested the incorporation of healthy grains into school meal 
programs, and we expanded the availability of fruits and 
vegetables. We also asked schools and communities to establish 
local wellness policies, looking at the role of nutrition 
standards and physical activity, including a healthy learning 
environment for our students. It is becoming clear, however, 
that the declining Federal investment in school nutrition 
programs has made it harder and harder for schools to provide 
healthy, nutritious meals that children want to eat.
    We welcome the recommendations of the School Nutrition 
Association. Its members have been leaders in this area. We are 
going to hear more today about how the programs are working and 
what we can do in the next year's reauthorization of the Child 
Nutrition Act and the National School Lunch Act to make them 
work even better. We know that when children do not have enough 
nutritious food to eat, it can have serious negative effects, 
not just on their health but in many aspects of their lives, 
including their ability to learn. We cannot expect children to 
go to school on an empty stomach and still be able to succeed 
academically.
    Today, we are also going to examine whether the appropriate 
controls are in place to ensure the safety of the school food 
supply. As is now well-known, earlier this year, the Humane 
Society of the United States announced that it had conducted an 
investigation into the Hallmark/Westland Meat Company in Chino, 
California. The investigation revealed that workers were using 
electric shocks, forklifts and water sprays to force 
nonambulatory cows to stand so they would pass inspection with 
the U.S. Department of Agriculture. Under the law, 
nonambulatory cows, often called ``downer cows,'' are not 
permitted to enter the food supply because of the risk they 
pose of transmitting Salmonella, E. coli contamination and 
possibly mad cow disease.
    At the time that the Humane Society conducted this 
important investigation at Hallmark/Westland Slaughterhouse, 
Federal food safety inspectors were performing inspections at 
the slaughterhouse twice a day. These abuses apparently were 
happening right under the inspectors' noses, but it took a 
private charity organization to uncover them.
    It is unacceptable that the USDA so completely failed to do 
its job at this particular slaughterhouse. We cannot judge the 
USDA's inspection process as successful or effective if it 
allows tainted meat to enter the school food supply. The Humane 
Society's investigation prompted the largest meat recall by the 
USDA in the Nation's history. In total, the USDA recalled over 
140 million pounds of beef. More than one-third of that total 
was beef that was purchased for and distributed to schools by 
the USDA through the National School Lunch Program.
    It goes without saying that we have an obligation to ensure 
the safety of the food that our children eat. This incident 
raises very alarming questions about the U.S. Department of 
Agriculture's ability to monitor the safety of meat in this 
country, including meat that is being served in the National 
School Lunch Program. I hope that we can begin to answer some 
of these questions in today's hearing.
    In addition, along with Congresswomen McCarthy and DeLauro, 
I have asked the U.S. Government Accountability Office to 
assess the overall effectiveness of the USDA's work to ensure 
the safety of meat in the school food supply. Already, however, 
it is clear that more must be done to ensure the safety of meat 
that all customers, including school children, eat.
    For starters, the USDA needs to provide more assistance and 
guidance to States and localities related to local food safety 
issues. As it stands, schools have only a limited capacity to 
quickly track, handle and dispose of dangerous foods. This 
capacity varies from school to school. Schools and parents 
should have every assurance that the food supplied to their 
kids' cafeterias by the Federal Government is safe.
    Again, I want to thank all of our witnesses for joining us 
today and for agreeing to testify.
    With that, I would like to recognize Congressman McKeon, 
the senior Republican on the committee.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good afternoon. Welcome to today's hearing on ``Challenges and 
Opportunities for Improving School Nutrition.'' Today's hearing will 
examine ways to improve school nutrition and safety in the school food 
supply.
    Federal nutrition programs are intended to provide children with 
healthful food to eat at school.
    During the last reauthorization of the Child Nutrition and National 
School Lunch Acts, we required meals to be in line with the Department 
of Health and Human Services' Dietary Guidelines.
    We looked to sound nutritional science that suggested the 
incorporation of healthy grains into the school meal program and we 
expanded the availability of fruits and vegetables.
    We also asked schools and communities to establish local wellness 
policies, looking at the role of nutrition standards and physical 
activity in creating a healthy learning environment for our students.
    It is becoming more clear, however, that the a declining federal 
investment in school nutrition programs has made it harder and harder 
for schools to provide healthy and nutritious meals that children want 
to eat.
    We welcome the recommendations of the School Nutrition Association, 
whose members have been leaders in these areas.
    We are going to hear more today about how the programs are working, 
and what we can do in next year's reauthorization of the Child 
Nutrition Act and the National School Lunch Act to make them work even 
better.
    We know that when children don't have enough nutritious food to 
eat, it can have serious negative effects not just on their health but 
on many aspects of their lives, including their ability to learn. We 
can't expect children to go to school on an empty stomach and still be 
able to succeed academically.
    Today, we are also going to examine whether appropriate controls 
are in place to ensure the safety of the school food supply.
    As is now well known, earlier this year the Humane Society of the 
United States announced that it had conducted an investigation of the 
Westland/Hallmark Meat Company in Chino, California.
    The investigation revealed that workers were using electric shocks, 
forklifts, and water sprays to force nonambulatory cows to stand so 
that they would pass inspection with the U.S. Department of 
Agriculture.
    Under the law, nonambulatory cows, often called `downer cows,' are 
not permitted to enter the food supply because of the greater risk they 
pose of salmonella and e. coli contamination and of carrying mad cow 
disease.
    At the time that the Humane Society conducted this important 
investigation at the Westland/Hallmark slaughterhouse, federal food 
safety inspectors were performing inspections at the slaughterhouse 
twice a day.
    These abuses were happening right under the inspectors' noses, but 
it took a private charity organization to uncover them.
    It is unacceptable that the USDA so completely failed to do its 
job.
    We cannot judge the USDA's inspection process as successful or 
effective if it allows tainted meat to enter the school food supply.
    The Humane Society's investigation prompted the largest meat recall 
by the USDA in the nation's history. In total, the USDA recalled over 
140 million pounds of beef. More than one-third of that total was beef 
that was purchased for and distributed to schools by the USDA through 
the National School Lunch program.
    It goes without saying that we have an obligation to ensure the 
safety of the food that our children eat. But this incident raises very 
alarming questions about the U.S. Department of Agriculture's ability 
to monitor the safety of meat in this country--including the meat that 
is being served to children in the National School Lunch program. I 
hope we can begin to answer some of those questions in today's hearing.
    In addition, along with Congresswomen McCarthy and DeLauro, I have 
asked the U.S. Government Accountability Office to assess the overall 
effectiveness of the USDA's work to ensure the safety of meat in the 
school food supply.
    Already, however, it's clear that more must be done to ensure the 
safety of the meat that all consumers--including schoolchildren--eat.
    For starters, the USDA needs to provide more assistance and 
guidance to states and locals related to food safety issues. As it 
stands, schools have only a limited capacity to quickly track, handle 
and dispose of dangerous food.
    Schools and parents should have every assurance that the food 
supplied to their kids' cafeterias by the federal government is safe.
    I'd like to thank all of our witnesses for joining us today, and I 
look forward to your testimony. Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller. I appreciate the 
opportunity to be here today to examine important issues facing 
the National School Lunch Program and other child nutrition 
programs.
    Our goal with the Federal child nutrition programs, 
particularly in recent years, has been to promote nutrition and 
wellness while enhancing program and financial integrity. In 
2004, the President signed into law a child nutrition reform 
package that included key reforms to accomplish these goals. 
That legislation included important steps to strengthen 
nutrition programs and to improve their effectiveness for 
America's most vulnerable children.
    During the last reauthorization, it was a top priority to 
address the health crisis of childhood obesity, which has 
reached epidemic proportions in this country. In response, we 
proposed reforms that would strike the right balance between 
encouraging healthy environments while preserving local control 
for States, communities and schools. For example, the bill's 
establishment of local wellness policies to promote healthy 
choices and physical activity was intended to complement the 
larger focus of the Federal child nutrition programs, which is 
to combat hunger and food insecurity while ensuring eligible 
children receive nutrition assistance. I look forward to 
hearing today about the current state of Federal child 
nutrition programs with an eye toward reauthorization next 
year.
    Child nutrition is an area that is constantly evolving 
because of changing needs among those who are disadvantaged and 
who rely on nutritional assistance as well as enhanced 
knowledge about health and wellness. A status update on these 
important programs is reason enough to convene this hearing 
today. However, the recent situation in California in which 
beef used in the school lunch program was part of a major 
recall due to a limited but very troubling health risk gives us 
another good reason to examine the structure of our child 
nutrition programs.
    I expect that we will closely examine the events leading up 
to and following revelations at the Hallmark/Westland facility 
engaged in unsafe and inhumane practices that could have put 
our Nation's food supply at risk. Already investigations are 
underway by the Inspector General, by the Food Safety and 
Inspection Service and by the Government Accountability Office, 
among others. It may be premature to expect all of the answers 
today, but there should be no doubt that we will get to the 
bottom of this situation.
    I look forward to hearing from our witnesses about the 
safeguards that are in place to prevent this type of occurrence 
as well as the about the contingency plans that exist in order 
to effectively respond if and when they do.
    My staff and I have been monitoring this situation closely, 
as have Chairman Miller and his staff, since it was first 
uncovered. Although such information is still unknown, our 
preliminary findings indicate that the U.S. Department of 
Agriculture's Food and Nutrition Services Office did everything 
they could to respond quickly and effectively once the 
potential danger was revealed.
    I hope the tone of today's hearing is constructive with an 
emphasis not just on what went wrong, but also on what went 
right and what can be done to prevent anything like this from 
ever happening again. I also hope we take a comprehensive look 
at the structure of our child nutrition and food safety 
programs to examine every step in the safety, monitoring and 
notification process. We must examine the link between Federal 
overseers and State operators as well as the connection between 
States and the local operators. Our witnesses from the USDA and 
local districts will help us to look at these programs from all 
angles.
    Federal child nutrition programs have been established to 
meet the most fundamental needs of some of our most vulnerable 
children and families. That is why safety is of the utmost 
importance when it comes to the products delivered in school 
lunches and other nutrition assistance programs.
    I want to thank the witnesses for coming here today to 
share their insight and expertise on Federal child nutrition 
programs.
    As we examine the specific incident in California that has 
posed so many unanswered questions, we must also retain our 
focus on the larger program, its effectiveness and 
opportunities to ensure the continued success of the school 
lunch program and of other initiatives that have helped combat 
hunger and that promote healthy foods among children and 
families.
    Thank you, Chairman Miller. I yield back.

     Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior 
              Republican, Committee on Education and Labor

    Thank you Chairman Miller, I appreciate the opportunity to be here 
to examine important issues facing the National School Lunch Program 
and other child nutrition programs. Our goal with the federal child 
nutrition programs, particularly in recent years, has been to promote 
nutrition and wellness while enhancing program and financial integrity.
    In 2004, the President signed into law a child nutrition reform 
package that included key reforms to accomplish these goals. That 
legislation included important steps to strengthen nutrition programs 
and improve their effectiveness for America's most vulnerable children.
    During the last reauthorization, it was a top priority to address 
the health crisis of childhood obesity, which has reached epidemic 
proportions in this country. In response, we proposed reforms that 
would strike the right balance between encouraging healthy environments 
while preserving local control for states, communities, and schools. 
For example, the bill's establishment of local wellness policies to 
promote healthy choices and physical activity was intended to 
complement the larger focus of the federal child nutrition programs, 
which is to combat hunger and food insecurity while ensuring eligible 
children receive nutrition assistance.
    I look forward to hearing today about the current state of federal 
child nutrition programs with an eye toward reauthorization next year. 
Child nutrition is an area that is constantly evolving because of 
changing needs among those who are disadvantaged and rely on 
nutritional assistance, as well as enhanced knowledge about health and 
wellness.
    A status update on these important programs is reason enough to 
convene this hearing today. However, the recent situation in 
California--in which beef used in the school lunch program was part of 
a major recall due to a limited but very troubling health risk--gives 
us another good reason to examine the structure of our child nutrition 
programs.
    I expect that we will closely examine the events leading up to and 
following revelations that the Hallmark/Westland facility engaged in 
unsafe and inhumane practices that could have put our nation's food 
supply at risk. Already, investigations are underway by the Inspector 
General, the Food Safety and Inspection Service, and the Government 
Accountability Office, among others. It may be premature to expect all 
the answers today, but there should be no doubt that we will get to the 
bottom of this situation.
    I look forward to hearing from our witnesses about the safeguards 
that are in place to prevent this type of occurrence, as well as the 
contingency plans that exist in order to effectively respond if and 
when they do.
    My staff and I have been monitoring this situation closely since it 
was first uncovered, as has Chairman Miller and his staff. Although 
much information is still unknown, our preliminary findings indicate 
that the U.S. Department of Agriculture's Food and Nutrition Services 
office did everything they could to respond quickly and effectively 
once the potential danger was revealed. I hope the tone of today's 
hearing is constructive, with an emphasis not just on what went wrong 
but also on what went right and what can be done to prevent anything 
like this from ever happening again.
    I also hope we take a comprehensive look at the structure of our 
child nutrition and food safety programs to examine every step in the 
safety, monitoring, and notification processes. We must examine the 
link between federal overseers and state operators, as well as the 
connection between states and the local operators. Our witnesses from 
the USDA and local districts will help us to look at these programs 
from all angles.
    Federal child nutrition programs have been established to meet the 
most fundamental needs of some of our most vulnerable children and 
families. That's why safety is of the utmost importance when it comes 
to the products delivered in school lunches and other nutrition 
assistance programs.
    I want to thank the witnesses for coming here today to share their 
insight and expertise on federal child nutrition programs. As we 
examine the specific incident in California that has posed so many 
unanswered questions, we must also retain our focus on the larger 
program, its effectiveness, and opportunities to ensure the continued 
success of the school lunch program and the other initiatives that help 
combat hunger and promote healthy foods among children and families. 
Thank you Chairman Miller, I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    We have a wonderful panel with us today. First is Mary 
Hill, who was the Director of the Food Services for the Jackson 
Public School District in Jackson, Mississippi for the past 25 
years. She is the current President of the School Nutrition 
Association. At the State level, Ms. Hill is the former 
President of the Mississippi School Food Service Association 
where she also served as Chair of various State association 
committees.
    Kathleen Corrigan is from the 7th District in California, a 
very important district in California. She is the Director of 
the School Food Services for the Mt. Diablo Unified School 
District in Concord, California. She has 26 years of experience 
in school nutrition, and she helped to launch the district's 
coordinated School Health Council. She currently serves the 
School Nutrition Association on the Nutrition Committee and on 
the National Nutrition Standards Task Force.
    Kenneth Hecht is the Executive Director and is one of the 
cofounders of the California Food Policy Advocates. The mission 
of the California Food Policy Advocates' and California 
Statewide Nutrition Policy and Advocacy Organization is to 
improve the health and well-being of low-income Californians by 
increasing their access to nutritious and affordable foods.
    Kate Houston was appointed by President George Bush as the 
USDA Deputy Under Secretary for Food, Nutrition and Consumer 
Services. Ms. Houston was responsible for the developing and 
for the promoting of science-based dietary guidance, 
administering USDA's 15 nutritional assistance programs. In 
October 2006, Ms. Houston was appointed to serve as the Deputy 
Administrator for USDA's Food and Nutrition Service's special 
nutrition programs.
    Penny Parham is the Administrative Director of the 
Department of Food and Nutrition for the Miami-Dade County 
Public School System in Miami, Florida. Penny is a Registered 
Dietician and holds a Master's Degree in Nutrition. She worked 
as Food Service Systems Manager from 1989 and became the 
district's Administrative Director in 2002.
    Dora Rivas is the Director of the Food Service in the 
Dallas Independent School District in Dallas, Texas. Dora is a 
Registered Dietician and is credentialed as a school food and 
nutrition specialist. She has been employed in the food service 
industry for nearly 30 years.
    Welcome to all of you. We, again, thank you for your time 
and look forward to your testimony. When you begin to testify, 
there are lights in front of you. A green light will go on. 
That will give you 5 minutes to tell us all you know about this 
program, so you have got to be very selective in your vast 
knowledge. With a minute to go, an orange light will come on 
and then a red light at the end of that, but we do want you to 
finish up your thoughts and complete your sentences. We look 
forward to your testimony.
    Without objection, all of my colleagues will have 14 days 
to submit materials or statements that they want for the record 
of this committee.
    Ms. Hill, we will begin with you. Welcome.

STATEMENT OF MARY HILL, PRESIDENT, SCHOOL NUTRITION ASSOCIATION

    Ms. Hill. Good afternoon.
    Chairman Miller and members of the Committee, we deeply 
appreciate this hearing. This hearing continues a most 
extraordinary congressional tradition participated in by the 
House and the Senate, the unprecedented tradition of scheduling 
a hearing to coincide with an organization's Washington 
meeting. We fully understand and appreciate that the tradition 
represents a shared commitment to ending childhood hunger and 
in improving the nutritional health of all of the children in 
this country.
    I am, as the chairman has said, Mary Hill, President of the 
School Nutrition Association and Director of Child Nutrition 
Programs in Jackson, Mississippi. With me this afternoon is 
Katie Wilson, our president-elect, from Onalaska, Wisconsin; 
Dora Rivas, who is our Vice President from Dallas, Texas; Craig 
Weidel, who is Chair of our Public Policy and Legislative 
Committee from Mesa, Arizona; and between the two locations a 
few hundred of my best friends.
    The School Nutrition Association represents the State and 
local public administrators of the National School Lunch and 
Breakfast Programs. We have approximately 55,000 dedicated 
members who serve 30 million children each school day in almost 
100,000 schools. As this committee and the Congress begin to 
think about the 2009 Child Nutrition Reauthorization Act, SNA 
has several goals with regards to nutrition standards.
    First and foremost, provide the Secretary of Agriculture 
with the authority to regulate the sales of all foods and 
beverages sold on the school campus, thus, ending the ``time 
and place'' rule; require that all foods and beverages provided 
on campus, with some exceptions, be consistent with the dietary 
guidelines as is currently required of school meals; and 
require a uniform national nutrition standard throughout the 
country. Children in all States and local districts need the 
same nutrients to grow and to be healthy.
    Finally, please increase the Federal reimbursement as a 
part of any legislation to improve nutrition standards anywhere 
in schools.
    Obesity is a national epidemic, and schools have an 
important role to play, indeed, a critical role to play in the 
fight against childhood obesity. SNA is committed to that fight 
against obesity, but in addressing the obesity issue, we must 
not ignore the practical constraints in the school meal 
program. We urge the Congress to require science-based, 
practical, uniform nutritional standards to benefit all 
children.
    The recall. Mr. Chairman, a not-so-funny thing has happened 
on the way to this hearing. The USDA has had one of the largest 
recalls in history, if not the very largest. As we understand 
it, approximately 143 million pounds of beef were recalled of 
which millions of pounds went to nutrition programs. Schools, 
like all consumers, rely on the Department of Agriculture and 
on the Food and Drug Administration to protect the safety of 
our food supply. The USDA has had an excellent food safety 
record, and we appreciate their vigilance. The schools support 
the USDA commodity distribution program. Approximately 20 
percent of the food served in schools come from the USDA. The 
remaining 80 percent is purchased locally.
    The commodities we receive from the USDA are quite 
important to the programs we run. Finally, in recent years, the 
USDA has greatly improved the quality of the commodity program. 
Schools are treated as customers. The USDA asks what 
commodities the individual local schools would prefer. The 
image of USDA's ``dumping'' of commodities the schools do not 
want and cannot use is no longer valid. There are two areas, 
however, where we believe things can be improved with regard to 
the recall.
    Number 1, communications. In the era of instant news and e-
mail, when any USDA agency puts out a press release saying that 
the product is unfit for human consumption, the information 
reaches parents immediately. Frequently, the information 
reaches the parents before the information reaches the local 
school. That is not good. Parents often start calling before we 
have any information. When the FSIS press release went out on 
February 17th, we had no way of knowing the nature of the 
recall or how serious the threat was to public health. We did 
not have the information we needed to respond to many questions 
we immediately received from very concerned parents.
    In short, we believe that there must be a better 
communications system put in place. There must be faster 
communications between the Food and Nutrition Service and the 
local recipient that may or may not actually be using the 
product, communications from the Food and Nutrition Service in 
Washington to USDA regional offices to the 50 States----
    Chairman Miller. I am going to ask you if you can wrap up, 
please. What you are saying is important, but I want to make 
sure we have time for everybody.
    Ms. Hill. Okay. Then, secondly, as to the recall procedure 
for many of our programs that were affected, we have two of 
them represented today--Dora Rivas, who had over 3,000 cases of 
the affected product, and Craig Weidel, who had 750. The cases 
have yet to be disposed of for various reasons, and it is also 
unclear who will absorb the associated costs with the recall.
    In short, the Department should improve the procedure on 
how to execute the recall when one is announced.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Hill follows:]

     Prepared Statement of Mary Hill, President, School Nutrition 
                              Association

    Chairman Miller, Members of the Committee, we deeply appreciate 
this hearing. This hearing continues a most extraordinary Congressional 
tradition, participated in by the House and the Senate, the 
unprecedented tradition of scheduling a hearing to coincide with an 
organization's Washington meeting. We fully understand and appreciate 
that the tradition represents a shared commitment to ending childhood 
hunger and improving the nutritional health of all children in the 
country.
    I am Mary Hill, the President of the School Nutrition Association, 
and the Director of Child Nutrition in Jackson, Mississippi. With me is 
Katie Wilson our President-Elect from Onalaska, Wisconsin; Dora Rivas 
our Vice President from Dallas, Texas; Craig Weidel, the Chairman of 
our Public Policy and Legislation Committee, from Mesa, Arizona, and a 
few hundred of my best friends. The School Nutrition Association (SNA) 
represents the state and local public administrators of the National 
School Lunch and Breakfast Programs. We have approximately 55,000 
dedicated members who serve 30 million children each school day in 
almost 100,000 schools.
Nutrition standards
    Mr. Chairman, as you know, in the last year or two, most of the 
attention with regard to child nutrition has focused on the key issue 
of nutrition standards. It is a two part challenge: how to implement 
the 2005 Dietary Guidelines for Americans into the meal program and 
what standards to apply to so-called ``competitive foods'' sold outside 
of the meal program whether in the cafeteria or sold down the hall in 
vending machines.
    SNA is deeply committed to the Dietary Guidelines for Americans and 
we believe that they should be applied to all foods and beverages sold 
in school. Years ago we successfully petitioned the Congress to apply 
the Guidelines to school meals. Since 1983, however, we have been 
trying in vain to amend the law and provide the Secretary of 
Agriculture with the authority needed to regulate the sale of all foods 
and beverages sold on the school campus.
    SNA originally endorsed the legislation introduced by Chairman 
Harkin and Representative Woolsey to end the ``time and place rule'' 
providing the Secretary with the authority to regulate the sale of ALL 
foods and beverages in the school, not just those foods and beverages 
included in a reimbursable meal. It was, therefore, with great regret 
that SNA could not support the final version of the nutrition standards 
amendment that was offered during consideration of the Senate farm bill 
last December. Why the change?
    USDA currently reimburses local schools $2.47 for every ``free'' 
lunch provided to a child with income below 130% of the poverty line * 
* * less than the price of a latte at the neighborhood coffee shop. The 
school food service authority needs the revenue from the sale of all 
beverages and foods sold on campus to ``balance the books'' and make 
the program work for all children. Consistent nutrition standards must 
therefore be provided for all foods and beverages sold in the school in 
order to protect the financial and nutritional integrity of the school 
nutrition program. We were concerned that the version of the amendment 
offered as a part of the farm bill could have adversely effected the 
economics of the school meal program in two ways:
    1. It would have locked into law a wide variety of different 
nutrition standards all over the country, increasing the cost of school 
meals at the local level.
    2. The amendment would also have allowed different nutrition 
standards in different parts of the school building, giving a mixed 
message to students and draining needed revenue from the school food 
service authority.
    SNA believes that we need to craft a science based, practical, 
nutrition standard that applies throughout the school and throughout 
the entire country. The children in California need the same nutrients 
for healthy development that are needed by the children in South Dakota 
and Florida.
    Schools have a critical role to play in the fight against obesity. 
We must not, however, craft a standard that could undermine the 
financial status of many local programs thereby jeopardizing their 
service to children, including low income children.
    As this Committee and the Congress begins to think about the 2009 
Child Nutrition Reauthorization Act, SNA has several goals with regard 
to nutrition standards:
    <bullet> First, and foremost, provide the Secretary of Agriculture 
with the authority to regulate the sale of all foods and beverages sold 
on the school campus, thus ending the ``time and place'' rule.
    <bullet> Require that all foods and beverages provided on campus 
(with some exceptions) be consistent with the Dietary Guidelines, as is 
currently required for school meals.
    <bullet> Require a uniform national nutrition standard throughout 
the country. Children in all states and local districts need the same 
nutrients to grow and be healthy.
    <bullet> Finally, please increase the federal reimbursements as a 
part of any legislation to improve nutrition standards anywhere in 
schools.
    We must consider nutrition standards in the practical context of 
the financial structure of the program. Whatever nutrition standard is 
ultimately agreed upon by the Congress or as a result of a Rule Making 
(we prefer a Rule Making) we believe that it must be uniformly applied 
and enforced throughout the school land then throughout the country.
    We appreciate that many states or local school boards, for the best 
of reasons, have tried to do ``better'' than the Dietary Guidelines and 
have adopted their own version of the Guidelines. We are very 
sympathetic to this effort. If the Congress, however, allows each state 
or each district to select its own interpretation of the Dietary 
Guidelines it will further increase the cost of the school meals 
program. Further, if, for example, the athletic department in the 
school is allowed to sell high-profit drinks and the school food 
service authority is prohibited from selling those same drinks it makes 
it much more difficult to ``balance the books'' and feed all children, 
particularly low income children. In short, there is a connection 
between nutrition standards and funding for the program.
    Obesity is a national epidemic and schools have an important role 
to play, indeed a critical role to play, in the fight against childhood 
obesity. SNA is committed to that fight against obesity. But in 
addressing the obesity issue we must not ignore the practical 
constraints in the school meals program. We urge the Congress to 
require a science based, yet practical, uniform national nutrition 
standard to benefit all children.
    Finally, it is our best judgment that developing the precise 
details of the nutrition standard should be left to Administrative Rule 
Making, with the benefit of the Institute of Medicine. As you know, 
science changes all the time. If the nutrition standard were locked 
into law every time the science changed the statute would have to be 
changed.
    The recent experience with the 2005 Dietary Guidelines is 
instructive. USDA has been trying to update the meal pattern since the 
2005 Guidelines were released three years ago. However, the recent 
Guidelines changed the recommendation on fat and included several 
nutrients not included in earlier editions of the Guidelines. After 
much consideration, and several meetings with SNA, last November USDA 
announced that it would have to consult with the Institute of Medicine 
before it could update the meal pattern. Consulting with IOM will take 
two years. Attached is the USDA memo to our state directors.
    We commend USDA for this decision and for acknowledging what we all 
know to be true: nutrition science is complicated. If USDA must consult 
with the IOM before proposing a new school meal pattern, then our 
counsel is twofold:
    1. Please don't lock the nutrition standard into statute; and
    2. Please don't allow each state and district to establish their 
own interpretation of the Dietary Guidelines.
The recall
    Mr. Chairman, a not so funny thing has happened on the way to this 
hearing: USDA has had one the largest recalls in history, if not the 
very largest. As we understand it, approximately 143 million pounds of 
beef was recalled, of which millions of pounds went to nutrition 
programs.
    Schools, like all consumers, rely on the Department of Agriculture 
and the Food and Drug Administration to protect the safety of our food 
supply. USDA has had an excellent food safety record and we appreciate 
their vigilance. The schools support the USDA commodity distribution 
program. Approximately 20% of the food served in school comes from 
USDA; the remaining 80% is purchased locally. The commodities we 
receive from USDA are quite important to the programs we run. Further, 
in recent years, USDA has greatly improved the quality of the commodity 
program. Schools are treated as a customer. USDA asks what commodities 
the individual local school would prefer. The image of USDA ``dumping'' 
commodities the schools do not want and can't use is no longer valid.
    There are two areas, however, where we believe that things can be 
improved with regard to the recall:
            1. Communication:
    In an era of instant news and email, when any USDA agency puts out 
a press release saying the product is ``unfit for human 
communication,'' the information reaches parents immediately. 
Frequently, the information reaches the parents before the information 
reaches the local school. That is not good. Parents start calling 
before we have any information.
    When the FSIS press release went out on February 17th we had no way 
of knowing the nature of the recall or how serious the threat was to 
public health. We did not have the information we needed to respond to 
the many questions we immediately received from very concerned parents. 
In short, we believe there must be a better communication system put in 
place. There must be faster communication between the Food and 
Nutrition Service and the local recipients that may or may not actually 
be using the product. Communication from Food and Nutrition Service in 
Washington to the USDA Regional Offices, to the fifty states, to the 
local school food service authority, and then to the local 100,000 
schools takes too long * * * particularly when CNN can put out the 
recall immediately. The USDA communication system needs to be updated.
            2. The Recall Procedure:
    Many of our programs were affected. Dora Rivas has 3,000 cases of 
affected product. Craig Weidel has 750 cases. The cases have not yet 
been disposed of for a variety of reasons and it is also unclear who 
will absorb the cost associated with the recall. In short, the 
Department should improve their procedures on how to execute a recall 
when one is announced. The schools need better guidance and more 
training. Funds should be provided to execute the recall, to transport 
the product and dispose of the product. Existing procedures are not 
adequate; state and local administrators have not been trained in 
advance on how to execute a recall of this magnitude.
2009 Authorization
    Mr. Chairman, we have focused our testimony on just one issue, plus 
the recall, as they have received the most attention this year. There 
are, of course other issues that we will want to bring to the 
Committee's attention next year, as the 111th Congress drafts the next 
Reauthorization.
    <bullet> We remain concerned about low-income children who cannot 
afford a reduced price meal and the recent economic downturn is making 
the problem worse.
    <bullet> We must find ways to expand the school breakfast program 
and break down the practical barriers to implementing the program.
    <bullet> Providing school breakfast commodities seems like an idea 
whose time has come.
    <bullet> The program needs further streamlining. In most schools 
the number of personnel is limited and the program is increasingly 
complicated. It is very difficult to focus on nutrition standards if we 
are also forced to verify income for tens of millions of children.
    The school nutrition programs have stood the test of time. They 
have risen above partisan politics. We all understand that our children 
are the future of the country. Hungry children can't learn and you 
can't compete in a world economy without an education. An educated 
workforce is the backbone of the country and the school nutrition 
programs are vital to our success.
    It has been many years, Mr. Chairman, since the Congress has given 
these critical child nutrition programs a top to bottom review. We 
thank you again for our first 2009 Reauthorization Hearing and would be 
delighted to answer any questions.
                                 ______
                                 
    [USDA Dietary Guidelines memo, submitted by Ms. Hill, 
follows:]

                United States Department of Agriculture
                       Food and Nutrition Service

            3101 Park Center Drive Alexandria, VA 22302-1500

    The Dietary Guidelines for Americans (DGAs) serve as the foundation 
for national nutrition policies, including the meal patterns and 
nutrient standards of the USDA Food and Nutrition Service (FNS) school 
meals programs. As you are aware, the Child Nutrition and WIC 
Reauthorization Act of 2004 (P.L. 108-265) amended section 9(a) of the 
Richard B. Russell National School Lunch Act to require that the 
Secretary issue guidance to increase the consumption of foods and food 
ingredients that are recommended for increased serving consumption in 
the most recent Dietary Guidelines for Americans. This memorandum 
provides guidance to incorporate the applicable recommendations of the 
2005 DGAs into the National School Lunch Program (NSLP) and the School 
Breakfast Program (SBP).
    Following the release of the 2005 DGAs, USDA assembled an internal 
working group of experienced nutritionists and program administrators 
to examine ways to implement the 2005 DGAs into the school meals 
programs, within group feeding limitations and cost restrictions, in 
preparation for beginning the rulemaking process. Given the complexity 
of issues uncovered during this process, USDA decided to contract with 
the Institute of Medicine (IOM) to convene a panel of experts from 
diverse specialties in child nutrition. This expert panel will provide 
USDA with recommendations to update the meal patterns and nutrition 
requirements for both the NSLP and the SBP. Once a cooperative 
agreement is signed, USDA estimates that it may take IOM from 18 to 24 
months to provide the Department with these recommendations. USDA will 
then engage in the formal rulemaking process to promulgate a proposed 
rule that incorporates the IOM recommendations to the fullest extent 
practicable.
    While awaiting a formal rulemaking, State Agencies (SAs) should 
encourage School Food Authorities (SFAs) to begin proactively 
implementing the applicable recommendations of the 2005 DGAs within the 
current meal pattern requirements and nutrition standards. Gradual 
implementation provides an opportunity for students to develop a taste 
for new items and/or modified recipes. The Department expects SAs to 
encourage the progressive Implementation of the following 
recommendations by all SFAs, regardless of the menu planning approach 
being used.

                        FOOD GROUPS TO ENCOURAGE

                              WHOLE GRAINS

    <bullet> SAs should strongly encourage SFAs to increase the amount 
and variety of whole grain products offered to students, and progress 
toward the goal of making half of all grains offered and served, whole 
grains.
    The consumption of whole grains is strongly encouraged in the 2005 
DGAs; one of the key recommendations states, ``In general, at least 
half of the grains should come from whole grains.'' The Food and Drug 
Administration, in draft industry guidance released after the 
publication of the 2005 DGAs, has defined whole grains as, ``cereal 
grains that consist of the intact, ground, cracked or flaked caryopsis 
[kernel], whose principal anatomical components--the starchy endosperm, 
germ and bran--are present in the same relative proportions as they 
exist in the intact caryopsis.'' According to the 2005 DGAs, the whole 
grain should be the first item listed in the ingredient statement in 
order for a product to be considered a whole grain; for many whole 
grain products, the words ``whole'' or ``whole grain'' appear before 
the grain ingredient's name in the ingredient statement. Examples of 
common whole grains can be found in Table 7 of the 2005 DGAs document.

                         FRUITS AND VEGETABLES

    <bullet> SAs should encourage SFAs to increase the availability and 
service of both fruits and vegetables within the school meals programs.
    <bullet> In the NSLP, SFAs should provide meals that offer both a 
fruit and a vegetable, regardless of the menu planning approach being 
used.
    One of the key recommendations in the 2005 DGAs is to, ``Choose a 
variety of fruits and vegetables each day. In particular, select from 
all five vegetable subgroups (dark green, orange, legumes, starchy 
vegetables, and other vegetables) several times a week.'' Fruits and 
vegetables, as well as vegetable subgroups, offer somewhat different 
combinations of nutrients; thus, consuming a variety of each is 
important for a well-balanced diet.

                                  MILK

    <bullet> SAs should encourage SFAs to offer only low-fat (1% or 
less) and fat-free milk in the school meal programs for all children 
above the age of two.
    The 2005 DGAs include a recommendation to consume fat-free and low-
fat milk and milk products on a daily basis, with a key recommendation 
stating, ``Consume three cups per day of fat-free or low-fat milk or 
equivalent milk products. Children two to eight years should consume 
two cups per day of fat-free or low-fat milk or equivalent products.'' 
The recommendation for low-fat and fat-free milk/milk products does not 
apply to children younger than two years of age. Statutory requirements 
necessitate offering fluid milk in a variety of fat contents in the 
NSLP; this requirement can be met by offering both low-fat and fat-free 
milk. Higher fat milks are unwarranted for children older than two.

            NUTRIENTS WITHOUT CURRENT REGULATORY BENCHMARKS

                                 SODIUM

    <bullet> SAs should strongly encourage SFAs to begin reducing 
sodium incrementally, with a long-term, step-wise plan for meeting the 
DGAs recommendation.
    For the first time, the 2005 DGAs have set a quantitative upper 
limit on daily sodium consumption. A key recommendation of the document 
is, ``Consume less than 2,300 mg (approximately 1 tsp of salt) of 
sodium per day.'' Previous versions have encouraged reduction of sodium 
intake, without providing a numeric target. Since past DGAs have not 
provided a quantitative sodium recommendation, neither have the school 
meals programs. However, SFAs have long been encouraged to reduce 
sodium in foods offered/served, and sodium levels have been monitored 
by FNS and SAs during School Meals Initiative reviews.
    Current DGA recommendations are substantially lower than the 
average American's daily intake. Since sodium is a common preservative, 
as well as a distinct flavor enhancer, successfully shifting the 
American palate toward no more than 2,300 mg per day will require a 
concerted effort across all food systems. SAs should strongly encourage 
SFAs to establish and commit to a plan that would reduce the sodium 
levels in school meals incrementally; a gradual, long term approach to 
meet the DGAs recommendations will allow students' palates and the 
product marketplace the necessary time to adjust.

                                 FIBER

    <bullet> SAs should encourage SFAs to plan meals that provide fiber 
at levels appropriate for each age/grade group that reflect the 2005 
DGAs recommendation.
    The 2005 DGAs are the first to quantify a daily fiber 
recommendation: ``The recommended dietary fiber intake is 14 grams per 
1,000 calories consumed.'' Previous versions of the DGAs simply 
encouraged increased fiber intake, without specifying a numeric target. 
Hence, the nutrient standards of school meals followed suit by 
encouraging consumption without requiring a minimum level.
    Now that a specific intake target has been published in the DGAs, 
SAs should encourage SFAs to move toward this target. Even SFAs that 
have been meeting recommended benchmarks for fiber over the past few 
years will likely need to increase fiber to meet the DGA level. For 
example, school meals planned to meet the nutrition requirements for 
the Grade IV age/grade group in the Traditional Food Based Menu 
Planning Approach should offer meals that, on average over a school 
week, provide at least 11 grams of fiber based on the minimum caloric 
requirement of 785 calories.
    Fiber is found naturally in fruits, vegetables (particularly 
legumes) and whole grains; these food groups can be significantly, but 
gradually, increased in school meals. Gradual increases now, will allow 
students' palates to adjust and will make the transition to a numeric 
fiber target easier. Fruits can be served without the addition of salt, 
butter or sauces; the addition of whole fruits as a choice in school 
menus will increase fiber while reducing sodium.

                              CHOLESTEROL

    <bullet> SAs should encourage SFAs to plan meals that, on average 
over a school week, provide less than 100 mg of cholesterol at lunch 
and less than 75 mg of cholesterol at breakfast for all age/grade 
groups.
    The current nutrition requirements for both lunch and breakfast 
encourage schools to reduce cholesterol levels. A maximum threshold has 
not been established because the previous version of the DGAs 
encouraged low cholesterol intake, but did not specify a numeric 
target. A key recommendation of the 2005 DGAs, however, is to consume 
``less than 300 mg/day of cholesterol.'' Therefore, SAs should 
encourage SFAs to plan menus that, on average over a school week, do 
not exceed more than one-fourth of the daily recommendation at 
breakfast and no more than one-third of the daily recommendation at 
lunch. Data from the third School Nutrition Dietary Assessment study 
(SNDA-III) indicate that many SFAs are already offering meals at or 
below levels that reflect the 2005 DGAs recommendation (i.e., 100 mg 
for lunches and 75 mg for breakfast).

                               TRANS FATS

    <bullet> SAs should encourage SFAs to plan meals that minimize 
trans fats.
    The 2005s DGAs represent the first discussion of trans fats in 
national nutrition policy. A key recommendation of the document 
includes, ``keep trans fatty acid consumption as low as possible.'' 
While a numeric target is not included, SAs should encourage SFAs to be 
cognizant of trans fats in all foods that are offered/served and to 
work toward minimizing these unhealthy fats.

                                SUMMARY

    While awaiting publication of the final rule updating the school 
meal patterns and nutrition standards, SAs should encourage SFAs to 
begin proactively implementing the 2005 DGAs. Implementation can be 
accomplished through a variety of initiatives such as:
    <bullet> increasing whole grains
    <bullet> increasing both fruits and vegetables
    <bullet> offering only low-fat and fat-free milk/milk products
    <bullet> reducing sodium
    <bullet> increasing fiber
    <bullet> controlling cholesterol
    <bullet> minimizing trans fats.
    FNS is in the process of developing technical assistance tools that 
will further assist schools in meeting the 2005 DGAs; these tools will 
be distributed as they are finalized.
    Thank you for your dedication and cooperation in ensuring that 
Child Nutrition Programs deliver the best possible nutrition service to 
the Nation's children.

                              Stanley C. Garnett, Director,
                                          Child Nutrition Division.
                                 ______
                                 
    Chairman Miller. Ms. Corrigan.

 STATEMENT OF KATHLEEN CORRIGAN, DIRECTOR, FOOD AND NUTRITION 
          SERVICES, MT. DIABLO UNIFIED SCHOOL DISTRICT

    Ms. Corrigan. Greetings to Member McKeon, to members of the 
Committee, and especially to Chairman Miller.
    I am the Director of Food and Nutrition Services for the 
Mt. Diablo Unified School District in Concord, California. My 
name is Kathleen Corrigan, and I am speaking from the local 
level today. I am here to tell you about some of the exciting 
things happening in Mt. Diablo schools.
    We believe breakfast is critical for every student in order 
to start the day ready to learn. For the past few years, we 
have had a focused plan to increase the number of students who 
eat breakfast. We started with a presentation to district 
administrators, reviewing the impact of breakfast on learning, 
test scores and on student behavior. Next, we began to offer 
breakfast a second time at recess or at midmorning for the 
students who cannot quite get up early enough to get there for 
the first breakfast service. We have expanded the number of 
high-quality, nutritious menu offerings to include more fresh 
fruit, whole grain cereals, breads, and low-fat dairy products. 
Two years ago, we expanded our summer lunch service to include 
breakfast and after-school snacks. We serve breakfast at 35 of 
our 47 schools.
    While I am an absolute believer in breakfast, it is 
prohibitively expensive to operate small breakfast programs. At 
a minimum, the additional staff time could cost just a little 
over $3,000 a year, which is manageable. However, in addition, 
extending the hours of the current employee would require 
adding health benefits with an additional cost of about $15,000 
a year. That requires serving a whole bunch of bagels, whole 
wheat of course.
    I want to try automated vending machines to serve breakfast 
at small schools. If we can vend a nutritious and fun breakfast 
that appeals to our student customers, this would be a way to 
limit additional staffing at each site. We have applied for a 
grant from California to purchase those vending machines for 
three of our schools, and we are hoping our grant is 
successful.
    While we are still serving less than 5,000 students, our 
breakfast efforts have been successful. We served 6.8 percent 
more breakfasts in the 2005-2006 school year and 7.3 percent 
more last year. Our breakfast service so far this year has 
increased by another 12 percent over last year. We are thrilled 
with these results.
    I am also very excited to be part of Mt. Diablo's 
Coordinated School Health Team. Coordinated School Health is a 
planned, integrated program designed to enhance the health of 
children and adolescents. The real payoff for districts comes 
with the accompanying improvements in both academic performance 
and attendance. Coordinated School Health includes eight 
interrelated components. Those are health education, physical 
education, health promotion for staff, parent and community 
involvement, health services, psychological services, nutrition 
services, plus a healthy and safe school environment. Most of 
these components are in place in Mt. Diablo at different levels 
of implementation, and enthused representatives serve on our 
district team.
    There is a piece still missing from our Coordinated School 
Health plan. I believe that children will become like the 
people who teach them. Children spend the majority of their 
young lives at home and at school. The people who teach them 
are also at home and at school. Until these powerful teachers 
model the positive health habits we want to see in our 
students, the problem of childhood obesity will continue.
    Since the children will become like the people who teach 
them, my next goal is to find funding to develop a wellness 
program for school staff and parents in Mt. Diablo. This 
remaining piece of our Coordinated School Health plan will 
begin to create and encourage positive health habits in parents 
and school staff because these behaviors must become habits. 
When our most critical role models are modeling healthy habits 
for kids, change will happen and not until then.
    I also want to mention California's Senate Bill 12 that 
went into effect in July of 2007. This bill imposed nutrition 
guidelines on all foods and beverages sold on campus during the 
school day, including fundraisers by student and adult groups. 
Top leadership in my district embraced the intent of this 
legislation. Working with the superintendent and his 
assistants, we called together countless site personnel and 
involved them in its implementation. This was, actually, a 
career moment for me. After 25 or 26 years of working in school 
nutrition, I never dreamed I would see such massive change in 
district practices. The nutrition standards have been applied 
to all groups districtwide, so it can be done.
    Thank you for this opportunity to tell you about some of 
the things I am most excited about in Mt. Diablo schools.
    Chairman Miller. Thank you.
    [The statement of Ms. Corrigan follows:]

Prepared Statement of Kathleen A. Corrigan, MBA, RD, Director, Food and 
         Nutrition Services, Mt. Diablo Unified School District

    Greetings to the Members of the Committee and especially to 
Chairman Miller. I am the Director of Food and Nutrition Services from 
Mt. Diablo Unified School District in Concord, California. My name is 
Kathleen Corrigan and there are some exciting things I want to tell you 
about Mt. Diablo's schools.
    We believe breakfast is critical for every student in order to 
start the day ready to learn. For the past few years we've had a 
focused plan to increase the number of students who eat breakfast. We 
started with a presentation to district administrators reviewing the 
impact of breakfast on--learning, test scores and student behavior.
    Next we began to offer breakfast a second time at recess or 
midmorning for the students who can't quite get there early enough for 
the first breakfast service. We have expanded the number of high 
quality, nutritious menu offerings to include more fresh fruit, whole 
grain cereals and breads, and low fat dairy products. Two years ago we 
expanded our summer lunch service to include breakfast and after school 
snacks.
    We serve breakfast at 35 of our 47 schools. While I am an absolute 
believer in breakfast, it is prohibitively expensive to operate small 
breakfast programs. The additional staff time could cost just a little 
over $3000/year and that's manageable. However, in addition extending 
the hours of the current employee would require adding health benefits 
with a cost of almost $15,000/year. That requires serving a whole bunch 
of bagels!
    I want to try automated vending machines to serve breakfast at 
small schools. If we can vend a nutritious and fun breakfast that 
appeals to our student customers, this would be a way to limit 
additional staffing at each site. We have applied for funding from 
California to purchase such vending machines for three schools and 
we're hoping our grant will be funded.
    Our breakfast efforts have been successful. We served 6.8% more 
breakfasts in the 2005/2006 year and 7.3% more last year. Our breakfast 
service so far this year has increased by another 12.1% over last year 
and we are thrilled with these results!
    I am also very excited to be part of Mt. Diablo's Coordinated 
School Health team. Coordinated School Health is a planned, integrated 
program designed to enhance the health of children and adolescents. The 
real payoff for districts comes with the accompanying improvements in 
both academic performance and attendance.
    Coordinated School Health includes eight interrelated components 
and those are health education, physical education, health promotion 
for staff, parent and community involvement, health services, 
psychological services, nutrition services, and a healthy and safe 
school environment. Most of these components are in place in Mt. Diablo 
at different levels of implementation and enthused representatives 
serve on the district team.
    There is a piece still missing from our Coordinated School Health 
plan--I believe that children will become like the people who teach 
them--Children spend the majority of their young lives at home and at 
school. The people that teach them are also at home and at school. 
Until these powerful teachers model the positive health habits we want 
to see in our students, our problem of childhood overweight will 
continue.
    Since the children will become like the people that teach them, my 
next goal is to find funding to develop a wellness program for school 
staff and parents in Mt. Diablo. This remaining piece of our 
Coordinated School Health plan will begin to create and encourage 
positive health habits in parents and school staff--because these 
behaviors must become habits. When our most critical role models are 
modeling healthy habits for kids, change will happen--and not until 
then.
    I also want to mention California's Senate Bill 12 that went into 
effect in July 2007. This bill imposed nutrition guidelines on ALL 
foods and beverages sold on campus during the school day, including 
fundraisers by student and adult groups. Top leadership in my district 
embraced the intent of this legislation. Working with the 
superintendent and his assistants we called together countless site 
personnel and involved them in its implementation. This was a career 
moment for me--I never dreamed I would see such a massive change in 
district practices. The nutrition standards have been applied to all 
groups districtwide--so it can be done.
    Thank you for the opportunity to tell you some of the things I am 
most excited about.
                                 ______
                                 
    Chairman Miller. Mr. Hecht.

STATEMENT OF KENNETH HECHT, EXECUTIVE DIRECTOR, CALIFORNIA FOOD 
                        POLICY ADVOCATES

    Mr. Hecht. My name is Ken Hecht. I am with California Food 
Policy Advocates--a nonprofit, statewide nutrition policy and 
advocacy organization. I want to tell you about research we 
have done on the impact that the Federal commodities have on 
the nutrition quality of school meals.
    Why look at commodities or school meals? Because our 
children are in the grip of an obesity epidemic that threatens 
their health, well-being and longevity. One-third of our kids 
are obese or are overweight, and the number is growing. We have 
to take steps to change the environment in which this is 
happening, and school meals give us one such opportunity.
    In California, over 3 million children, half the State's 
school enrollment, eat a USDA-reimbursed lunch every day. A 
third of that number eat breakfast at school. The school 
cafeteria then is a great opportunity to give children good 
nutrition and to teach them in the most effective way what they 
need to know about nutrition for their lifetimes.
    Studies show that USDA meals at school are healthier than 
meals from any other source, but the School Nutrition and 
Dietary Assessment Number III tells us that they still need 
much improvement. A minority of schools is serving meals that 
meet all the current USDA standards, and the standards are 
years behind the schedule Congress assigned in being aligned 
with the 2005 Dietary Guidelines for Americans. In fact, at the 
present pace, the 2010 guidelines will be published before the 
USDA aligns the meal standards to the 2005 Dietary Guidelines.
    So our study of commodities under a grant from the Robert 
Wood Johnson Foundation and together with Samuels & Associates 
aims to see whether commodities contribute to nutrition quality 
in school meals. Commodities have reached a level of about $1 
billion a year and represent about one-fifth of the food on a 
plate. Over the years, since the mid-1990s, the USDA has 
improved the nutrition quality of commodities, has dropped some 
items like shortening, has added some like whole grains and 
fresh fruits and vegetables, and has modified numerous items--
leaner ground beef, more low-fat cheese.
    The problem is that the school districts persist in 
selecting mainly meat and cheese. About 82 percent of the 
commodities ordered by our districts are for meat and cheese. 
Fruit and vegetables amount to only 13 percent, and much of 
that is for potatoes.
    A second problem may be with the processors who our study 
found handle more than half the commodity foods that the USDA 
earmarks for California schools. This is a likely source of the 
fat, saturated fat, sodium, and sugar that the SNDA III found 
to be in school food and which has been incriminated as a 
contributor to the obesity epidemic.
    As far as we can determine, the USDA does not exercise the 
oversight of processors in terms of nutrition quality. We urge 
the Committee to examine the role of processors with regard to 
nutrition quality as well as food safety.
    School districts feel compelled to order meat and cheese 
because they want to make the food as appealing as possible, 
which many think means replicating fast food. In fact, school 
food resembles fast food a lot--the food that is contributing 
to childhood obesity. Because it is thought that this is the 
only way to get participation high--and it needs to be high to 
keep a cafeteria in the black--our observations are to the 
contrary. If kids are given good, healthy food, they like it 
and they buy it.
    What are some solutions? As for commodities, expand the 
supply of fruit and vegetables, but the Department of Defense's 
Fresh Program may be disappearing, and it never has been very 
large to begin with.
    One idea is to add school breakfast as a basis for 
accumulating entitlement dollars just as with lunch. The new 
credit could be earmarked for fresh food for school breakfasts. 
A pilot program in California has done just that and has been 
evaluated with flying colors.
    Provide onetime grants to districts to buy refrigerators 
and freezers they need to store fruits and vegetables. Develop 
incentives for school districts to use their commodity 
entitlements on fresh fruits and vegetables, perhaps a rebate 
so they can stretch their entitlement dollars.
    One of the things that needs to be changed in addition to 
food quality is participation so, as the food improves, more 
children get to it. There are ways to do that--moving toward 
universally free food, as some school districts are doing; 
improving the process of qualifying kids for free and reduced-
price meals by leaving anachronistic paper applications behind 
and relying upon readily available demographic data; bringing 
breakfast into the classroom or serving it as the first class 
break and second chance breakfast. There is a lot of experience 
across the Nation that shows that bringing breakfast into the 
school day makes participation soar. The result can be more 
kids eating better meals, learning good nutrition skills for 
their lifetime and starting to slow and reverse the obesity 
epidemic.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Mr. Hecht follows:]

 Prepared Statement of Kenneth Hecht, California Food Policy Advocates

    Chairman Miller, Ranking Member McKeon, Members of the Committee, 
my name is Ken Hecht, I am with California Food Policy Advocates, a 
nonprofit, statewide nutrition policy and advocacy organization. CFPA 
works to improve the health and well-being of low-income Californians 
by increasing their access to nutritious, affordable food. We give high 
priority to strengthening and expanding participation in the federal 
nutrition programs in light of their scope and size. I deeply 
appreciate the chance to speak on behalf of many California nutrition 
advocates and the broader community of Californians concerned about our 
youngsters' nutrition, health and academic opportunity.
    I want to start by talking about research we currently are 
completing on federal commodities and their impact upon the nutrition 
quality of school meals. We are doing the research, which is sponsored 
by the Robert Wood Johnson Foundation, together with Samuels & 
Associates, a nutrition research and evaluation firm with years of 
experience studying school nutrition.
    Federal commodities are extremely important. Amounting to about $1 
billion per year, commodity foods constitute nearly one-fifth of the 
food--and influence selection of the other food items--in the lunch 
that 30 million school children consume each school day. School lunch 
supplies about one-third of a student's recommended daily allowances 
(RDAs), and school breakfast furnishes one-fourth the RDAs: together 
this is more than half the nutrition a child receives in a day--180 
days per year for 13 years of school. The food represents nourishment, 
and it also teaches children about healthy eating, in the same way that 
schools use their authority and trust to teach math and language 
skills. In these two ways, commodities, as the backbone of school 
meals, are important to children, but commodities also are 
indispensable to schools, making it possible for them to operate their 
cafeterias financially in the black.
    Since the mid-1990's USDA has made impressive changes to 
commodities. The common belief that commodities are merely a device by 
which USDA relieves growers of unhealthy food and foists it off on 
school children is nothing more than an urban myth. Over the years, 
USDA gradually has improved the nutrition quality of commodities: it 
has eliminated food items high in fat and sodium and sugar; it has 
added healthy items--whole grain items, for example, and developed a 
small but promising program to bring fresh fruit and vegetables to 
schools. And numerous items have been retained while their nutrition 
quality has improved: for example, ground beef is leaner, more cheese 
is low fat, canned fruit and vegetables contain less sugar and sodium. 
Recent communications with USDA underline the agency's continuing 
commitment to offer school districts food that is responsive to obesity 
prevention.
    Still, there are numerous opportunities to strengthen the 
commodities program's capacity to prevent obesity and food insecurity. 
Given that one-third of California's children are in the grip of the 
obesity epidemic, improving the nutrition in school meals is an 
imperative. The recent results of USDA's School Nutrition and Dietary 
Assessment (SNDA) III confirm that most school meals fail to meet the 
current standards for fat, saturated fat and sodium, elements with 
ominous consequences for obesity.
    The most obvious step should be to expand consumption of fresh 
fruit and vegetables. They are at the top of every nutritionist's 
obesity-prevention list. USDA should help school districts develop more 
refrigeration and frozen storage and cover other one-time-only costs in 
connection with serving much more fresh produce. The supply of fresh 
produce should be vastly expanded, as well. If the very popular but 
small Department of Defense Fresh program is withdrawn, as we have been 
told it might be, a good replacement should be developed quickly, and 
the commodity entitlement dedicated to fresh produce should be 
expanded, too. One way to do this would be to provide school districts 
with a commodity entitlement based upon breakfast participation, in 
addition to lunch participation, and to direct the new entitlement 
credit to fresh produce in the School Breakfast Program. California has 
just completed an amazingly successful pilot program, providing 10 
cents of state reimbursement to school districts for every additional 
serving of fruit in the breakfast program, but like most states, 
California is facing huge budget deficits and potential cuts to all its 
education spending. Federal funds may be indispensable to carry this 
proven winner forward.
    We were surprised to discover that over 50 percent of USDA 
commodity foods are directed to manufacturers for further processing 
before being delivered to school districts. USDA, in some cases, and 
California Department of Education, in the others, does monitor the 
processors to ensure that the entitlement value in the commodity that 
goes in to a processor come out to a school district. But it is our 
understanding that there is no responsibility on the state or federal 
agency to regulate or even to influence the nutrition quality of the 
processing, and no governmental agency does so. In some cases, USDA-
purchased products are sent to processors where the foods take on fat, 
sodium and sugar that are counterproductive to the students' health. 
Considerations of nutrition quality, then, as well as food safety, may 
argue for greater oversight of what goes on in commodity processing. We 
urge this Committee to consider how it might strengthen this major, but 
un-scrutinized link in the food chain.
    Perhaps the most disturbing finding from our study is that, 
regardless of what commodity foods USDA now offers, the districts in 
California persist in spending more than 4 out of 5 of their 
entitlement dollars on meat and cheese--items high in saturated fat and 
high in calories. Fruit and vegetables amount to just 13 percent, and a 
good chunk of that was potatoes. Because commodities tend to be the 
first foods ordered by school districts when assembling their menus, 
the pattern described above means that school meals will continue to be 
meat- and cheese-centric, perpetuating the kinds of diets that are 
contributing to the overweight and obesity that our youngsters now 
confront.
    What prevents this paradigm from shifting? Most of all, it is the 
commandment that school food directors receive from their school 
board--do not lose a penny. This insistence that food service stay in 
the black means that revenues must be high. This requires that 
participation be high, and this in turn depends on the appeal of the 
food. In most cases, schools cater to the students' perceived 
preference for fast food, which then gets imported into the school and 
sanctified by its presence there--if the school serves it, it must be 
good for us. What are the ways out of this difficult and destructive 
bind?
    First and foremost, of course, is the insufficiency of the 
reimbursement. Healthy foods cost more to purchase, store, prepare, 
monitor and assess. The school food directors we know, if provided 
adequate reimbursement, would jump at the chance to turn out the 
healthiest meals. A second strategy is to provide financial 
incentives--a rebate, if you will--to schools to spend more of their 
entitlement dollars on fresh fruit and vegetables, whole grains and 
other healthy foods. Third, there should be support for training: 
school food staff need to understand the nutrition crisis and learn how 
to help turn it around. USDA regional staff and state agency staff have 
lost funding over the years so that they are unable to provide 
leadership, training and monitoring to ensure good nutrition quality. 
Not least, USDA meal nutrition standards should be aligned with the 
Dietary Guidelines for Americans on an accelerated schedule; interim 
steps, as outlined in USDA's memorandum dated December 17, 2007, should 
be vigorously promoted, and monitoring of lunch and breakfast should be 
broader and more frequent.
    California has played a leadership role in improving the nutrition 
standards in competitive foods. These, as you know, are all the foods 
sold on school campuses in competition with the USDA reimbursable 
meals. Even with the tighter standards, however, there are glaring 
problems--the first example that comes to mind is sports drinks, laced 
with calories and unnecessary so long as free, fresh water is 
available. The far better solution, as The New York Times noted on 
Sunday, is to do what Los Angeles Unified School District has done--cut 
out competitive foods altogether. This strengthens the lunch program 
and eliminates the stigma that arises when kids who can, buy a la carte 
items and the kids who can't are segregated in the USDA-meal line.
    Having said all this, I want to emphasize that recent studies, like 
SNDA III, continue to make the case that school meals, while not 
everything they should be, are better nutritionally than others and 
that school meals have been shown to improve students' nutrition and 
health, contribute to better attendance and attention, and help 
students achieve better academic performance. It is an overriding 
imperative to work toward more meals, as well as better meals, for more 
students. How can this be done? Ideally, with meals that are 
universally free, so that all children, regardless of family 
background, will participate free of stigma. But it also will increase 
participation substantially to eliminate the vagaries of paper 
applications for free and reduced-price school meals. These pieces of 
paper are so often lost, mislaid, forgotten, or simply filled in wrong 
by parents, that free and reduced-price certification should not depend 
upon them. Paper applications for free and reduced-price meals are 
anachronistic and counterproductive; area eligibility, based upon the 
census or other readily available demographic measures, would improve 
accuracy and better target the neediest children for the essential 
nutrition that school meals can provide.
    There are other promising ideas, too, to increase participation in 
school meals. Closed campuses, with cafeterias serving the reimbursable 
meal and minimizing a la carte items, would boost participation in 
school lunch at the same time that it contributes to better academic 
achievement and student safety. Breakfast in the classroom, second 
chance breakfast and other opportunities to eat after the bell, when 
and where students are more likely to eat--all are proven methods for 
improving nutrition and academics. School meals, like other school 
activities, are wonderful opportunities for learning. They are too good 
to ignore.
                                 ______
                                 
    Chairman Miller. Ms. Houston.

   STATEMENT OF KATE HOUSTON, DEPUTY UNDER SECRETARY, FOOD, 
NUTRITION AND CONSUMER SERVICES, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Houston. Good afternoon, Chairman Miller, Mr. McKeon 
and members of the Committee.
    I am Kate Houston, Deputy Under Secretary for Food, 
Nutrition and Consumer Services at the United States Department 
of Agriculture. Thank you for inviting me here today to provide 
the Committee an important update on a critical issue facing 
the Department, consumers and schools--the Hallmark/Westland 
Meatpacking Company's beef recall.
    As Agriculture Secretary Ed Schafer has assured the public, 
I also want to assure you: The food supply is safe. This 
includes USDA commodities available to schools and to other 
outlets participating in our nutrition assistance programs.
    On January 30th, the USDA became aware of the gross 
mistreatment of cattle by the Hallmark/Westland Meatpacking 
Company. Because this company was a supplier of commodity 
ground beef and beef products to the National School Lunch 
Program, the USDA put an immediate administrative hold on the 
use of this company's products dating back to October 1, 2006. 
We are resolved to find out what went wrong at this plant and 
to hold anyone involved in violations fully accountable for 
their actions. We are also resolved to examine our inspection 
system to make sure that we have the best possible policies and 
practices in place and to deter violations of facilities under 
the Department's jurisdiction. We immediately put the 
administrative and regulatory tools at our disposal to work.
    I want to mention, however, that I represent one missionary 
within the Department of Agriculture. Certainly, we have sister 
agencies--the Food Safety and Inspection Service and the 
Agricultural Marketing Service--that have also played a role in 
this recall.
    On February 17, the USDA asked Hallmark/Westland for a 
voluntary recall of 143 million pounds of fresh and frozen 
ground beef products, which included the product that had 
previously been put on hold by schools. The recall action was 
deemed necessary because the establishment did not comply with 
FSIS regulations. The USDA is requiring that any unconsumed 
products affected by the recall be destroyed or rendered 
inedible. We directed States to provide school districts with 
State-specific instructions for the appropriate disposal of 
affected product.
    The USDA takes this recall very seriously. It is the 
largest beef recall in the history of the United States, and 
its impact is far-reaching, affecting nutrition assistance 
programs in 45 States and the District. While the managing of a 
recall of such proportion has many challenges, the USDA has 
taken a series of actions to maintain clear lines of 
communication with States and local programs to minimize the 
disruption to school food service operations.
    The FNS administers the school meal programs through 
agreements with State agencies. Once FNS communicates hold and 
recall information to States, they, in turn, are responsible 
for notifying school districts that received or were scheduled 
to receive affected product. State agencies serve as the 
primary source of information for local schools. State agencies 
and other entities that administer nutrition assistance 
programs receive information from USDA's Rapid Alert System. 
This is an automated, web-based tool to communicate critical 
hold and recall information as quickly as possible following an 
administrative hold or recall. A rapid alert message is sent 
continuously until receipt of that message is acknowledged.
    The Rapid Alert System in this case was immediately 
activated to announce the January 30th administrative hold and, 
again, to provide notification of the February 17 recall. It 
was then employed several additional times to provide updated 
information as needed. The same week the beef recall was 
announced, the USDA provided information directly to all public 
schools through the Department of Education's Crisis 
Communication System.
    FNS stakeholder organizations have also been invaluable in 
disseminating critical information. Over the past weeks, we 
have reached out to numerous organizations, including the 
School Nutrition Association, the American Commodity 
Distribution Association, the National Association of 
Elementary and Secondary School Principals, and the National 
Scoreboard Association. These organizations agreed to provide 
assistance in getting the word to the local level, and we have 
been grateful for their help.
    FNS is actively collecting information from States to 
determine the status of affected beef that has been consumed or 
is on hold and is scheduled to be destroyed. Currently, almost 
90 percent of the affected beef has been traced, including 
about 60 percent of the Westland product that was further 
processed into value-added product like beef crumbles and 
hamburger patties.
    The USDA is working as quickly as possible to provide 
replacement product to schools with the goal of minimizing any 
disruption to the local school food service operations. We are 
working with States and further processors to prioritize these 
shipments to destinations with the greatest need. The USDA is 
offering schools a choice of replacement product or a credit to 
their commodity entitlement account that will be available for 
the following school year. We have also agreed to reimburse 
schools for destruction costs and for certain other related 
expenses.
    Mr. Chairman, this is the most up-to-date information I can 
provide today on the recall. The USDA is dedicated to providing 
safe and wholesome products to children served through the 
National School Lunch Program. We are very proud of our 
extraordinary track record of school food safety and for the 
commodity program that provides children with the highest 
quality food available in the marketplace. I would be pleased 
to provide the Committee with future updates as information 
becomes available, and I would be happy to answer any questions 
you may have.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Houston follows:]

  Prepared Statement of Hon. Kate J. Houston, Deputy Under Secretary, 
 Food, Nutrition, and Consumer Services, U.S. Department of Agriculture

    Good afternoon, Mr. Chairman and members of the Committee. I am 
Kate Houston, Deputy Under Secretary for Food, Nutrition and Consumer 
Services (FNCS) at the U.S. Department of Agriculture (USDA). Thank you 
for inviting me to appear before you today as part of the hearing, 
Challenges and Opportunities for Improving School Nutrition.
    The mission of the Food and Nutrition Service (FNS) is to increase 
food security and reduce hunger in partnership with cooperating 
organizations by providing children and low-income people access to 
food, a more healthful diet, and nutrition education in a manner that 
supports American agriculture and inspires public confidence.
    USDA's 15 federal nutrition assistance programs collectively touch 
the lives of one in five Americans in the course of a year. And as this 
Committee knows, the school meals programs--two of the largest 
nutrition assistance programs--represent an especially important 
opportunity to improve the health and well-being of the Nation's school 
children. With over 101,000 schools and institutions participating in 
the National School Lunch Program and nearly 84,000 participating in 
the School Breakfast Program, USDA is proud that schools across the 
country are providing safe, wholesome, and nutritious meals to over 31 
million school children each school day.
    I have been invited here today to provide the Committee important 
information on a critical issue facing the Department, consumers, and 
schools--the Hallmark/Westland Meat Packing Company (Hallmark/Westland) 
beef recall. As Agriculture Secretary Ed Schafer has assured the 
public, I want to assure you--the food supply is safe. This includes 
USDA commodities available to schools and other outlets participating 
in our nutrition assistance programs.
    On January 30, 2008, the Humane Society of the United States 
brought to public attention an alarming and disturbing video showing 
the gross mistreatment of cattle. Secretary Schafer has described the 
footage depicted in the video as ``shameful and irresponsible.'' The 
Department has pledged to find out what went wrong at the Hallmark/
Westland and to hold anyone involved in violations fully accountable 
for their actions.
    As has been reported, Hallmark/Westland was one of the contractors 
of commodity ground beef and beef products for the National School 
Lunch Program. In total, USDA's Agricultural Marketing Service (AMS) 
purchased about 20 percent of USDA commodity ground beef and beef 
products from Hallmark/Westland. About 94 percent of this beef--just 
over 50 million pounds--was directed to the National School Lunch 
Program. In addition, some schools may have purchased beef from 
Hallmark/Westland commercially.
    The same day the video was released, USDA immediately put the 
administrative and regulatory tools at our disposal to work. We 
launched investigations by our Office of the Inspector General and by 
our Food Safety and Inspection Service (FSIS) and AMS. Those 
investigations are ongoing. We also put an immediate administrative 
hold on the use of Hallmark/Westland products dating back to October 1, 
2006 received by the school lunch program and our other nutrition 
assistance programs.
    Over the past five weeks, as information has become available, USDA 
has taken further actions with regard to Hallmark/Westland. Based on 
evidence from the ongoing investigation, FSIS recommended to Hallmark/
Westland that it undertake a recall of all products produced at the 
plant since February 1, 2006, and Hallmark/Westland initiated a 
voluntary recall of 143 million pounds of fresh and frozen beef 
products.
    USDA recommended that this action be taken because of a serious 
violation of FSIS' animal slaughter rules. For that reason, USDA 
recommended this be a Class 2 recall. While it is extremely unlikely 
that these animals posed a risk to human health, recall action was 
deemed necessary because the establishment did not comply with FSIS 
regulations. USDA is requiring that any unconsumed products affected by 
the recall by destroyed or rendered inedible.
    Immediately following the recall, Food, Nutrition and Consumer 
Services' Under Secretary, Nancy Montanez Johner, pledged that the Food 
and Nutrition Service (FNS), along with our Department partners, would 
do everything possible to assist State Agencies and schools in 
responding to the recall. She also made clear that parents and their 
children should continue to have confidence in the safety of the food 
supply as a whole, including meals served as part of the National 
School Lunch Program.
    We at the Department of Agriculture take this recall very 
seriously. It is the largest beef recall in U.S. history and its impact 
is wide-reaching. It has affected nutrition assistance programs in 45 
States and the District of Columbia. We do not yet know the total 
number of affected schools. While managing a recall of such proportion 
has many challenges, FNS, together with our Department partners, has 
taken a series of actions to maintain clear lines of communication with 
States and local programs, and to minimize disruption to school meal 
service operations.
    Ongoing communication is critical to effectively carry out a recall 
of this magnitude. From the time of USDA's decision to suspend 
Hallmark/Westland contracts, FNS has utilized all available channels to 
provide ongoing communication with State agencies, school officials, 
and other key stakeholders.
    USDA utilizes a Rapid Alert System (RAS), an automated, web-based 
tool to communicate emergency information to USDA commodity recipients. 
It allows State agency cooperators to immediately receive information 
by several means, including cell phone, email, or fax. The system uses 
the communication tools sequentially until the recipient acknowledges 
receipt of the message, which confirms to USDA that all affected 
parties received notification.
    FNS immediately activated the RAS following the January 30, 2008, 
administrative hold, and provided the necessary information for States 
and Indian Tribal Organizations (ITO) to track the product and suspend 
use until further notice. A follow-up notice was sent to all States and 
ITOs about the product hold.
    When FSIS announced the recall on February 17, 2008, the same 
procedures were followed. Issuances through RAS and e-mail went out on 
February 17, February 19 and February 26 to announce additional 
products as the trace-forward and trace-backward investigations 
continued.
    FNS also partnered with the U.S. Department of Education to 
disseminate the recall information to school officials in every school 
district across the country. FNS has developed and disseminated 
information for specialized audiences, including State Agencies, school 
officials, and parents. State distributing agencies provided schools 
with State-specific, detailed instructions for the appropriate 
destruction of product in accordance with local health agency 
requirements. Talking points were developed and provided to schools for 
use in communicating recall information to concerned parents.
    FNS stakeholder organizations have also been invaluable to 
disseminate critical information regarding the recall. Over the past 
weeks, FNS reached out to numerous organizations, including the School 
Nutrition Association, the American Commodity Distribution Association, 
the National Association of Elementary and Secondary School Principals, 
and the National School Boards Association. All agreed to provide 
assistance, and we are grateful for their help.
    To further ensure school food service professionals are fully 
informed, FNS posted recall information on FNS' food safety website and 
utilized the Meal Talk list serve to advise them of its availability. 
Specialized staff in FNS' seven regional offices is on call to provide 
ongoing technical assistance to States and schools.
    USDA has been working aggressively with both States and local 
program operators to locate affected product as expeditiously as 
possible. I can report today that significant progress has been made. 
Within hours of USDA's decision to suspend Hallmark/Westland contracts 
on January 30, FNS identified which State agencies ordered commodity 
beef products from Hallmark/Westland and in what amounts. These 
products were immediately placed on hold and since that time, have not 
been available for use in schools and other nutrition assistance 
programs.
    FNS is actively collecting information from States to determine the 
status of affected beef that has been consumed or is being destroyed. 
States have been responsive and almost 90 percent of affected beef has 
been tracked. States continue to report daily as they receive 
additional information from their local school food authorities. The 
States' responsiveness reflects the effectiveness of the RAS and the 
positive relationships we have nurtured with State officials and 
stakeholder organizations. As of February 29, thirteen States have 
completed their reporting on the status of affected product, and 
reporting is in progress and nearing completion in the 32 additional 
States affected and the District of Columbia. We continue to work with 
States to complete a full accounting of all affected products dating 
back to February 1, 2006.
    There are some challenges in identifying all affected product 
involved in the nutrition assistance programs, and these challenges can 
slow down the completion of this process. For example, USDA must rely 
on States to provide information on where the affected meat was 
distributed following USDA delivery to our State customers, and in most 
cases, States rely on schools to provide information back to the State. 
Local schools have yet to finalize their reports to States regarding 
the status of affected product covered by the recall dating back to 
February 1, 2006.
    Furthermore, the commodity distribution system is complex. About 60 
percent of the Westland product purchased for schools went to further 
processors to convert the ground beef into value added products, like 
meatballs or hamburger patties. That meat is often commingled with 
other product. While the identity of the product is not lost, it adds a 
layer of complexity to the tracing and reporting process.
    Finally, when a product reaches a distributor or State warehouse, 
product is not segregated by manufacturer, but by product type, such as 
beef taco meat. There can be several of the same type of product by 
different manufacturers all stored in the same warehouse location. 
Accordingly, in a recall, the distributors and warehouses must contact 
every school that received a specific type of product, and provide 
identifying information, including lot numbers on the recalled product 
for the schools to use when locating the product in their systems. As 
I'm sure you can appreciate, all of these activities take time to 
complete.
    While the process of tracing all affected product continues, FNS 
and AMS are working as quickly as possible to provide replacement 
product to schools with the goal of minimizing disruption to local 
school food service operations. We are working with States and further 
processors to prioritize shipments to destinations with the greatest 
need, and we are working with schools to determine their needs for 
product replacement for the remainder of the school year. Because the 
end of the school year is fast approaching, USDA is offering schools a 
choice of replacement product or credit to their commodity entitlement 
accounts that will be available for the next school year.
    Mr. Chairman, this is the most up-to-date information I can provide 
today on the recall. USDA staff has held several staff-level briefings 
for House staff over the past weeks, and as our efforts continue, I 
would be pleased to provide updates to the Committee as new information 
is available.
    I also want to take this opportunity to share a broader view of 
FNS' activities to ensure school food safety, and to briefly mention 
the wide array of other important activities ongoing within the Agency 
to improve meal quality, participation, and program integrity.
    There are many controls in place that allow us to have day-to-day 
confidence in the safety of meals served in schools, and school meals 
have a demonstrated safety record. Congressional and USDA action has 
been crucial in developing a strong school food safety system, which 
was further enhanced by the passage of the Child Nutrition and WIC 
Reauthorization Act of 2004. The mechanisms and resources Congress 
provides have allowed us to develop a robust and successful school food 
safety record.
    To implement the food safety provisions of the Act, USDA issued 
``Guidance for School Food Authorities: Developing a School Food Safety 
Program Based on the Process Approach to HACCP Principles,'' which was 
distributed to all school food authorities in the summer of 2005. The 
process approach to HACCP (Hazard Analysis and Critical Control Point) 
is a food safety management system that focuses on the control of 
biological, chemical, and physical hazards in food by scrutinizing 
every step of the food preparation process.
    Through a HACCP-based food safety program, schools can identify 
potential food hazards, identify critical points where hazards can be 
controlled or minimized, and develop monitoring procedures to determine 
whether the hazards identified are effectively controlled.
    The HACCP Guidance was developed with input from a variety of 
stakeholders, including representatives from FSIS, the Food and Drug 
Administration, the National Food Service Management Institute, the 
Centers for Disease Control and Prevention, the School Nutrition 
Association, the National Environmental Health Association, State and 
local public health Agencies, and State and local education agencies, 
including school food service directors.
    The Child Nutrition and WIC Reauthorization Act of 2004 also 
increased the existing food safety inspection requirement from one to 
two per year. These health inspections must be conducted by the State 
or local governmental agencies responsible for food safety inspections. 
The Department provides school districts with ongoing food safety 
education and outreach to program stakeholders by conducting 
presentations throughout the country to inform State and local health 
and school officials about food safety inspection requirements.
    In addition to our ongoing work to ensure the safety of school 
meals, FNS is engaged in a variety of activities that support, 
encourage, and promote efforts to improve the quality of school meals, 
and the nutrition environment more generally, in ways that are both 
consistent with the latest nutrition science, and meet the specific 
needs and circumstances of each community.
    To conform meal standards to the most recent Dietary Guidelines for 
Americans (DGA), FNS has contracted with the National Academy of 
Sciences' Institute of Medicine (IOM) to recommend updated meal 
patterns and nutrition requirements for both the National School Lunch 
Program and the School Breakfast Program. When the IOM recommendations 
are final, FNS will then engage in the formal rulemaking process to 
promulgate a proposed rule that incorporates the IOM recommendations to 
the fullest extent practicable.
    While IOM is working to develop recommendations, FNS is encouraging 
State Agencies to provide technical assistance to school food 
authorities so that they can begin implementing the applicable 
recommendations of the 2005 DGAs within the current meal pattern 
requirements and nutrition standards. This spring, FNS will issue 
updated school meal pattern guidance and a series of nutrition fact 
sheets to assist foodservice professionals and menu planners in 
implementing the 2005 DGAs.
    In addition, FNS has launched an aggressive initiative to improve 
the nutritional quality of its commodity program. Schools participating 
in the NSLP today have access to the widest choice of healthy commodity 
foods in history. Over the past two decades, we have worked to reduce 
the levels of fat, sodium, and sugar. We now offer schools more than 
180 choices of quality products, including whole grains and low fat 
foods. FNS also continues to promote the HealthierUS School Challenge 
and support implementation of local wellness policies as part of its 
broad strategy to reduce obesity and improve the nutritional health and 
well-being of children. To ensure a strong future for the National 
School Lunch and Breakfast Programs, FNS is working hard to improve 
program participation among children from all income levels, and we are 
working with schools to strengthen program integrity by assisting 
schools in improving the accuracy of meal counting and claiming. In 
particular, FNS is focusing efforts on improving participation in the 
School Breakfast Program, where a significant disparity exists between 
the average daily participation in the School Breakfast Program and the 
National School Lunch Program.
    While we all recognize that providing nutritious meals in a healthy 
school nutrition environment is important, school children represent a 
particularly vulnerable population, and first and foremost, USDA, along 
with our partners at the Federal, State and local levels, has a 
responsibility to ensure school meals are safe.
    We are proud of our many efforts to ensure the safety and improve 
the quality of school meals, and many of these efforts could not have 
been possible without the School Nutrition Association and the many 
school food service professionals who give their very best to provide 
nutritious meals in our schools each day.
    As we celebrate National School Breakfast Week, I would like to 
conclude by thanking Congress and the school food service community for 
your daily commitment to the National School Lunch and School Breakfast 
Programs.
    Thank you for the opportunity to share the work of USDA with you 
today.
                                 ______
                                 
    Chairman Miller. Ms. Parham.

STATEMENT OF PENNY PARHAM, ADMINISTRATIVE DIRECTOR, DEPARTMENT 
    OF FOOD AND NUTRITION, MIAMI-DADE COUNTY PUBLIC SCHOOLS

    Ms. Parham. Good afternoon, Mr. Chairman, Ranking Member 
McKeon and members of the Committee.
    I appreciate this opportunity to appear before you today 
and to provide testimony regarding concerns with the Federal 
nutrition policy in light of the Westland Meat Company recall.
    I am Penny Parham, the Administrative Director for the 
Department of Food and Nutrition of the Miami-Dade County 
Public Schools. Miami-Dade County Public Schools is the fourth 
largest school district in the Nation, and we serve over 44 
million meals annually. We have over 350,000 students across 
325 school buildings, spread over 2,000 square miles, and we 
are prepared for a challenge such as we experienced with this 
recall.
    The first notification we received regarding the Westland 
meat recall was to hold the beef aside. It came to us via our 
Florida branch of the USDA. We immediately informed all of our 
food service managers and our contracted warehouse to hold the 
boxes and to place them in a separate area pending further 
instructions. We communicated with our distributor to identify 
and to hold the products. We communicated with our school 
district leadership to inform all stakeholders in the status of 
the beef hold. We then removed all beef products from our 
school menu until further notice in order to preserve the 
highest level of confidence in our school program with our 
students, parents and our Miami-Dade community at large.
    During the hold and throughout the recall notification, 
there was continued communication between the Miami-Dade 
schools and the USDA via e-mail, press releases and a 
conference call in which we participated. We received numerous 
support information in the form of guidance materials and 
contact information for answering questions from the community 
regarding holds, recalls and food safety measures.
    When we were officially informed by the USDA that the hold 
had moved to a recall, we worked with our local media and with 
our local health department in crafting our response. We 
documented and destroyed the product, following national 
recommendations and our own internal policy, which is to 
denature it. We then documented our disposal for the USDA, and 
we are in the process of requesting reimbursement or 
replacement of the product that was destroyed. It is our 
understanding that we will receive these reimbursements or 
replacements in a timely manner.
    As a result of the recall and of the removal of all beef 
from our menu during that time period, our food service program 
incurred additional costs because we had to increase our 
inventory in order to replace those items on the menu.
    A recall such as the Westland case contributes to the 
public's perception that school food is inferior or of lower 
quality. Moving forward, we need to assure the public that the 
same level of care is taken with the behind-the-scenes 
treatment of food as is taken with the preparation and with the 
serving of food. The public needs assurance that animals are 
not being mistreated and that sick or downed animals are not 
being used in the production of beef products.
    In addition to the public's perception, it is important 
that we keep our frontline child nutrition employees, such as 
our managers, cooks and servers, assured that the commodity 
foods that we receive are safe, wholesome and of the highest 
quality possible. While the USDA was prompt and communicated 
effectively to us in their handling of the recall, it is of 
utmost importance that they are also prompt in providing us 
with reimbursement or replacement of the product.
    As food service programs have been hit hard by the rising 
costs of food, notably, in Miami-Dade, our cost for milk just 
this school year will be almost $4.5 million more than it was 
over the prior year. The cost of all staple food items such as 
grains, produce and meat has risen over 23 percent. 
Reimbursement from the USDA does not cover the rising costs of 
food, and this makes our program difficult to manage.
    The recall of the Westland beef highlights the sometimes 
complicated and complex mission of providing high-quality, 
health-enhancing foods to our students in the school meal 
programs. To achieve our shared goal of promoting healthy 
lifestyles and of fighting childhood obesity, school nutrition 
programs must be able to procure and serve wholesome, nutrient-
dense, high-quality foods for our breakfast, lunch and after-
school care programs.
    The USDA can have a more meaningful and substantial impact 
on this shared responsibility by increasing our Federal 
reimbursement rates to more accurately reflect the cost of 
producing a healthy school meal and by making fluid milk a 
commodity allocation in our programs.
    On behalf of the Miami-Dade County Public Schools, I would 
like to thank you for your care and concern for our Nation's 
most valuable resource--our children. Thank you for this 
opportunity to appear before the Committee. I welcome any 
questions you may have.
    Chairman Miller. Thank you.
    [The statement of Ms. Parham follows:]

Prepared Statement of Penny Parham, Administrative Director, Department 
                of Food and Nutrition, Miami-Dade County

    Mr. Chairman, Ranking Member McKeon and members of the Committee, I 
appreciate the opportunity to appear before you today to provide 
testimony regarding concerns with federal nutrition policy in light of 
the Westland Meat Company recall. I am Penny Parham, the Administrative 
Director for the Department of Food and Nutrition for Miami-Dade County 
Public Schools in Florida, which is the nation's fourth largest school 
district. I am a Registered Dietitian with a Master's degree in 
Dietetics and Nutrition. Miami--Dade County Public Schools serves over 
40 million meals annually. Although we have over 350,000 students in 
325 school buildings spread across over 2,000 square miles, 
facilitating a recall is a challenge for which we are well prepared. 
The first notification we received regarding Westland Meat Company was 
to hold the beef aside. This notification came via e-mail, from the 
Florida Branch of the United States Department of Agriculture (USDA). 
Once we were provided the lot numbers of the beef in question, we had 
all our food service managers label and hold those boxes in a separate 
area pending further instructions. We communicated with our contracted 
distributor to identify and hold all products at the warehouse, and 
communicated with our school district leadership to inform all 
stakeholders of the status of the beef hold. We then removed ALL beef 
products from the menu until further notice in order to preserve the 
highest level of confidence in our school meal programs with our 
students, parents and the Miami-Dade community at large. During the 
hold and throughout the recall notification, there was continued 
communication between Miami-Dade County Public Schools and the USDA via 
e-mail, press releases and a conference call. We received numerous 
communications from contracted manufacturers who had processed beef 
from the Westland plant, and we received support information in the 
form of guidance materials and contact information from the USDA for 
answering questions from the community about the hold, recalls and food 
safety measures.
    When we were officially informed by the USDA of the recall, we 
worked with our local media and our local health department to respond. 
We documented and destroyed the beef following national recommendations 
and internal policy to dispose of the product (denature). We then 
documented our disposal for the USDA and requested reimbursement or 
replacement of the beef that was destroyed. It is our understanding 
that we will receive reimbursement or replacement of the beef in a 
timely manner.
    As a result of the recall and removal of all beef from the menu, 
our food service program incurred additional costs because we had to 
increase our inventory in order to replace those items on the menu that 
were made with beef. A recall such as the Westland case contributes to 
the public's perception that school food is inferior and of lower 
quality. Moving forward we need to assure the public that the same 
level of care is taken with the behind the scenes treatment of food as 
is taken with the preparation and serving of food. The public needs 
assurance that animals are not being mistreated and that sick or 
``downed'' animals are not used in the production of beef products. In 
addition to the public's perception, it is important that front line 
child nutrition employees, such as the cafeteria managers, cooks and 
servers are assured that the commodity foods they receive in their 
kitchens are safe, wholesome and of the highest quality possible.
    While the USDA was prompt and communicated effectively in their 
handling of the recall of Westland beef, it is of the utmost importance 
that they are also prompt in providing the documented and requested 
reimbursement or replacement of the beef that was destroyed. The USDA 
should assist school food service programs that have been hit hard by 
rising food and labor costs. The cost of staple foods including, milk, 
grains, produce and meat have risen over 23 percent. Notably, our cost 
for milk in the 2007-2008 school year alone has risen an additional 
$4.5 million. Reimbursements from the USDA do not cover the rising 
costs of food and labor. Miami-Dade County Public Schools' policy is to 
provide health promoting foods to students such as fresh produce, whole 
grains, trans-fat free foods and lean meats. The rising costs and 
shortfalls in reimbursements make this extremely difficult to do. We do 
not want to serve our students highly refined sugar and flour products 
which are more affordable, but we are continually being pushed down 
this path.
    The recall of the Westland beef highlights the sometimes 
complicated and complex mission of providing high quality, health 
enhancing foods to our students in school meal programs. To achieve our 
shared goal of promoting healthy lifestyles, school nutrition programs 
must be able to procure and serve wholesome, nutrient-dense, high 
quality foods for school breakfast, lunch and after school care snack 
programs. The USDA could have a more meaningful and substantial impact 
on this shared responsibility by increasing the federal reimbursement 
rates to more accurately reflect the cost of producing a school meal, 
and by making fluid milk a USDA commodity allocation in school meal 
programs.
    On behalf of the Miami-Dade County Public Schools, I would like to 
thank you for your care and concern for our nations' most valuable 
resource--our children. Thank you for this opportunity to appear before 
the committee and I welcome any questions you may have.
                                 ______
                                 
    Chairman Miller. Ms. Rivas.

 STATEMENT OF DORIS RIVAS, EXECUTIVE DIRECTOR, FOOD AND CHILD 
     NUTRITION SERVICES, DALLAS INDEPENDENT SCHOOL DISTRICT

    Ms. Rivas. Mr. Chairman and Mr. McKeon, thank you very much 
for the opportunity to participate in this important hearing.
    I am Dora Rivas, the Vice President of the School Nutrition 
Association, but I am appearing here today in the capacity of 
the Executive Director for the Child Nutrition Service Program 
for the Dallas Independent School District. I am here to 
address the Hallmark/Westland meat recall and how the recent 
recall has affected us in Dallas, Texas.
    Our system is large, and we have more than 215 schools. The 
magnitude of the recent beef recall has been a learning 
experience for the USDA, for the Food Safety Inspection Service 
and for all of us involved in responding to such an event. Food 
service directors across the country have the biggest challenge 
of taking prompt action and also have the direct responsibility 
of staying current on any evolving situation while, at the same 
time, assuring parents that the school meals are safe and 
healthy for their children.
    Since the whole recall process started in January and until 
all of the products are properly removed, we will be traveling 
uncharted territory in making sure that we obtain all of the 
information from all sources that are available to us. I, 
personally, looked daily at the School Nutrition Web site, at 
the newspaper, and watched for every e-mail that had the 
subject title of ``beef recall'' to make sure I did not miss 
anything.
    The greatest challenge was keeping up with the evolving 
magnitude of holding products subject to the food recall first 
learned from the School Nutrition Association Web site that the 
product being placed on hold was fine ground beef and processed 
products containing A608 fine ground beef from Westland. Not 
having the product in stock, we informed our Communications 
Department with Dallas ISD that we did not have any of the 
product in question in our inventory.
    On February 5th, we received further notice from the TDA 
State Commodity Office that the recall included A594, bulk 
beef, which we did have and had diverted to Advance Foods to 
convert the ground beef into crumbles and steak fingers. We did 
have that product in stock. We held our breath, waiting for 
further instructions and then were made aware on February 17th, 
a Sunday, that the USDA Food Safety and Inspection Service had 
released an announcement indicating a class II recall by the 
Hallmark/Westland Meatpacking Company.
    On February the 19th, the SNA Web site had information on 
the recall in question. On February the 20th, 2 days later, we 
received an urgent USDA recall message from the TDA Regional 
Service Center. On the 21st, the Texas Department of 
Agriculture provided additional guidance on the disposal of the 
recall and some Q&A on the reimbursement of expenses.
    It was unfortunate that the press release information went 
out to the public before official information instructions 
arrived to food service directors via USDA and State 
communications, allowing little time to prepare for media and 
public response. Providing information to school districts 
first and then providing a press release on action would have 
been a better situation for us. Having gone through the 
process, however, a major recall now gives us all the 
opportunity to reflect and to develop formal detailed 
instructions for proper handling, disposal and reimbursement 
for future incidents.
    On Monday, February the 18th, after the public release, our 
staff immediately began reviewing the codes to see what was on 
our shelves. By February 22nd, we were able to pull more than 
2,500 cases of product, change the menu and make the delivery 
adjustments. It must be emphasized that making an adjustment in 
a school district the size of Dallas is no small feat. Regular 
routes had to be set aside so that trucks could be dispatched 
to go to all 200 schools and gather any product in school 
freezers immediately. Over 2,000 cases had to be sorted and 
separated from regular stock, and many safeguards had to be 
taken to ensure that there was no potential for accidentally 
pulling recalled product.
    Our school meals have an exceptional safety record. We have 
not had a food borne illness in Dallas ISD and in the many 
schools across the country. A greater emphasis on the 
safeguards schools utilize to ensure safe food as provided to 
our student customers would have been of great benefit to our 
programs. Seeking reassurance, concerned parents called our 
office. We have a HACCP program in place, and all of our 
cafeteria supervisors are ServSafe certified.
    HACCP systems are a comprehensive approach to food safety 
that follows the flow of food through a food service operation 
to eliminate and reduce the risk of foodborne hazards. Among 
these procedures are examinations of foods as they are received 
by the kitchen, and we use proper cooking and holding 
temperatures to ensure food is safe. In addition to the focus 
on the potential risk, this would have been a great opportunity 
to receive support from the USDA and States to educate the 
public on all of our safeguards in place.
    Currently, we are sorting out the costs. On February 21st, 
we received reassurance that we would be reimbursed for some of 
our expenses. Our reimbursable costs are over $114,000. Some of 
the nonreimbursable expenses we have incurred are overtime 
costs and administrative expenses. The district will have to 
absorb these costs. Small school districts will have difficulty 
absorbing the costs due to having been reimbursed at a later 
time.
    This concludes my testimony, and I would be glad to answer 
any questions.
    [The statement of Ms. Rivas follows:]

  Prepared Statement of Dora Rivas, Vice President, School Nutrition 
          Association; Director of Child Nutrition, Dallas, TX

    Mr. Chairman, Mr. McKeon, thank you very much for the opportunity 
to participate in this important hearing. I am Dora Rivas, the Vice 
President of the School Nutrition Association, but I am appearing here 
today in my capacity as the Director of Child Nutrition for Dallas, 
Texas.
    I would like to associate myself with the testimony of our 
President, Mary Hill. The standards issue that she addressed so well is 
a major concern to my colleagues all over the country. Further, as she 
mentioned there is a direct link between the nutrition standards and 
the economics of the program.
    I am here, however to address the Hallmark/Westland Meat recall, 
and how the recent recall has affected us in Dallas, Texas. Our system 
is large; we have more than 215 schools. We have total student 
enrollment of more than 160,000 and our average daily participation in 
the school lunch program is more than 130,000 lunches with 50,000 
breakfasts.
    The magnitude of the recent Beef Recall has been a learning 
experience for USDA, FSIS, and all of us involved in responding to such 
an event. Food Service Directors across the country had the biggest 
challenge of taking prompt action and also had the direct 
responsibility of staying current on an evolving situation while at the 
same time assuring parents that school meals are safe and healthy for 
their children.
    Since the recall started in January and until all products are 
properly disposed, we will be traveling uncharted territory in making 
sure we obtain all information from all sources that are available to 
us. I personally looked daily at the School Nutrition Association 
website, newspaper, and watched for every email that had the subject 
title of ``Beef Recall'' to make sure I didn't miss anything.
    The greatest challenge was keeping up with the evolving magnitude 
of holding product subject to the food recall. We were first informed 
by the School Nutrition Association that the product being placed on 
hold was fine ground meat and processed products containing A608, fine 
ground beef from Westland. Not having the product in stock, we informed 
our Communications Department at the Dallas ISD that we did not have 
any of the product in question on our inventory. On Feb. 5th, we 
received further notice from the state commodity office that the recall 
included A594, Bulk Beef, which we did have and had diverted to Advance 
Foods to convert the ground beef into crumbles and steak fingers. We 
had that product in stock. We held our breath waiting for further 
instructions and then were made aware on Feb. 17th (a Sunday) that 
USDA's Food Safety and Inspection Service (FSIS) released an 
announcement indicating a Class II recall by Hallmark/Westland Meat 
Packing Co.
    On Feb. 19th , the SNA Website had information on the recall in 
question. On Feb. 20th at 1:15pm (2 days later) we received an URGENT 
USDA Recall message from the Regional Service Center. On Feb. 21, the 
Texas Department of Agriculture provided further guidance on disposal 
and some Q & A on reimbursement for some expenses. It is unfortunate 
that press release information went out for public release before 
official information and instructions arrived to food service directors 
via the USDA/State communications allowing little time to prepare for 
media and public response. This should be a lesson learned. Providing 
information to school districts first and then providing a Press 
Release on action taken would have been a much better situation for us. 
Having gone through the process of a major recall now gives us all the 
opportunity to develop formal detailed instructions for proper 
handling, disposal, and reimbursement for potential future incidents.
    On Monday, Feb. 18th after the public release, our staff had begun 
reviewing the codes to see what was on our shelves. (Our 10 degree 
freezer is over 27,200 sq. feet in size.) By February 22nd we were able 
to pull more than 2500 cases of product, changed menu, and make food 
delivery adjustments.
    It must be emphasized that to make an adjustment in a school 
district the size of Dallas is no small feat. Regular routes had to be 
set aside so that trucks could be dispatched to go to all 200+ schools 
and gather any product at school freezers immediately. Over 2000 cases 
had to be sorted and separated from regular stock. Many safeguards had 
to be taken to ensure there is no potential for accidentally pulling 
recalled product until it leaves our warehouse. However, as we were 
gathering all this information and responding to the recall, the media 
arrived at our warehouse interviewing staff on whether we had the 
recalled product in our warehouse. Our very capable staff was able to 
report that we had pulled all product from inventory and from schools 
and assured them of the safety of food supplied to our students. 
Hopefully, a recall of this magnitude does not happen again, however, 
if it does, using this experience will prepare us with pre-established 
procedures as a positive outcome from this very unfortunate event.
    I can only image how difficult it must have been for smaller 
schools that do not have the staff of a large school system. It would 
be even more difficult for them to change the menu at short notice, and 
without a Communication's Office they are responding directly to the 
parents.
    Our school meals have an exceptional safety record. We have not had 
a food-borne illness in the Dallas ISD, and in the many schools across 
the country. A greater emphasis on the safeguards schools utilize to 
ensure safe food is provided to our student customers would have also 
been of great benefit to our programs. Concerned parents called our 
office seeking reassurance. We have a HACCP program in place and all of 
our cafeteria supervisors are ServSafe certified. HACCP (Hazard 
Analysis and Critical Control Point) systems are a comprehensive 
approach to food safety that follows the flow of food through a 
foodservice operation to eliminate or reduce the risk of food borne 
hazards. Among these procedures are examinations of foods as they are 
received by the kitchen and use of proper cooking and holding 
temperatures to ensure food is safe. In addition to the focus on 
potential risk, this would have been a great opportunity for support 
from USDA/States to educate the public on all of the safeguards in 
place.
    Currently we are still sorting out the costs. On Feb. 21st , we 
received some reassurance that we would be reimbursed for some of our 
expenses. Our reimbursable costs are over $114,000.00. Some of the non-
reimbursable expenses we have incurred are overtime costs and 
administrative expenses. The district will have to absorb these costs, 
which total over $2000. (100 hours of driver overtime X $20.00/hour). 
Again, I am concerned about what happens in the small districts where 
they do not have the resources to respond and absorb the costs. Also, 
while some of the costs are reimbursable, the school district must be 
able to advance the costs that will be reimbursed at some point later 
on.
    This concludes my prepared remarks. I would be happy to answer any 
questions.
                                 ______
                                 
    [Additional submission by Ms. Rivas follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you all very much for your 
testimony. Let me see if I can knit two things together here.
    Kathleen, in your statement, at the end, you referred to 
Senate bill 12 in California that imposed nutrition guidelines 
on all foods and beverages sold on campus during the school 
day.
    Ken, in your testimony, you raised the question of 
commodities that are diverted to food processors, and I assume 
that is what you were referring to when you said ``to Advance 
Foods.'' That is a process that takes a commodity and then 
gives it back to you as another food?
    Ms. Rivas. That is correct.
    Chairman Miller. Okay. Does Senate bill 12 not cover those 
foods? You mentioned sodium and fat being added in the diet at 
that point.
    Mr. Hecht. Senate bill 12 speaks just to the competitive 
foods. It does not affect the USDA.
    Chairman Miller. This is not in lieu of what we are doing 
at the Federal level with dietary guidelines?
    Mr. Hecht. Correct. What we are trying to align with the 
dietary guidelines would be the USDA reimbursable meals as the 
statute requires.
    Chairman Miller. Right.
    Kathleen or maybe Ms. Rivas, what control do you have over 
the vendors with respect to sodium, fat, sugar, et cetera?
    Ms. Corrigan. Are you referring to meals?
    Chairman Miller. Yes. Well, I guess when they come back as 
meals or enchiladas or hamburgers or whatever.
    Ms. Corrigan. In my district, we follow a menu planning 
system called Nutrient Standard Menu Planning, so every item is 
incorporated into our menu based on the nutrients in that, 
including fat, saturated fat, calories, vitamins A and C, et 
cetera. So those foods are--you know, they have to meet a 
standard or we cannot use them.
    Chairman Miller. And the processors know that, the vendors 
you buy from?
    Ms. Corrigan. Yes, but we know what to buy. It is really 
our job to buy things that we can get to fit into our menu. Am 
I answering your question?
    Chairman Miller. You are.
    Ms. Corrigan. Okay.
    Chairman Miller. I assume then that the vendor would 
accommodate that because he wants to make the sale.
    Ms. Corrigan. Sure. Sure.
    Chairman Miller. Okay. Ms. Rivas.
    Ms. Rivas. Yes, that is correct. The USDA guidelines, 
regardless of the menu planning system, require that we meet 30 
percent calories from fat and no more than 10 percent from 
saturated fat. So, in our specifying what products we purchase, 
we tell the vendors what products we need and what nutrient 
composition needs to be in that product. That is what we 
purchase, and it must meet the guidelines for the meal pattern.
    Chairman Miller. So, back quickly to you, Ken. I 
interpreted your comments to suggest that this is a loophole 
here in meeting these guidelines with the processors. That is 
not accurate?
    Mr. Hecht. I think the problem is that the assessment of 
these foods at the school district level by the USDA or, in 
many cases, by the State of California, to whom it is 
delegated, comes very infrequently, and it is done against 
standards which are now antique, and they do not isolate the 
contribution--good or bad, really--from a particular processor. 
What you are looking at is the finished product many stages 
later.
    Chairman Miller. Okay. Thank you.
    Ms. Houston, we have got a broad hearing here. How did we 
get from 1 cow to 143 million pounds of beef being recalled? I 
mean, that is how it is portrayed to the public. This cow was 
allowed into the food chain, and now, all of a sudden, we have 
got 143 million pounds of beef--that is some cow.
    Ms. Houston. Well, I want to be clear here, not to overstep 
what I am prepared to discuss as the Food and Nutrition Service 
perspective here dealing with the National School Lunch 
Program. I think your question would be best directed to 
someone at the Food Safety and Inspection Service, and I 
apologize that those individuals are not here with me today. We 
would be happy to provide you some additional information 
regarding how we came up with 143 million pounds of total beef 
and beef products that were recalled.
    Chairman Miller. Well, I guess it has been said in the 
press or has been hinted out in the press, whatever term you 
want to use, that this, in fact, turned out to be somewhat of a 
practice at this particular slaughterhouse/meatpacker and that 
that is how one cow that set off the alarm ended up reaching 
all the way back into time to get to 143 million pounds.
    Ms. Houston. At this point, that part of the investigation 
continues to be ongoing, so I think it would be premature for 
me or for anyone else at the Department to comment, other than 
to say that there was a body of evidence that was presented to 
a recall committee that the Department puts together, and it 
was their determination based on the information available to 
them that the 143 million pounds and a recall date going back 
to February 1, 2006 was a prudent course of action.
    Chairman Miller. Do States or districts have the 
opportunity to select vendors? This was a vendor who was very 
large within the school nutrition program for the supply of 
beef. As to Dallas or Miami-Dade--big districts--could they say 
we want somebody else to supply the commodities or is that 
selection made solely at the Federal level?
    Ms. Houston. The Agricultural Marketing Service at the 
Department makes the determination on a select number of 
vendors that meet very rigorous standards for the provision of 
commodity entitlements. So, at the school level, they are 
informing the Department through the State agencies what 
commodities they would like to receive. The Agricultural 
Marketing Service is then responsible for going out and for 
procuring those commodities from verified vendors.
    Chairman Miller. So they have no say in that process of 
selecting that vendor to supply that product in various regions 
of the country?
    Ms. Houston. Not for the commodity entitlements.
    I would add that the commodity entitlement portion of the 
food that is part of the national school lunch meal is about 15 
to 20 percent of the total meal. The additional part of the 
meal is food that is purchased commercially at the local level 
with cash reimbursement that is provided by the Department of 
Agriculture.
    Chairman Miller. Thank you.
    Ms. Houston. For that section, my point is that the local 
levels are making the decision as to what vendors they use to 
provide the food.
    Chairman Miller. Thank you. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. I kind of was going 
down the same path you were.
    This is not something we deal with all the time. Probably, 
I guess, the Ag Committee is more familiar with this, but I was 
trying to think how this grew to be such a large recall. Then I 
also wonder how long it takes from the time the beef is 
slaughtered until it is eaten. It seems to me like there is 
quite a bit of time in there. I do not know if this meat is 
frozen or in what kind of condition it is kept. When you get 
that large, when you are talking 143 million pounds, how much 
of that beef has already been eaten? It just seems to me like--
I do not know how we get our arms around it.
    Ms. Houston. Just to provide some context, there were just 
over 50 million pounds of beef from the total 143 million 
pounds that we have identified as going to the National School 
Lunch Program and to our other nutrition assistance programs.
    Mr. McKeon. How much again?
    Ms. Houston. Just over 50 million pounds that went to our 
nutrition assistance programs.
    Mr. McKeon. 50 million pounds?
    Ms. Houston. Correct. About 94 percent of that was provided 
to the National School Lunch Program. We had a few other 
nutrition assistance programs that received very small amounts 
of that product. About 30.5 million of those pounds, through 
our tracing process, we expect to have already been consumed. 
Generally speaking, school food authorities have product in 
their freezers for a maximum of about 6 months. So, while the 
recall dates back to February 2006, there was a smaller amount 
of product that was currently in the inventories of school food 
authorities or in the pipeline to be shipped to those schools, 
and that product was put on hold as of January 30th. So, while 
the recall began on February 17, that product had already been 
on hold and was out of the menuing of school meals several 
weeks before that time.
    Mr. McKeon. Boy. When we are building cars, it seems like 
we are buying things that are--an auto manufacturer is 
expecting a transmission to come in the day that it is put in 
the car and it has gone out, and they move things very quickly, 
and we are talking about a perishable product. Even though it 
is kept in a freezer, you could keep up to 6 months.
    Again, this really, really throws me. I used to be a meat 
cutter and I would see a beef would come in, we would cut it 
up, we would sell it that day, and hopefully it is consumed in 
the next few days. And I just--it is just hard for me to really 
get a handle on all of this where we can track 143 million 
pounds of beef that is somewhere slaughtered, put out into the 
process and keep a handle on all that, keep track of all that. 
It is--I am glad I am not on the Ag Committee. I guess we will 
be having other hearings as we go into the--I am sure I should 
have some other questions about the food nutrition program, but 
I am stuck on the recall. And, Mr. Chairman, I think I will 
just grapple with that myself. I don't even know what questions 
to ask. I would yield back. Thank you.
    Chairman Miller. Thank you. Mr. Andrews.
    Mr. Andrews. Thank you. I would like to thank the panel. 
Ms. Houston, in 2003 the GAO said the USDA had a pattern of 
``choosing food vendors with a history of known safety 
violations.'' In 2005, the Inspector General of the USDA said--
and I quote--``adequate management controls were not in place 
to ensure that ground beef products purchased were free of 
pathogens.'' It went on to note that one unnamed plant had had 
40 violations but continued in the program, and in 2003 and 
2004 it noted in that plant, again unnamed, that there were 
samples of E. coli and Salmonella found in ground beef. My 
understanding is that the problem that occurred here with 
Hallmark is a problem that occurred with downer cows that 
occurred after there was an inspection of the facility but 
before the slaughter. Is that correct?
    Ms. Houston. That is correct. All of the animals that day 
had passed an ante mortem inspection as it is called.
    Mr. Andrews. How long of a time usually passes between that 
ante mortem inspection and the slaughter?
    Ms. Houston. Here again we are starting to veer to a Food 
Safety and Inspection Service venue, and I would be hesitant to 
answer that particular question. It is really out of my realm 
of expertise. But I would be happy to get the information to 
you.
    Mr. Andrews. I wish that you would. Does the Department 
have a policy as to the maximum time that can expire between 
the ante mortem inspection and the slaughter?
    Ms. Houston. Again, I think that question would be best 
directed to the Food Safety and Inspection Service, and we will 
be happy to get you that information.
    Mr. Andrews. I would like that. And let me tell you what 
troubles me. And I speak frankly as only someone who has the 
information that I have learned at this very meaningful hearing 
today. The Hallmark plant was supplying 20 percent of the 
ground beef in the program. There are only about 10 suppliers, 
as I understand. Was it the largest of the suppliers?
    Ms. Houston. Over the period of the recall it was the third 
largest supplier, and last year it was the second largest.
    Mr. Andrews. So it is the third largest supplier. How many 
inspectors were assigned to the plant to do these ante mortem 
inspections of the cows?
    Ms. Houston. Again, I apologize, Mr. Andrews. But that is a 
Food Safety and Inspection Service question. And I am not 
familiar with what the specific----
    Mr. Andrews. I would also like you to supplement the 
record--it is not your fault that you don't know it. I would 
like you to supplement the record by telling us whether that 
number of inspectors was higher or lower than it was 5 years 
ago, as to whether there were more inspectors or fewer in 
place. Was there a record of prior violations of Hallmark 
before this recall?
    Ms. Houston. We would need to defer to FSIS to find out if 
there were any previous infractions by that plant, and again we 
can get you that information. I would comment that in terms of 
pathogen risk for the National School Lunch Program, we have a 
zero tolerance policy for any pathogens and we do test every 
lot of----
    Mr. Andrews. No. No. I fully understand that and I 
understand that the testing of the lots is a different question 
than the ante mortem inspection of the cows themselves. And do 
you think--well, I suppose it is outside your realm of 
expertise. But I would ask you to ask those who would know this 
whether there should be a standard for this or not, right? I 
mean there is a standard that says no downer cows may be used 
for ground beef; is that correct?
    Ms. Houston. For the National School Lunch Program cows 
must be ambulatory in order to be slaughtered.
    Mr. Andrews. The reason for that is that there is a higher 
incidence of BSE in the downer cows than there is in the 
ambulatory cows; is that right?
    Ms. Houston. I would say that in this particular situation 
there was a violation of that regulatory requirement, which is 
the reason in which the recall occurred.
    Mr. Andrews. I think what we would like to know--and I 
would invite you to supplement the record--is how frequent are 
those violations. How would you know, how often do you inspect? 
Is there a standard? I mean, if I understand this in 
layperson's terms what happened here is that a cow that passed 
the ante mortem inspection becomes a downer cow? Is that what 
happens before the slaughter? But there is something that 
happens between the inspection and the slaughter which lets 
this into the mix, right?
    Ms. Houston. That is correct. What can happen, my 
understanding--and again I would defer to my colleagues at the 
Food Safety and Inspection Service--is that the animals were 
inspected and passed the ante mortem inspection and sometime 
during their walk from the holding area where they passed the 
inspection to their walk to the knock box they went down. 
Oftentimes this is due to an acute injury such as breaking a 
leg----
    Mr. Andrews. My time has expired, but I would just ask you 
to let us know what inspection regime exists to make sure that 
doesn't happen again or a lot and, if so, what data do you keep 
on that so we can keep an eye on this.
    Thank you, Mr. Chairman.
    Chairman Miller. Congresswoman Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. Ms. Hill, you talked 
about that Congress should require a uniform national standard, 
nutritional standard for all foods and beverages so that--
anyway, that would include vendors or any group in the school, 
it would be fund raising or selling any foods or anything; is 
that correct?
    Ms. Hill. What we are trying to do is level the playing 
field during the school day. So that involves anything that 
occurs from the beginning until the end of school. So, yes, it 
could involve some of those if they are occurring during the 
school day.
    Mrs. Biggert. Do you know any school systems that do that 
now, that have a uniform standard--let's say the whole--the 
States have a standard that does that?
    Ms. Hill. We do. We have some States that have already, in 
compliance with the dietary guidelines, set standards. And what 
we are asking so that we can be uniform--right now we have just 
got many different types of standards across this country, 
which is really costly to our programs when you look at the 
fact that we need to be financially sound and some of the 
things that we need to purchase to maintain our programs. So 
what we are asking is that we have that uniformity of that 
standard because basically what occurs for a child to eat in 
California is the same that should occur in Florida. So we are 
just asking for that uniform standard.
    Mrs. Biggert. And you want that regulation by law?
    Ms. Hill. Yes.
    Mrs. Biggert. Is there any difference across the country 
because there are different foods for different areas that this 
would affect and change the type of meals that would be served?
    Ms. Hill. No. I don't think it would involve so much the 
type. Because still as the food service director, we are still 
going to be looking at the cost and looking at the products 
that we are using. And you will still have some differences in 
different school districts in different regions in the country. 
We are just saying that you want that standard set when you are 
talking about the amount of sodium, when you talk about the 
amount of sugar. But you will still have the variances of the 
menu items across the----
    Mrs. Biggert. Just taking the commodities that go into 
making a meal can come out very different----
    Ms. Hill. Right.
    Mrs. Biggert. Entree, whatever you want to call them.
    Ms. Hill. That is correct.
    Mrs. Biggert. Ms. Corrigan, you talk about the breakfasts 
required. Have you any data that shows that the children that 
have the breakfasts and have the lunches, that there is an 
improvement in the academics?
    Ms. Corrigan. I don't have local data, but there has been a 
lot of research done to document the fact that breakfast does 
have an impact on student attendance even and their behavior in 
the classroom, as well as test scores. And I am sure we could 
get you that information.
    Mrs. Biggert. I think there has been some books written 
about it, too. But you talk about the vending machines or 
vending to provide a breakfast. What would that look like and 
would it be a hot meal that would come out of----
    Ms. Corrigan. Unfortunately, the word ``vending'' has a 
very bad rap. But we just look at it as another way to deliver 
meals there are vending machines available now so that students 
can enter a student I.D. Number and only get a complete lunch 
or a complete breakfast. It would be a chilled breakfast or 
lunch, a sandwich, fruit, that sort of thing, as well as a 
chilled breakfast.
    Mrs. Biggert. Do you do that now?
    Ms. Corrigan. We are hoping to. We did get some funding 
from Kaiser Permanente to put one vending machine in one of our 
middle schools, and that is in the process of being--we are 
wiring the school and getting that set up and we hope to get 
that started in the next month or so. And then we have asked 
for grant funding because they are not cheap machines. They 
cost about $15,000.
    Mrs. Biggert. But having vending is the reason for doing 
that, so you can have the meals served at different times?
    Ms. Corrigan. Yes. At the middle school it would serve as 
an additional point of service so that when all students 
arrived just a few minutes before school starts, we have an 
opportunity to serve more of them, and then at the elementary 
level we would use it--because it is self-operated we don't 
have to add staffing and add benefits to an employee to be 
there in order to serve breakfast.
    Mrs. Biggert. Along with increasing the nutrition, 
shouldn't we also consider the physical fitness and the 
physical education that is offered at these schools?
    Ms. Corrigan. Certainly.
    Mrs. Biggert. Do you have physical fitness in your schools 
every day?
    Ms. Corrigan. We do. That is not under my area of 
expertise, but we do still have PE and----
    Mrs. Biggert. Okay. If you--to reauthorize this, what would 
be the three top issues that you would like to see addressed in 
the reauthorization?
    Ms. Corrigan. Oh. That is a tough one. Can I think about it 
for a minute? I don't think too well on my feet unfortunately. 
Reimbursement, of course, nutrition standards and----
    Mrs. Biggert. Would anybody else like to add another one?
    Ms. Parham. We need to have some improvement on the 
economic eligibility income guidelines. Right now in Miami-
Dade, a family of three is supposed to earn less than $22,300 
to qualify for a free meal. Wages just have gone up. Costs have 
gone up. So these economic eligibility guidelines no longer 
really certify the needy families for these. So that would have 
to be looked at. And, of course, the reimbursement rates and 
improving our USDA commodity allocations so that we--districts 
can be protected against having higher food costs while still 
maintaining and serving fresh fruits, fresh vegetables, whole 
milk, lean meats and the healthy items that we want our 
children to eat. Those would be the top three.
    Mrs. Biggert. I yield back belatedly.
    Mr. Hecht. Of course we would start with reimbursement. But 
beyond that I would urge the Committee to think of new ways to 
increase participation, which we badly need to do both in 
breakfast and in lunch. Breakfast, the way Kathleen is talking 
about during the school day, gets all kinds of good 
participation. At lunch time, if we had children certified for 
free and reduced priced lunches because of where they live or 
because of demographic materials that are available to 
everyone, rather than depending on paper applications which get 
lost before they get home or don't get returned, we would be 
serving a lot of children who desperately need that nutrition.
    Mrs. Biggert. Thank you. Yield back.
    Chairman Miller. Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman. Ms. Houston, I don't 
know if you can answer this one. If you can't, maybe have 
somebody get back to me because I share my friend Mr. McKeon's 
thoughts while I am trying to get my mind wrapped around this 
problem, the severity of it. But can you or someone elaborate 
how you can be certain that the practices that affected the 
meat produced at Hallmark/Westland are not taking place at 
other facilities given that the regulations--that the defiance 
of the regulations in that plant were taking place while there 
were USDA inspectors on site?
    Ms. Houston. Again, I hate to sound like a broken record 
here, but anything dealing with the food safety and inspection 
side really is best handled by my colleagues at FSIS. I will 
say that Secretary Schaefer has pledged to support all ongoing 
investigations into what went wrong at this plant and to make 
any changes that are required to ensure that we don't have 
these kinds of violations happening again.
    Mr. Hare. And I appreciate that. Could you maybe have 
somebody respond to myself or the Committee from USDA or the 
Committee address that because my concern is that if this 
happened at this facility with USDA inspectors on site, it 
could be happening at others. And I don't want to have to see 
us go through another one of these recalls.
    Ms. Houston. I think the first step here is we need to 
understand what went wrong and why it went wrong. And once we 
have a better understanding of that information, we will be in 
a position to identify what changes, if any, need to be made.
    Mr. Hare. Thank you. Ms. Rivas, you testified about 
concerns about the ability of the smaller school districts to 
address the major recall of beef. And I come from a district 
that has a lot of rural areas, a lot of smaller schools. And 
from both a personnel perspective and monetary perspective, 
they are problems. As SNA represents personnel from both large 
and small school districts, I was wondering if you could 
provide any additional insights about how this recall would 
more significantly impact smaller school districts, those 
smaller school districts?
    Ms. Rivas. I think currently the process was the--the flow 
of communication from the Food Safety and Inspection Service, 
USDA, all the way down to the end user. And what I think would 
help all school districts is just to be able to make that 
communication system more immediate. We have the safest food 
supply in the world, and child nutrition programs are held to 
an even higher standard as far as food safety is concerned. And 
we needed assistance to be able to reassure parents that the 
school meals were safe and okay for their children and we 
needed more support in being able to reassure those small 
school districts do not have communication departments to be 
able to assist in responding to the parents. And many of them 
are not as capable in being able to reassure the parents and do 
not know all of the details related to the recall and the 
process. So I think being that we have gone through the recall, 
formalizing some of those procedures, providing more training 
for them, I think would be able to help not only small but 
large school districts as well.
    Mr. Hare. Thank you. Ms. Hill, I don't have a lot of time 
left. But you suggested in your testimony that the lack of 
uniform standards has driven the price of reimbursed meals up. 
I wonder if you could elaborate on the relationship between 
varying State and local standards to the school nutrition 
programs?
    Ms. Hill. One of the main problems is when you are 
utilizing so many different standards across the country it 
just costs us more to get products because I may want a 
specific product in Mississippi, somebody else may want the 
same or similar product just--I will use a chicken nugget as an 
example. There may be 15 different types of chicken nuggets and 
just trying to produce that could be costly to our programs 
when you are looking at trying to maintain what the 
reimbursable rate is right now of 2.47 in our programs.
    So we are all over the page with those standards. It is 
just costing our programs to get the products in and to 
maintain what we need to maintain within those guidelines of 
the funding that we are presently receiving.
    Mr. Hare. Thank you very much, Mr. Chair. I yield back.
    Ms. Hill. If I could add one more thing, to answer that 
question, because we could have some other things. As we look 
at the reauthorization of 2009 and when we look at that wish 
list there are several things. But we are also concerned about 
breakfast and would really like the implementation of more 
breakfast programs and really look at removing some of those 
barriers that are up as far as breakfast is concerned. The 
other thing has to do with the fact of looking at commodities 
for our breakfast programs because presently we are not getting 
any commodities for our breakfast programs. And also looking at 
how we can further streamline the programs. They are getting so 
complicated until much of our time now rather than dealing with 
nutrition standard, those kinds of things that we need to deal 
with, we are focusing on verifying income for 10 million 
students across this country. So we really need to look at our 
programs and what it is we are being required to do to maintain 
those programs. Certainly we are still concerned about those 
low income children who cannot afford those reduced priced 
meals. And particularly with the recent economic downturn, it 
is really making the problem worse. So I did want to add that 
because we do have a wish list.
    Mr. Payne. [presiding.] Thank you. Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman. And I thank all of 
you. I missed the beginning of this. I was meeting with my Farm 
Bureau folks and got here late. So I have been trying to get my 
arms around it. It is not an easy issue for those of us who 
don't work with it every day. But I want to sort of focus on 
the problems with the Westland/Hallmark Meat Company and the 
recall here and how that was handled. And maybe I will start 
with Ms. Houston and go to the others. But how will the 
handling of this, what did you all learn from this in terms of 
changes you may make in the future or changes that perhaps 
should be made in the future with response to any incidents in 
the nutrition programs?
    Ms. Houston. Mr. Castle, I appreciate the question. And as 
we can all appreciate, any time we go through an unprecedented 
situation such as this one, there are things that we learn from 
the experience and there is always things that we can do better 
the next time around. From the perspective of the Food and 
Nutrition Service, we are taking a look at our mechanisms to 
communicate information in a timely manner to make sure that 
everybody who needs the information has it as quickly as 
possible. We are pleased to have this rapid alert system that 
allows us to very quickly get information about either an 
administrative hold or a recall to our State agencies. But we 
learned through this process that in some cases there was some 
time delay between when that information got to the State 
agency and when it was ultimately communicated to school 
districts. We were gracious to the Department of Education that 
enabled us to use their crisis communication systems so that we 
could get information directly to school officials. But we are 
looking at mechanisms by which we can have direct lines of 
communication with school food service personnel across the 
country for future instances, and I am sure there is technology 
in place that will enable us to be able to accomplish that 
goal.
    Certainly we appreciate all of the comments and information 
that is provided to us by the local level and we will take all 
of that into consideration in thinking through other ways in 
which we can further improve our activities next time around.
    Mr. Castle. Thank you very much. Let me open up that 
question and your comments to the other panelists to see if 
they have comments about the way this was handled or could be 
handled.
    Ms. Rivas. I can just say that I appreciate Ms. Houston's 
comment on being able to make that communication system faster 
and more immediate to local school districts. I think that in 
addition to that as we have worked through the procedures 
related to the handling of the recall and implementation of it, 
through the disposal of the product and the reimbursement, if 
we can now go through and formalize the definitions of what is 
the recall and what is the hold and what is Class 1, Class 2, 
Class 3 and be able to put them in training modules to be able 
to have emergency preparedness training for local school 
districts, I think that would be helpful. And I think just 
continuing to reassure our parents that we do have the safest 
food supply in the world as well as that--that child nutrition 
programs are held to a higher standard and this is why the 
recall occurred. And so we can assure the parents that all our 
child nutrition programs have safe food and that they can be 
assured that we follow food safety programs and that we provide 
training to all of our staff to assure that from the point that 
a product is delivered to us to the point that it is prepared 
and the point that is served, that, you know, we follow strict 
temperature holding and preparation procedures to assure that 
our meals are safe and healthy for our students.
    Mr. Castle. Thank you. Do any of the rest of you have 
comments on notification methodology?
    Ms. Hill. If I could just add a little because, first of 
all, I want to say we have had a wonderful working relationship 
with USDA over the years and of course they were at our meeting 
yesterday to really talk about this problem. But the point we 
just want to be clear is that there is a flaw in the system and 
we just need better communications at the school district level 
to reach us so that then we can be proactive and get the 
correct information out so what we think is that, yes, we 
appreciate the working relationship, but there are some 
concerns with the system, getting the communications out and 
then the execution of the recall. Even though some may get it, 
you still have quite a few across this country who have real 
issues with those two facts.
    Mr. Castle. What is the methodology of communication? Is it 
the Internet or telephone or fax?
    Ms. Houston. The way the communication works now is that 
the USDA employees' rapid alert system, which through multiple 
means of communication, both e-mail, fax and phone, we can set 
out Web based automated messages to State agency recipients and 
each State agency is responsible for communicating down to the 
20,000 school districts around the country the information that 
was provided by the Department of Agriculture. There are some 
good reasons why that system is in place. And part of it is 
because there is some State specific information that needs to 
be communicated to the local level. So while there is some 
merit in USDA sending some broad information directly down to 
the local level, I think we also do need to have some role for 
the State agency to play so that they can get information--for 
example, there are different public health standards in 
different States for the proper disposal of recalled product. 
And USDA is not in a position to be able to do that. State 
agencies are responsible for knowing what products that we sent 
to them went to what school districts. So we were not a 
position to initially say who received what product that was 
affected by the hold and the recall. So while I think we--yes, 
we do want to look at ways in which we can communicate some 
broad information to the local level quickly, we do also need 
to recognize the critical role that the State agency plays.
    Mr. Castle. Thank you. Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much. Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. Ms. 
Corrigan, you indicated that you would provide us with some 
studies as to the effectiveness of the school lunch program and 
the school breakfast program, I believe. You are going to have 
studies of both and they will show the effects on education, 
discipline, attendance and health of the students?
    Ms. Corrigan. Correct.
    Mr. Scott. Do you have studies on the summer feeding 
programs?
    Ms. Corrigan. I would guess that most of the studies are 
accurate for the summer feeding programs because some of those 
studies done on lunches would be pertinent for the same lunch 
program during the summer. So----
    Mr. Scott. Okay. We look forward to getting that 
information. Thank you.
    Ms. Hill, you indicated that the present reimbursement rate 
is $2.47. Is that sufficient to produce a nutritious meal?
    Ms. Hill. I am glad you asked that. No, sir, it is not.
    Mr. Scott. So do you----
    Ms. Hill. That would be one of our wish list items as we 
look at reauthorization, that certainly we need some increase.
    Mr. Scott. So do you put in more money on a local basis or 
provide a less nutritious meal than you would like to?
    Ms. Hill. We are asking that the increase comes from 
Congress, USDA.
    Mr. Scott. What do you do now if $2.47 isn't enough? Does 
the locality have to put in additional money?
    Ms. Hill. It may vary across this country because some 
localities do have to add right now, which is a burden for them 
because of the educational process that they are also doing. 
Many of us are attempting to maintain within what we are given 
to operate our programs. But certainly it is a strain when you 
look at that amount.
    The other point is right now the estimated average cost of 
a school lunch is $3.10. So you can see the variance of what we 
are operating with. But I think many food service directors 
across this country do an outstanding job trying to work within 
those barriers, but many, yes, have had to get some type of 
assistance. And that is the other point too when you look at 
the financial structure of our programs. The reason that we 
really wanted the nutrition, national nutrition standards. So 
that everybody is on level playing fields and we don't have 
individuals outside of our programs that are pulling funding 
from our programs.
    So those guidelines then would assist us in bringing some 
additional financial status to our programs. But we need the 
increase in the reimbursement rate, and we have not really had 
a real one in a number of years.
    Mr. Scott. We are going to receive information showing the 
effectiveness of the school nutrition programs such that we 
would want to encourage everybody to participate. What things 
affect participation rates?
    Ms. Hill. In our schools?
    Mr. Scott. For the students. All students do not 
participate. If they have to pay some, what kinds of things 
increase the participation rate?
    Ms. Hill. Well, for many of us, and it may vary across the 
country, but your menu items. Those items that will actually--
those students like, that they will come in and actually want 
just to participate in the program. The cost factor is the 
other. Some really don't have the money to pay even in the 
reduced category when you look at they are paying a subsidized 
amount, particularly with the economic downfall. We have really 
seen many of those reduced students who are having difficulty 
paying that subsidized amount, but I think the big thing with 
participation is those choices that we serve those students in 
the participation. You may even look with some, what are the 
other choices that they have in a school setting. If it is only 
the cafeteria or if there are other things going on in other 
parts of the building that I was telling you about----
    Mr. Scott. You mean like the vending machines?
    Ms. Hill. That is correct.
    Mr. Scott. With soft drinks and snacks.
    Ms. Hill. And more and more with the wellness policies that 
school districts have put in. We are seeing less of that. So 
that is the positive piece of the wellness plans that were a 
part of the previous reauthorization in 2004.
    Ms. Parham. I would also like to add that school schedules 
have a big impact on participation. And students need adequate 
time to access both the breakfast program and the lunch 
programs and that would have a better impact on our 
participation. As we look for reauthorization, I would venture 
to say that many of us are kind of in need of an economic 
stimulus package--to steal a phrase right now--because the 
rising food costs cannot be offset by selling the less helpful 
food items that used to be sold to offset gaps in funding in 
school nutrition programs. So right now we are meeting wellness 
policies. We are providing the healthiest meals possible. And 
there is a major gap between the reimbursement rates and what 
it costs to put that on a plate.
    Mr. Scott. I am going to try to get into the quick 
questions that I have in the time I have left. And one is for 
Ms. Rivas. Are there any sources for funding of your expenses 
for a recall? You indicated that there were a lot of expenses 
you incurred. Can you look to the--is there any theory of 
negligence or something that you can get reimbursement from 
somebody?
    Ms. Rivas. No. We are currently going to be receiving 
reimbursement for the value of the commodities through USDA. 
However, the additional expenses related to overtime or some of 
the administrative expenses we will be needing to absorb. And 
so as far as we know, there is no other source of funds to be 
able to offset those administrative fees or additional overtime 
to be able to gather the product.
    Mr. Scott. Thank you. My time has expired. But I did want 
to ask Ms. Hill to provide information on whether or not there 
is a disparity in cost of food around the country. I would 
imagine that some cities could produce a nutritious meal a lot 
cheaper than other parts of the country because the cost of 
food is more. If you could give us information on that, my time 
has expired so I can't----
    Ms. Hill. I certainly will. Because you are right, when you 
look at labor and fringe benefits, it could very well differ. I 
will get that for you.
    Ms. Houston. Mr. Scott, if I could assure you that USDA has 
committed to reimburse local school districts for costs 
associated with the hold and recall, and we will provide States 
replacement product pound for pound for AMS purchase 
commodities that was affected by the recall. USDA will also 
reimburse States for costs associated with the disposal and 
destruction. And that includes transportation of the recalled 
product, up to one month of storage costs and direct disposal 
costs.
    Mr. Scott. I am sure Ms. Rivas will be in touch with you.
    Mr. Payne. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you all for 
your testimony here today. Ms. Houston, I was wondering if you 
could answer a question. There was about 50 million pounds of 
beef that was distributed to the school lunch program. We 
understand there were several million pounds that are still 
being, as was phrased, actively traced. Can you define for us 
with some specificity what actively traced really means?
    Ms. Houston. These numbers change on a regular basis. But 
the latest information I have is that about 6\1/2\ million 
pounds are still actively being traced. However, that product 
is likely to have already been consumed because the product 
that has not yet fully been traced was product that was from 
the time period of October 2006 back to February 2006, the 
difference in time between the initial product hold and the 
total timeline that the recall covered. The trace forward and 
the trace back process is a complex one and takes time because 
there is not only the product that AMS purchased directly from 
Hallmark/Westland that went to school districts, there is 
also--about 60 percent of meat was coarse ground that was then 
sent to further processors for development of value-added 
products like hamburgers and beef crumble. Some of those 
products are oftentimes more difficult to trace because they 
have been commingled and are in final end user products.
    So as you can appreciate, over time we will get all of this 
sorted out. But we felt very confident that all of the product 
was initially put on an administrative hold that had not yet 
been consumed. So we feel like we have a good handle on the 
overall situation.
    Mr. Tierney. And the actively traced is--I suppose it is 
just traced, or whatever actively traced means, you haven't 
given up on it, you believe it is out there somewhere and you 
are tracing it down?
    Ms. Houston. Yes. We will continue this process until we 
have full accounting for all of the just over 50 million pounds 
that went to USDA's nutrition assistance programs.
    Mr. Tierney. And you will be good enough to update this 
committee as that goes along?
    Ms. Houston. We absolutely will, sir.
    Mr. Tierney. Thank you. Mr. Chairman, I have just one other 
general questions for whomever may feel qualified to answer 
that. There have been recent reports that I have become aware 
of children not buying school lunch when they are entitled to 
because of the stigma that might be attached. There was some 
question raised in some of the reports about the possibility of 
using a technology like a charge card type of situation, some 
way of people purchasing the lunch other than with cash so that 
nobody knew where the source of the money was. Is there 
movement in that field?
    Ms. Corrigan. I would be happy to reply to that. In Mount 
Diablo schools, we have what is called a point-of-sale system. 
At an elementary level, every student can come through, pick up 
their individual card, which is secretly coded, and scan the 
card. Parents can pay in advance for students not eligible for 
a free meal; they can pay the reduced price or they can pay the 
full price. So as a student goes through a line, nobody knows, 
they are all treated the same.
    Mr. Tierney. So it is not just the reduced price children 
that are getting those cards, everybody gets those cards?
    Ms. Corrigan. Everybody gets the card. Paid, free and 
reduced, everybody has to use a card.
    Mr. Tierney. Ms. Houston, is this something that is taking 
off across the system or what do we know about that?
    Ms. Houston. It is. I think we are seeing an increased use 
of technology across school districts. And we are fully 
supportive of all activities that would help to reduce stigma. 
We have rules and regulations in place to prevent any overt 
identification of a student based on whether they are receiving 
a free, reduced price, or----
    Mr. Tierney. I think that is--I believe that very much. 
Which in these cases the students felt the stigma because they 
were sort of self-identifying with the way they were going 
through the line. Some schools separated them.
    Ms. Houston. I will also add that there has been some 
calling into question whether or not students just because they 
are eating the USDA school meal has some stigma attached 
because other students are choosing to purchase other a la 
carte items in school. And we fully promote the USDA school 
meal as the nutritious option that we would like to see all 
children purchase and participate in the school meal program 
regardless of income level.
    Mr. Tierney. Is the conversion cost of going to that kind 
of system at all prohibiting some districts from doing that? 
Ms. Hill?
    Ms. Hill. Yes, it is. And that is one of the added pieces 
that I was going to ask. Even though you will see that more and 
more districts are moving to that simply because of handling 
funds and the overt identification, it is a costly system. And 
that is one of the reasons when we look at what the 
reimbursement rate is and what the expectations are of us 
running our programs, we need some additional funding. But, 
yes, that is a barrier for some because of the cost factor.
    Mr. Tierney. Thank you. Mr. Chairman, my time has expired. 
I yield back. Thank you.
    Mr. Payne. Thank you very much. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. And I thank the 
witnesses for useful testimony. Much of the discussion today 
has dealt with safety. I would like to, however, follow on the 
more recent questions having to do with nutritional value and 
standards and the access to other foods in the schools. It 
happens that last night I was in my office in New Jersey about 
7:30 in the evening and a young man, a middle school student 
from Freehold, Ryan Lerner, called and said, ``what can we do 
about obesity in all my friends.'' And his father then got on 
the line and apologized for the son calling the Congressman. 
And I praised the young man for his concern. He wanted to know 
whether it was just a matter of physical education and 
exercise. And I said, well, that, but also nutrition. And it 
is, I think, pretty well established now that school meals are 
too high in fat and sodium. They are not as nutritious as we 
need. There is not as much fruit and vegetables as we would 
like to see. And except in a handful of States that have 
restricted the other a la carte competitive foods and vending 
machines and so forth in the schools, there are too many other 
opportunities for bad eating habits. So it is an open-ended 
question. I suppose mostly to Ms. Hill and Ms. Corrigan, but to 
any of you, what can we do about this? I would like to be able 
to tell young Mr. Lerner that----
    Ms. Corrigan. We will talk to him.
    Mr. Holt [continuing]. That things are getting better in 
the time while he is still in school.
    Ms. Hill. They are. And let me say that many of our school 
districts across this country understand the obesity problem 
and we understand the roles that we play. It is not totally our 
responsibility, as you have mentioned, but certainly we have a 
very critical role that we must play. And I think you will see 
across this country that more and more our programs are 
offering the healthier foods. You will see more fresh fruits 
and fresh vegetables. You will see those entree items that are 
lower in the percentage of fat and sodium, and that is one of 
the pieces that we are talking about.
    Mr. Holt. They seem so voluntary and so slow. Some States 
have taken stronger action.
    Ms. Hill. That is correct.
    Mr. Holt. Should we be taking stronger action?
    Ms. Hill. That is why we are asking for that national 
nutrition standard that would basically work towards that and 
all of us would be working towards a common goal. Everybody 
would be on the same page. Even in some States you will find 
some that are higher than others. And let me just say initially 
to start, the USDA guidelines that we operate the programs on 
do give us some requirements of how we are operating those 
programs. And there is, as was mentioned earlier, a certain 
percentage of fat and those kinds of things that we really need 
to look at when we plan our menus with the wellness plans. And 
I think that was the item that opened the door with all of 
these different nutrition standards across this country, was 
because they really wanted to work on the dietary guidelines 
and to see what role and how they could really be instrumental 
in reducing the obesity rate. The point is, though, we all want 
to be on the same page. We want those standards that really 
would affect all school districts, all students, because they 
are basically the same.
    Like your young man, the same applies to him as it does for 
any other child in any other State. What we are saying is let's 
get some uniformity, get the Secretary that responsibility to 
get some uniformity in those standards because it is a constant 
issue that we will be working on. We know our responsibility. 
But I think we will see a tremendous change in our programs.
    Mr. Holt. Ms. Corrigan, please.
    Ms. Corrigan. I would like to add to Ms. Hill's comments 
because in our school district we started many years ago to try 
and create menus that were healthier for kids, and the way we 
did that is we looked at what our--what students' favorite menu 
options were, and then we took those and tried to create a 
healthier alternative. You know, if you were to see--you will 
occasionally see nachos on our menu. And people will think 
nachos, why are they serving kids nachos? Well, it is a low 
fat, low sodium, high fiber chip. The cheese sauce is the same. 
Probably not high fiber, but low fat and low sodium. And we do 
offer it with fresh fruits, fresh vegetables and salads. We try 
to include a lot of seasonal produce. So we have things like 
strawberries and kiwi and pears, fresh pears on our menus. And 
so I would encourage your student who calls you to really go in 
and find out the truth on the menus at school. I can't speak 
for the district he is in. But a lot of times--we have tried to 
do this over the years in sort of a tricky way. We don't 
necessarily want the kids to know it is healthy. But the 
unfortunate part is that then the parents may not know either. 
So in our school district, we have nutrient analysis on the 
menu so now the parents can see that all of our meals do day 
after day meet the dietary guidelines for Americans. So the 
perception might not be accurate. So I would encourage the 
student to really find out the details.
    Mr. Holt. Well, you don't have to look far to see the 
effect on the body weight of kids.
    Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much. Let me just conclude by 
asking a question or two. Has the School Nutrition Association 
made a strong push to try to get the national nutrition 
standards--I know that the New Jersey group that visited my 
office did have very strong feelings about it, but perhaps Ms. 
Hill, is this an issue that is being pushed uniformly by your 
organization?
    Ms. Hill. Yes, it is. And as a matter of fact, the 
organization is now finalizing some national nutrition 
standards that we want to propose to our membership. So, yes, 
we have been working on it now for over a year and we are very 
close to the final piece. But, yes, it has been on our agenda 
for a while.
    Ms. Rivas. And I might add that Kathleen and myself are 
also on the National Nutrition Standards Committee and we are 
going to--SNA will be continuing to work with the Institute of 
Medicine and some other organizations to make sure that it does 
meet not just our view, but it is also supported by other 
associations as well.
    Mr. Payne. Thank you. Anyone can try to answer this--many 
of the school districts are under financial problems and, of 
course, the vending machine business is what they say can 
offset the lack of the Board of Education providing fund, say, 
for school trips and all that. Have you dealt with that, Ms. 
Hill, to try to discourage school districts from the 
proliferation of vending machines? I know some--I know one of 
the corporations in New Jersey, I guess M&M's, or one of the 
candy groups, took their products out of schools and only had 
nutritional kinds of foods or snacks. Have we found the 
industry trying to--in general willing to assist in that? And 
secondly, how do you argue--reconcile the argument that some 
local school districts might make that they need the funds to 
offset deficits in their budgets?
    Ms. Hill. To answer your first question, yes. I think 
companies are really working with us because they too 
understand the health issues and the health problems that we 
are having across this country, even as it relates not only to 
obesity but to other health issues.
    To answer the second question, I think many wellness 
policies that school districts have to implement with the 
reauthorization of 2004 looked at vending. So not only it was a 
food service, but a school issue because they also knew where 
we were going and wanted to move in the directions of eating 
healthier. Yes, it is an issue for those funds that those 
administrators in the past have really counted on for different 
programs. But it is a matter of if we are going to waive those 
funds with the health of our children.
    So I think many of them have realized that even though for 
some they probably have not found a compensation to match those 
funds and it is hard on districts, because I can speak with 
mine, when you have got to look other places and they are short 
of funding as well, to recoup those funds they used to get from 
vending. But I think in most districts they understand what the 
overall outcome is when you look at the health issue of our 
children and then decide which is more important.
    Ms. Parham. Excuse me. We have a wellness policy that is 
across the whole campus. But the loss of funds have impacted 
the athletics and activities department. So that has been an 
ongoing concern.
    Mr. Payne. We had a conference in my district at our 
University of Medicine and Dentistry in New Jersey on obesity 
in general and did focus on school obesity. And I think it is 
really an issue that is going to take more than the Department, 
but I think overall school wellness programs are important, 
because we are becoming unfit. Recently the Navy found out that 
only one out of five persons could qualify either in terms of 
health or education. So that is going in the wrong direction.
    Let me just quickly ask. In your statement, Ms. Houston, 
you mentioned that--for that reason in your testimony on page 
3, USDA recommended this be a Class 2 recall. You said while it 
is extremely unlikely that these animals posed a risk to the 
human health, recall action was deemed necessary, and so forth. 
The footage I saw of those animals that were being pushed--
downer animals, would appear to me to have posed a health 
threat. How bad does an animal have to be before in your 
opinion it poses a health threat? I mean, these animals looked 
like they were dying, but you reflected that I guess in the 
eyes of the Department that you did not feel that these animals 
posed a risk to human health. But you recalled the meat anyway. 
Could you explain that?
    Ms. Houston. Sure. The Class 2 recall was issued because of 
a finding of regulatory noncompliance. The ongoing 
investigation I think will bear more information about what 
went wrong here and it is really outside of my purview to 
comment. I will say that I think we have no information to 
suggest that the animals and some of the footage that was on 
the video was necessarily animals that went into the food 
supply. But again I will yield to my colleagues of the food 
service--Food Safety and Inspection Service to provide you 
further details regarding their investigation, and we would be 
happy to get those experts connected with your office.
    Mr. Payne. Ms. Hill, you mentioned the USDA notification on 
February 17th, which indicated that the beef was unfit for 
human consumption, which is an alarming description of the 
product as you understood it. Why did USDA send out such a 
strong message while at the same time assuring the public that 
the risks from the beef was minimal? I just wonder at what 
level does contaminated meat, you know, become harmful? And you 
are in the business. How do you see that?
    Ms. Hill. Well, first of all. I am not sure of the 
terminology and why they use the terminology. That may be 
something internal that Ms. Houston can address when it says 
not fit for human consumption. But we have been assured, 
though, that there were no real issues. So that question may 
have to go back there. I do know it was an alarming release 
when you talk about a recall and then the follow-up information 
that comes with it.
    So I am not sure about the terminology. But it really 
created a very alarming problem.
    Mr. Payne. Ms. Houston, you tried initially, but is there 
any way you can tell me how food that is unfit for human 
consumption really is okay? I mean, it seems like an oxymoron. 
It seems like proving a negative. I mean, I know you didn't do 
it. But you happen to be the messenger. I can't talk to the 
person who might have told you that is what they thought. But 
could you try to----
    Ms. Houston. My understanding from talking to my colleagues 
at the Agriculture Marketing Services is that the term ``unfit 
for human consumption'' is a legal term and that meat was put 
under that legal definition strictly because there was a 
finding of regulatory noncompliance at this particular meat 
packing facility. So by virtue of the fact that we have 
determined that some regulations were not followed, that meat 
then becomes deemed unfit for human consumption.
    Mr. Payne. But when it gets on your plate, it is all right 
to eat?
    Ms. Houston. Again, I will defer to my colleagues at the 
Food Safety and Inspection Service, and we can get you more 
information on this topic.
    Mr. Payne. Okay. And the other alarming point I suppose is 
that there was a big recall and I was very pleased at that. 
However, when the recall was done we found out that about 60 
percent of the food had been consumed. Is that true?
    Ms. Houston. That is correct, sir. The recall period dated 
back to February 1, 2006. Obviously that was some period of 
time ago. So there is some meat. I can only speak for the 
school lunch program, the nutrition assistance programs at the 
Food and Nutrition Service. Of the about 50 million pounds of 
affected meat that was directed to the nutrition assistance 
programs, we believe just over 30 million of that pounds was 
likely to have been consumed.
    Mr. Payne. So it sounds great that there was a 50 million 
pound recall, of course the question is the 30 million of the 
pounds were eaten up already. So, I mean, it is not as good as 
it sounds. There is a tremendous concern--I know that Ms. 
Houston in your statement you say that you did not know the 
total number of affected schools in the recall, but given that 
this is a Class 2 recall, were you to state that it is 
extremely unlikely that there is a risk to human health and 
what would USDA do differently if there was a more serious risk 
to human health? In other words, what is the Class 2 recall as 
opposed to other classes? What is a Class 1 recall? Maybe Class 
3?
    Ms. Houston. The designation of a Class 2 recall states 
that there is a, quote, remote possibility of any adverse 
health effects if consumed. This is in contrast to a Class 1 
recall, which is a higher risk health hazard situation and that 
designates as a, quote, reasonable probability that the use of 
the product would cause serious adverse health consequences.
    Mr. Payne. So 1 is reasonable and 2 is----
    Ms. Houston. Remote. Class 2 is remote possibility. To 
answer your question about what we did differently, as I stated 
earlier in my remarks, we learn from situations and we are 
always seeking to improve upon the ways in which we do 
business. With that being said, I am very proud of the way the 
Food and Nutrition Service responded swiftly within hours of 
the time in which the decision was made to hold the product. We 
had information to our State agency cooperators to alert them 
of which specific----
    Mr. Payne. How can you find out sooner? I mean, you did act 
swiftly. But it was after 60 percent of the food had been 
consumed. How can you react more--you know, it doesn't seem 
swift if 60 percent has been consumed.
    Ms. Houston. Again, at the point in which we became aware 
of a regulatory violation at this plant we took immediate 
action to place all affected product on hold. There was, then, 
further review and a determination by the Recall Committee to 
issue a recall. We then immediately notified our State 
operators again of the revised--the revised status of this 
product. The decision on the Recall Committee to issue the 
recall back to February 1, 2006 was based on evidence that was 
made available to them for their decision, and I would have to 
defer to them to explain to you why that particular decision 
was made.
    Mr. Payne. Okay. The Hallmark/Westland Company, have they 
been taken off the list of companies that provide meat to the 
schools?
    Ms. Houston. As soon as we became aware of the video and 
the alleged abuses at the Hallmark plant, they were immediately 
suspended from USDA.
    Mr. Payne. Okay. Now, they are suspended----
    Ms. Houston. And that plant has been shut down, I believe, 
ever since; there has been no operation at that plant.
    Mr. Payne. Just my last question. The--if this video wasn't 
taken perhaps this wouldn't have been exposed. What is the 
role--do you have inspectors at these plants?
    Ms. Houston. We do, sir, have inspectors at these plants.
    Mr. Payne. And what do they do?
    Ms. Houston. Again, I would have to defer to my colleagues 
at the Food Safety and Inspection Service to discuss with you 
what the role of the inspectors at the plant are, how many 
inspectors they had there.
    Mr. Payne. You don't have to----
    Ms. Houston. I would be happy to provide that information.
    Mr. Payne. You don't have to be a doctor or a veterinarian 
to see that those animals look sick. So I just wonder what is 
it that the inspectors do.
    Ms. Houston. Well, again I also want to make clear that we 
don't have evidence at this time that any of the animals that 
were shown on that video went to slaughter. It is important to 
also note that we have rules and regulations in place and in 
this particular case those rules and regulations were not 
followed.
    Mr. Payne. The video I saw, they had a forklift pushing 
that poor piece of beef to wherever he couldn't walk, so they 
were just pushing them over. Do you remember? Did you see that 
same video that showed on television?
    Ms. Houston. I did, sir. It was gross mistreatment of 
animals and in no way would we condone the actions on that 
video. We have pledged at the Department to identify what went 
wrong, why it went wrong and to ensure that it would not happen 
again.
    Mr. Payne. Well, I think my time has expired; therefore I 
will conclude the hearing. And without objection, all members 
will have 14 days to submit extraneous material or questions 
for the hearing record. Let me thank all of the witnesses. We 
will certainly have follow-up and we will be in touch with your 
office for some more clarification of the situation, and with 
the other departments involved.
    The meeting is adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on improving 
school nutrition and for taking the time to examine the recent recall 
of beef by the United States Department of Agriculture (USDA).
    Stemming the increase of childhood obesity in our country is an 
issue of great importance to me. This issue has dramatic implications 
on the long term health of our nation's citizens and on our health care 
system. While there are many factors that contribute to the increasing 
rate of childhood obesity, the nutritional value of the food served in 
our nation's schools is certainly one of them.
    Due to my concern about the nutritional value of some of the food 
served in schools, I have cosponsored the Child Nutrition Promotion and 
School Lunch Protection Act (HR 1363). This legislation would require 
the USDA to update its nutritional standards for all `non-meal' food 
served in schools. It is particularly important that `non-meal' 
nutritional standards be reviewed and strengthened because they have 
not been updated for nearly 30 years. Today, I look forward to hearing 
about what can be done to improve the nutritional value of all food 
sold in schools.
    In addition, I am anxious to learn more about the recent recall of 
more than 140 million pounds of beef by the USDA. While I understand 
that the USDA has classified this as a ``Class II'' recall, meaning 
that there is a remote possibility that the consumption of the products 
could result in adverse health effects, it is still extremely 
troubling. I am particularly concerned that at least 12 school 
districts in my congressional district received meat that has been 
recalled.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Mr. Chairman, thank you for holding this hearing today to examine 
the current state of school nutrition on what steps we should take to 
improve it. The thing that we all need to recognize is that at school, 
our children aren't just learning the traditional subjects we are 
teaching them in the classroom * * * they are learning a lot more. They 
learn from their friends, some good things like social interaction 
skills and some things we would probably wish they didn't learn, like 
when children pick on one another * * * but they also learn a lot about 
food. If we are going to fight childhood obesity and teach our kids how 
to eat healthy, then it's clear that school is one the frontlines of 
this battle.
    The last time the United States Department of Agriculture (USDA) 
set nutrition standards for school vending machines and lunch line a la 
carte items was in 1979. Can you image if the last time we updated 
school textbooks was 1979? It's been almost thirty years, and that is 
shameful. That's why I have introduced H.R. 1363, the Child Nutrition 
Promotion and School Lunch Protection Act. This bill would require the 
USDA to update its nutrition standards for foods sold outside of school 
meals and apply the new nutrition standards to the whole campus and 
school day. It's time that we take a more active role in fighting 
childhood obesity and starting with school nutrition is a big first 
step.
    But sometime it's not as complicated as what our children our 
eating. Sometimes, it's just making sure that they are eating at all. 
That's why I've included free universal breakfast as part of H.R. 2392, 
the Family and Workplace Balancing Act. Studies show that starting the 
day with a full stomach has an enormous benefit to children students 
including being more alert, improved memory and problem-solving skills 
and better performance on standardized tests. All children should have 
the benefits of a nutritious breakfast at the start of the school day, 
which is why the balancing act would provide breakfast for every child, 
regardless of need.
    If I could also just say a word about conditions at the Westland/
Hallmark Meat Co. plant of Chino, California. We are fortunate indeed 
that the Humane Society was able to go undercover to expose these 
horrendous violations of food safety standards. Otherwise, we might 
never have discovered this danger to our school children and to the 
public. Another important way in which we discover illegal practices is 
through employees who blow the whistle on their employers.
    But despite the benefit to the public from these workers' heroic 
acts, often they are retaliated against. They are demoted, lose their 
jobs and are blacklisted. Congress has established broad protections 
for Federal government employees and contractors who speak out. But 
when it comes to the private sector, there are large gaps in coverage. 
That is why I introduced the Private Sector Whistleblower Streamlining 
Act of 2007, which is pending in this Committee. The legislation is 
designed to fill the gaps for private sector whistleblowers and 
establishes whistleblower protections for workers who report violations 
of federal law in a wide variety of areas, including food safety. So 
while exploring all the areas in which we can improve school lunch, we 
need to make it easier for workers to expose violations.
    Mr. Chairman, thank you for holding this important hearing today 
and I look forward to hearing from our witnesses.
                                 ______
                                 
    [Questions submitted to witnesses and their responses 
follow:]

                                           [VIA FACSIMILE],
                                                    March 11, 2008.
Ms. Kathleen Corrigan, Food and Nutrition Director,
Mt. Diablo Unified School District, Concord, CA.
    Dear Ms. Corrigan: Thank you for testifying at the March 4, 2008 
full Committee hearing, ``Challenges and Opportunities for Improving 
School Nutrition.'' Below are the questions which Committee members 
have asked you to respond for the record.
    Mrs. Biggert (Il-13) asked that you provide data that shows 
academic improvement for students that receive school breakfast and 
lunches.
    Mr. Scott (VA-03) asked that you provide data on summer food 
programs in schools.
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us. Once again, we greatly appreciate your testimony at 
this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Written Responses From Kathleen A. Corrigan, MBA, RD

    Mrs. Biggert (IL-13) asked that I provide data that shows academic 
improvement for students that receive school breakfasts and lunches.
    There are several studies that show the link between academic 
performance and students eating school breakfast and lunch. With 
regards to breakfast, there are a couple of studies to look at. One 
comes from research conducted by the Harvard School of Medicine and 
Massachusetts General Hospital. The study was published in 1998 and 
this is a link to the press release:

   http://www.massgeneral.org/pubaffairs/releases/sept--98--school--
                             breakfast.htm

    Another study is the Maryland Meals for Achievement study. The 
Maryland Department of Education conducted a study about school 
breakfast programs in 2001, updating the research from the 1998 study 
by Harvard and Massachusetts General Hospital. You can find information 
about that study through this link:

 http://www.marylandpublicschools.org/NR/rdonlyres/CA432B36-F5D2-41DA-
            9E0D-4D01C373AA75/1541/Classroom--Breakfast.PDF

    Here are some links to additional information about school meals 
and academic performance:
    Maryland Students Prove Eating School Breakfast Improves Academic 
Performance:

            http://www.schoolnutrition.org/Index.aspx?id=331

    Minnesota School Breakfast Program/Energizing the Classroom:

                  http://cfl.state.mn.us/energize.pdf

    New York Classroom Breakfast Program Has Positive Impact:

            http://www.schoolnutrition.org/Index.aspx?id=810

    Study Shows Federal Nutrition Programs Protect Children's Health:

            http://www.schoolnutrition.org/Index.aspx?id=558

    Yes, Breakfast Does Improve Learning, Nutrition and Weight:

           http://www.schoolnutrition.org/Index.aspx?id=1261

    Action for Healthy Kids Report Shows Link between Nutrition and 
Academic Achievement:

            http://www.schoolnutrition.org/Index.aspx?id=883

    Mr. Scott (VA-03) asked that I provide data on summer food programs 
in schools.
    Since the summer food programs also serve breakfast and lunch 
frequently to summer school students the research above applies. One of 
the best sources of information specifically about the Summer Food 
Service Program is the annual report put out by the Food Research and 
Action Council (FRAC). The report can be accessed through this link:

                 http://www.frac.org/pdf/2007summer.pdf

    Another source of information about the Summer Food Service Program 
is the USDA Food and Nutrition Services website. Follow this link to 
find out information about program participation rates and costs:

                 http://www.fns.usda.gov/pd/cnpmain.htm

    Ms. Woolsey (CA-06) asked that I explain how California's higher 
standards for vending and ala carte items served at schools have 
affected student health and participation in the classroom.
    California's standards (specifically SB12) only went into effect 
July 2007. I am not aware of any research in progress and studies of 
this type can be problematic. Human Subject Committees at universities 
make it very difficult to do clinical studies involving students in the 
school setting.
    There may be published results from research on similar topics that 
could be found in the literature. Please let me know if there is an 
interest in such a literature review.
    Ms. Woolsey (CA-06) asked if I thought the California standards are 
appropriate and how they could be improved.
    There is no question that reasonable nutrition standards improve 
the quality of food and beverages available to students during the 
school day. California's standards have done that primarily because 
they apply campus wide. The dark side of school nutrition standards is 
the unfortunate impact on finances.
    Historically the larger profit margin in ala carte sales helped 
cover the cost of ``semi-reimbursable'' meals since reimbursements have 
not kept pace with increasing costs. With higher nutrition standards, 
income from ala carte sales in my district is estimated to decrease 
$600,000 this year resulting in a cumulative loss in ala carte sales of 
$1,000,000 over the past three years.
    Meal costs in Mt. Diablo USD were approximately $2.888 last year. 
Escalating fuel and food costs are forcing our costs up this year and 
are projected to increase by another 10% next year. This is compounded 
by the fact that I pay more money for fresh produce and whole grain 
products. Decreasing income and skyrocketing expenses are beginning to 
threaten even simple survival in school nutrition programs. Increased 
reimbursement is required to offset this impending financial disaster.
    National nutrition standards could provide some improvement to 
escalating food costs. Countless variations on required nutrition 
standards in states and/or districts create an impossible situation for 
food and beverage manufacturers. It is very expensive for them to 
develop a wide range of products to meet a wide range of standards. 
Clearly those costs get passed on to their customers in school 
nutrition. Enabling manufacturers to focus on one uniform set of 
national standards could help curb escalating food costs.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                    March 11, 2008.
Mr. Kenneth Hecht, Executive Director,
California Food Policy Advocates, San Francisco, CA.
    Dear Mr. Hecht: Thank you for testifying at the March 4, 2008 full 
Committee hearing, ``Challenges and Opportunities for Improving School 
Nutrition.'' Below are the questions which Committee members have asked 
you to respond for the record.
    Chairman Miller (CA-07) asks that you respond to this for the 
record:
    ``The School Nutrition and Dietary Assessment III, indicates that 
school meals are too high in fat and sodium, while your study shows 
improvements in the nutritional values of commodities provided. How do 
you reconcile these two facts? What is the role of processed foods in 
the nutritional value of commodities? What is the role of federal and 
local governments in providing oversight to ensure quality in this part 
of the food chain?''
    Mr. Tierney (MA-06) asks that you respond to this for the record:
    ``There have been recent reports that I have become aware of 
children not buying school lunch when they are entitled to because of 
the stigma that might be attached. In these cases the students felt the 
stigma because they were sort of self identifying with the way they 
were going through the line. Some schools separated them. There was 
some question raised in some of the reports about the possibility of 
using a technology like a charge card type of situation, some way of 
people purchasing the lunch other than with cash so that nobody knew 
where the source of the money was. Is there movement in that field? Is 
the conversion cost of going to that kind of system at all prohibiting 
some districts from doing that?''
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us. Once again, we greatly appreciate your testimony at 
this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

                  Written Responses From Kenneth Hecht

    Chairman Miller: The School Nutrition and Dietary Standards III 
indicates that school meals are too high in fat and sodium, while your 
study shows improvements in the nutritional values of commodities 
provided. How do you reconcile these two facts? What is the role of 
processed foods in the nutritional value of commodities? What is the 
role of federal and local governments in providing oversight to ensure 
quality in this part of the food chain?
    Two main factors contribute to the loss of nutrition quality 
between the time when commodity foods are acquired by USDA and the time 
when they are consumed by school students:
    1. More than half the commodity foods acquired by USDA is processed 
before reaching the school districts. Processing introduces added fats, 
sugar, sodium and other unhealthy ingredients, such as those observed 
by SNDA III.
    2. Commodities represent less than 20 percent of the food served to 
students at school. The 80 percent that is commercially purchased and 
prepared foods accounts for a portion of the loss of nutrition.
    There is no federal or state oversight of nutrition quality in 
processing at this time. USDA monitoring of school meal nutrition 
quality could more effectively improve nutrition quality in processing 
if the monitoring were conducted more broadly and more frequently and 
if the assessment were based, as Congress prescribed, on a closer 
alignment with the Dietary Guidelines for Americans.
Recommendations
    1. Congress should examine whether regulation of processing would 
improve nutrition quality without impeding continued improvement in 
commodity nutrition quality.
    2. Congress should insist that USDA speedily comply with its 
direction to align school meal standards with the 2005 Dietary 
Guidelines for Americans and establish a process to conduct the 
alignment rapidly with successive version of the Guidelines.
    3. Congress should enable USDA and the states to examine school 
meal nutrition quality more broadly and frequently than the School 
Meals Initiative currently requires.
    4. Congress should not renew authority to USDA (due to expire 9/30/
09) that waives implementation of weighted averages in conducting SMI 
assessments.
    The School Nutrition and Dietary Assessment III found school meals 
to be too high in added fat, saturated fat, sodium and other unhealthy 
ingredients. SNDA III also found very little improvement in school meal 
nutrition quality since SNDA II. The assessment reported school meals 
to be too low in foods recommended by the Dietary Guidelines for 
Americans--foods low in added fats, sugar and sodium, such as whole 
grains, low fat dairy products and fruits and vegetables. These foods 
are at the heart of the problem for it is these foods that are being 
replaced by less healthy substitutes, and it is these foods that 
contribute to the promotion of health and prevention of chronic 
disease.
    USDA has improved the nutrition quality standards for commodity 
foods at the point of their acquisition. Because there currently is no 
federal or state nutrition-quality monitoring of processing, even 
though more than 50 percent of commodities is processed before arrival 
at school districts, it is impossible to quantify the loss of nutrition 
quality that occurs at that point. However, it is the principal purpose 
of processing to introduce other ingredients to raw commodities so 
that, in combination, they become edible foods that will appeal to 
schoolchildren. Commodities count for less than 20 percent of the 
school meal, so while the contribution of commodities to the meal's 
nutrition quality is significant, it is not the only source of that 
quality. Selection and preparation of the remaining 80 percent 
obviously play a role, also.
    There are at least two options for ensuring nutrition quality in 
processing. The more direct is to regulate levels of nutrition quality 
for processors. Various agency administrators and school district food 
service directors have urged that this would be a mistake. They think 
that regulation would stifle continued nutrition improvement and unduly 
complicate (with price repercussions) commodity processing. Instead, 
they urge reliance upon the nutrition analysis prescribed by the School 
Meals Initiative, arguing that school districts' requirements to 
satisfy their SMI review will cause districts to insist that processors 
provide foods designed to conform to SMI standards.
    Unfortunately, there are multiple serious problems with reliance 
upon SMI reviews:
    1. SMI standards have not been aligned with the Dietary Guidelines. 
Although Congress, in the 2004 reauthorization, explicitly required 
that school meal standards be aligned with the Dietary Guidelines by 
June 30, 2006, this has not been done. In fact, the most recent 
estimate for completion of the alignment is not until 2012 (2 years 
after the next version of the Guidelines appears). School meal 
standards must be brought into compliance with the nutritional needs of 
children as outlined in the 2005 Dietary Guidelines.
    2. The SMI nutrition analysis calls for the assessment to be made 
on the basis of ``weighted averages.'' This means that the frequency 
with which certain foods are selected would affect the assessment's 
calculation--one student's selection of low fat cottage cheese would 
not be treated the same as 100 students' choice of the ubiquitous 
pepperoni pizza. The requirement to use weighted averages has been 
waived since it was enacted. Congress should end this waiver no later 
than when it is due to expire on September 30, 2009.
    3. SMI nutrition analyses currently occur only once every 5 years, 
and only a small number of schools within a school district are 
selected for examination. Given the severity of the obesity epidemic 
and the key role that school meals play in students' (particularly low-
income students') daily nutrition, Congress should consider increasing 
the frequency and breadth (more schools) of the SMI review.
    Mr. Tierney: There have been recent reports that I have become 
aware of children not buying school lunch when they are entitled to 
because of the stigma that might be attached. In these cases the 
students felt the stigma because they were sort of self-identifying 
with the way the way they were going through the line. Some schools 
separated them. There was some question raised in some of the reports 
about the possibility of using a technology like a charge card type of 
situation. Some way of people purchasing the lunch other than with cash 
so that nobody knew where the source of the money was. Is there 
movement in that field? Is the conversion cost of going to that kind of 
system at all prohibiting some districts from doing that?
    Many school districts provide and permit foods for sale on school 
campuses in competition with the USDA-reimbursable meals. The 
competitive foods tend to be less healthy options, promote snacking and 
undermine the financial strength of the school meal program. They also 
involve ``overt identification'' of low-income students, who therefore, 
wary of being stigmatized, are discouraged from eating the free and 
reduced-price school meals, in violation of the National School Lunch 
Act.
Recommendations
    1. The best solution to both the overt-identification and nutrition 
quality concerns is to eliminate competitive foods altogether. This 
will improve students' nutrition intake and promote growth and 
financial stability in the school meal program.
    2. A different solution is to severely limit competitive foods and 
to assist school districts to introduce or upgrade point of service 
(POS) systems that mask the source of funds with which school foods are 
purchased.
    The New York Times carried an article on March 1, 2008, entitled 
``Free Lunch Isn't Cool, So Some Students Go Hungry.'' The article 
described the not uncommon arrangement in school cafeterias where low-
income students line up in one place for the USDA reimbursable meal, to 
which they may be entitled at no charge, while the students who can 
afford to line up in a different location for a la carte food items 
sold for cash. Investigators frequently report, as the article stated, 
that low-income students, realizing they will be identified as poor, 
refuse to get into the regular school lunch line, where only those 
unable to purchase food go for their lunch and thus miss out on 
essential nutrition to which they are entitled and that they need for 
good health and academic performance.
    The best solution is to eliminate altogether the competitive foods 
on campus, not only the a la carte line, but also the vending machines, 
student-operated stores and other outlets for what is almost always 
nutritionally inferior food.
    A survey of foods in California high schools (www.phi.org/pdf-
library/fastfoodsurvey2000.pdf) provided shocking data on the extent of 
snack foods that compete with the foods in the school meal program.
    ``Ninety-five percent of responding districts reported selling fast 
foods as a la carte items. These include a variety of foods, including 
entrees, snacks, and desserts. The most common fast foods sold as a la 
carte items are pizza, cookies, chips, and burritos (Table C-1). 
Traditionally, these foods are high in total fat, saturated fat, and 
sodium. Few of these foods include fruits, vegetables, or whole grains. 
Ninety-five percent of responding districts reported selling fast foods 
as a la carte items. These include a variety of foods, including 
entrees, snacks, and desserts. The most common fast foods sold as a la 
carte items are pizza, cookies, chips, and burritos (Table C-1). 
Traditionally, these foods are high in total fat, saturated fat, and 
sodium. Few of these foods include fruits, vegetables, or whole 
grains.'' (P.9)
    While some may argue that children need options in order to learn 
to make healthy food choices, there is no support for this claim. 
Rather, there is ample evidence that our nation's youth are not 
learning to make healthy choices in school, but rather are learning to 
replace meals with snack foods. In a national WIC study, FitWIC, a 
Latino mother reported in a focus group, ``What I think is that the 
food that she is getting at school is making her fat because she 
doesn't eat that way at home. What she eats at home are fruits, 
oranges, cucumbers, bananas * * *''
    Another factor influencing the school meal program is an open 
campus. Nearly one-half the high schools in California have open 
campuses. (Fast Food Survey, p.7.) Open campuses encourage students to 
leave campus and not to eat the nutritionally superior school lunch. 
Open campuses also may contribute to untoward events such as afternoon 
tardiness and potential truancy, as well, as increased risk of auto 
accidents.
    To encourage school lunch participation while at the same time 
decreasing the likelihood of stigma, many school districts are 
incorporating methods for automatic identification of students (and 
their eligibility for free and reduced-price meals). Methods include 
``swipe'' cards and personal identification number (PIN) devices. These 
systems have many advantages. They hide the source of payment, this 
avoiding stigma--unless there are alternative sources of food 
(competitive foods) for which cash must be paid, thus excluding those 
who cannot afford to pay. The machines also speed up service, thus 
permitting a school to serve more students in the typically very short 
time available to select and eat the food--a key complaint from 
students who then resort to vending machines on and off campus and to 
other speedy sources of nutritionally inferior food.
    Points of service (POS) machines, accepting student swipe cards, 
also are efficient components of inventory control and help to reduce 
loss of cash revenues. The machines are not panaceas, but they do make 
a positive contribution to school cafeteria operations. A very informal 
search in San Francisco elicited a price of about $2,500 per machine 
(including wiring). While the initial cost may be daunting, the 
machines' efficiencies quickly make back their cost, as employees with 
salaries and benefits no longer need to perform the tasks which POS 
machines take on. One-time only grants to cover the nonrecurring costs 
of purchase and installation of these automating systems would be an 
excellent investment.
    Ms. Woolsey: Mr. Hecht, coming from California, which has 
relatively high standards for its vending and a la carte items at 
schools, can you tell us how having higher standards has affected 
student health and participation in the classroom? Do you think that 
the California standards are appropriate and how do you think they 
could be improved?
    A study of the impact of California's new nutrition standards for 
competitive foods is underway but it is premature to predict what it 
will show. The new standards are a good first step but much remains to 
be done.
    Recommendations: (Similar to the recommendations in response to Mr. 
Tierney's question above)
    1. Eliminate competitive foods altogether.
    2. Restrict competitive foods:
    a. By ensuring that they are aligned with the current Dietary 
Guidelines for Americans, and/or
    b. By limiting them to the fruit, vegetable and whole grain 
components in the reimbursable meal.
    As the questions implies, California's SB 12 and SB 965 (2005) were 
enacted to improve the nutrition standards in the foods and beverages 
sold and served on school campuses in competition with the USDA 
reimbursable meals and snacks. Both laws were elements of California 
Childhood Obesity Prevention Plan, intended to improve students' health 
and academic performance. The legislation does not allow the sale of 
certain beverages and foods high in fat and sugars, such as sodas, 
regular chips and candies. Currently with the support of a grant from 
the Robert Wood Johnson Foundation, the UC Berkeley Center for Weight 
and Health is evaluating the implementation of this legislation, but it 
is premature to speculate on the study's results. It is noteworthy that 
the state's annual collection of Fitnessgram data--http://
www.cde.ca.gov/ta/tg/pf/documents/ovftnssguide.doc--suggests a slight 
improvement in students' body mass index (BMI) since enactment of SB 12 
and 965, but it is too soon and too slight a change to predict whether 
it will persist and, if so, whether SB 12 and 965 have contributed to 
the change.
    Preliminary data on the kinds of foods replacing the products not 
allowed by the legislation suggest that suppliers are having no 
difficulty (despite anticipated hardship) providing snack foods and 
beverages, such as baked chips and sports drinks, that meet the SB 12 
and 965 guidelines. Clearly, the legislation is a very respectable 
first step, but certainly not an end-point For example, fresh, free 
water, which is the beverage of choice by doctors and nutritionists, is 
ignored by many students in favor of sports drinks, which are fast 
becoming the school beverage to replace the forbidden soda. (For more 
information, see the UC Berkeley Center for Weight and Health's fact 
sheet on the role of sports drinks in children's diets:

 http://www.cnr.berkeley.edu/cwh/PDFs/CWH--Sports--Drinks--FAQ--Sheet--
                                7.07.pdf

    To avoid the situation where children are being asked to chose 
between snack foods and beverages and the school lunch, stakeholders 
are evaluating the benefits of eliminating snack foods altogether in 
favor of whole, regular meals. In a recent study on limiting high fat, 
high sugar foods and beverages in California schools, school nutrition 
personnel reported that they were willing to stop selling the snack 
foods if the ``playing field was level.'' (These exact words were 
repeated by School Nutrition Association witnesses at the Committee's 
March 4, 2008, hearing.)
    In other words, they were willing to discontinue selling items IF 
these items were disallowed in other school locations (such as vending 
machines and school stores). This study showed, paradoxically, that 
schools not selling snack or a la carte foods had more often increased 
revenues due to increased numbers of students consuming the school 
lunch. See:

   nature.berkeley.edu/cwh/PDFs/ LEAF--Fiscal--Executive--Summary.pdf

and

    nature.berkeley.edu/cwh/PDFs/ LEAF--Accomplishments--Executive--
                              Summary.pdf

for a full description of the study.
    In summary, California's new standards for competitive foods and 
beverages certainly seem to be a good first step toward better school 
nutrition. However, the new standards are not enough: there are 
conspicuous gaps in the present standards. Also, manufacturers of snack 
foods have ingeniously created and marketed new foods that meet the 
letter of the law, eroding some of the gains that the bills' authors 
sought. As the UC Berkeley Center for Weight and Health's and Samuels & 
Associates' studies make plain, the best nutrition for the country's 
students will come on campuses that are closed, that eliminate 
competitive foods entirely, and that give high priority to serving 
lunch with fresh, non-processed foods, with an emphasis upon foods 
recommended in the Dietary Guidelines such as fresh fruit and 
vegetables and whole grains.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                    March 11, 2008.
Ms. Mary Hill, SNS, President, Executive Director,
Jackson Public Schools, Jackson, MS.
    Dear Ms. Hill: Thank you for testifying at the March 4, 2008 full 
Committee hearing, ``Challenges and Opportunities for Improving School 
Nutrition.'' Below are the questions which Committee members have asked 
you to respond for the record.
    Mr. Scott (VA-03) asked that you provide information on the 
disparity of costs for school lunch programs across the country.
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us. Once again, we greatly appreciate your testimony at 
this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

                    Written Responses From Mary Hill

    Q: Mr. Scott asked that you provide information on the disparity of 
costs for school lunch programs across the country.
    A: SNA is currently collecting information regarding school meal 
costs from districts nationwide. At the present time, the majority of 
our information comes from school districts situated along the East 
Coast, particularly in the Mid-Atlantic region. We are hoping to 
release a final study of school meal costs sometime in late summer.
    According to our preliminary data, the total average cost of 
preparing a school meal, nationwide is $2.70, +/- $0.05 margin of 
error. The cost of preparing a meal tends to be much higher in small 
school districts than in large school districts. Additionally, total 
costs tend to be much higher in states that have strong nutrition 
standards, such as West Virginia. The data takes into account food 
costs, non-food costs/supplies, labor costs, and indirect costs 
(electricity, trash removal, and other services charged to the school 
nutrition program).
    Another source of information is from the 2007 Technomic, Inc. 
school food segment report. According to them, the food costs for the 
100 largest school districts was $1.30. Using a national estimate of 
labor costs, we estimate that the average national cost is $3.10 per 
meal. That report is attached to this email.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                    March 11, 2008.
Hon. Kate Houston, Deputy Under Secretary,
Food, Nutrition and Consumer Services, U.S. Department of Agriculture, 
        Washington, DC.
    Dear Ms. Houston: Thank you for testifying at the March 4, 2008 
full Committee hearing, ``Challenges and Opportunities for Improving 
School Nutrition.'' Enclosed are the questions which Committee members 
have asked you to respond for the record. I recognize that the 
Committee asked questions of you during the hearing that you were 
unable to provide answers to in your capacity with Food and Nutrition 
Services. I ask that you please coordinate responses to the following 
questions with the appropriate agency within the U.S. Department of 
Agriculture.
    Chairman George Miller (CA-07) asked the following question during 
the hearing:
    1. How did evidence of one cow entering the food supply become a 
recall of 143 million pounds of beef? The press has reported that 
inhumane treatment was a common practice at Westland/Hallmark--what 
type of evidence do you have that implies that this treatment goes back 
to February 2006?
    Mr. Rob Andrews (NJ-01) asked the following questions during the 
hearing:
    1. How much time passes between ante mortem inspection and 
slaughter? Does the Department have a policy on the maximum amount of 
time that can pass between ante mortem inspection and slaughter?
    2. How many inspectors were assigned to conduct ante mortem 
inspections at the Westland/Hallmark facility?
    3. Was that number of inspectors was higher or lower than it was 5 
years ago?
    4. Does Westland/Hallmark have a record of prior violations before 
this recall?
    5. If so, how frequent are those violations? How often do 
inspections occur? What is the process after a violation occurs?
    6. Please explain what occurs between a cow passing inspection and 
going on to the slaughter.
    Mr. Phil Hare (Il-17) asked the following question during the 
hearing:
    1. How can you be certain that the practices that affected the meat 
produced at Hallmark/Westland are not taking place at other facilities 
given the regulations, and that the defiance of the regulations in that 
plant were taking place while there were USDA inspectors on site?
    Mr. Donald Payne (NJ-10) asked the following questions during the 
hearing:
    1. Please explain and define how a product that is legally unfit 
for human consumption is indeed, ok to eat.
    2. Please explain explicitly what the role is of each inspector at 
a slaughterhouse.
    Mr. John Tierney (MA-06) asked during the hearing that you provide 
an update as to the status of the recall, specifically on the status of 
the actively-traced product.
    Additionally, Chairman Miller asks that you also respond to the 
following questions for the record:
    1. As you know, Chairman Miller, Representatives McCarthy and 
DeLauro, and Senator Durbin recently requested that the Government 
Accountability Office examine the communication process between USDA 
and local authorities in instances where food contamination may be a 
problem, and whether adequate guidance has been provided to schools in 
managing food safety concerns. Given what you have heard from several 
school nutrition directors today, what more should FNS do to ensure 
that schools have the information, training, and procedures they need 
to execute a recall such as the one we've just experienced?
    2. USDA is responsible for the selection, oversight and auditing of 
all of the commodity suppliers for the School Lunch program. A 2005 
report by Assistant Inspector General Robert W. Young indicated that 
USDA maintained contracts with suppliers with known recurring food 
safety violations, and allowed these vendors to continue to provide 
commodities. Do states and schools have control or choice about who 
provides their commodities? Do they have access to all of the 
inspection, safety and audit records for these contractors? Can you 
please describe the selection and monitoring processes, and what 
information is available to the schools?
    3. On March 3rd, The Wall Street Journal published an article 
regarding the weak safety standards that the USDA upholds. The article 
quotes the USDA Inspector General report that in two plants supplying 
ground beef to the school lunch program, ``documentation was not 
available'' to prove that the meat wasn't contaminated. This is despite 
the fact that participation in the school lunch program requires that 
all contaminated meat be properly identified, segregated and 
controlled. If food processing plants aren't required to keep 
documentation, how can USDA be assured that these plants are indeed 
destroying contaminated product?
    4. In the 2005 USDA Inspector General report it was also noted that 
the USDA awarded contracts to vendors that the agency knew had food 
safety problems. ``At one unnamed plant, meat samples tested during the 
2003-04 school year contained both E. coli and salmonella. The plant 
was cited 40 times for USDA violations that year, including failure to 
follow food-safety standards.'' The Wall Street Journal also noted that 
an official at AMS responded to the OIG report by making recommended 
changes. Yet how can we, and parents across the nation, be assured that 
the USDA isn't awarding contracts to vendors that continuously receive 
food safety violations?
    5. The USDA notification to schools on February 17th regarding the 
recall indicated that the beef was ``unfit for human consumption,'' 
which is an alarming description. Why did USDA send out such a strong 
and urgent message, while at the same time assuring the public that the 
risk from the beef was minimal?
    6. It is likely that the practices at Hallmark/Westland were 
observed by many employees, yet none came forward to report the abuse. 
One of the most important ways we discover illegal practices is through 
whistleblowers. And while federal employees and government employees 
have broad protections when they blow the whistle, private sector 
employees generally are not protected if they report violations of food 
safety. Would you agree that federal legislation protecting 
whistleblowers would be an important tool in preserving the safety of 
food in the schools? If workers were not worried about being retaliated 
against, couldn't they provide valuable assistance in monitoring 
against blatant illegal activities such as occurred at Hallmark/
Westland?
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us.
    Once again, we greatly appreciate your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                    March 14, 2008.
Hon. Kate Houston, Deputy Under Secretary,
Food, Nutrition and Consumer Services, U.S. Department of Agriculture, 
        Washington, DC.
    Dear Ms. Houston: Thank you for testifying at the March 4, 2008 
full Committee hearing, ``Challenges and Opportunities for Improving 
School Nutrition.'' Enclosed are the questions which Committee members 
have asked you to respond for the record. I recognize that the 
Committee asked questions of you during the hearing that you were 
unable to provide answers to in your capacity with Food and Nutrition 
Services. I ask that you please coordinate responses to the following 
questions with the appropriate agency within the U.S. Department of 
Agriculture.
    Ms. Woolsey (CA-06) asks that you respond to these for the record:
    1. We know that there is a ``Buy American'' requirement for foods 
provided in our child nutrition programs. How is this requirement being 
met within the school food programs, including the fruit and vegetable 
snack program?
    2. According to USDA reports, our importation of fresh product is 
highest and our domestic production the lowest during the main months 
of the school year. Given the seasonality of many fruits and vegetables 
are effectively schools forced to use imported product because of a 
seasonal lack of American supply and the desire to offer a variety of 
items in the snack program?
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us.
    Once again, we greatly appreciate your testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

               USDA Response to Questions for the Record

    Question: How did the evidence of one cow entering the food supply 
become a recall of 143 million pounds of beef? The press has reported 
that inhumane treatment was a common practice at Westland/Hallmark--
what type of evidence do you have that implies that this treatment goes 
back to February 2006?
    Answer: The recall goes back to February 1, 2006, because evidence 
from the ongoing investigation demonstrates that, over the past two 
years, this plant did not always notify the Food Safety and Inspection 
Service (FSIS) public health veterinarian when cattle became non-
ambulatory after passing ante-mortem (prior to slaughter) inspection, 
as is required by FSIS regulations. This evidence is part of the 
ongoing investigation.
    Question: As you know, Chairman Miller, Representatives McCarthy 
and DeLauro, and Senator Durbin recently requested that the Government 
Accountability Office examine the communication process between USDA 
and local authorities in instances where food contamination may be a 
problem, and whether adequate guidance has been provided to schools in 
managing food safety concerns. Given what you have heard from several 
school nutrition directors today, what more should FNS do to ensure 
that schools have the information, training, and procedures they need 
to execute a recall such as the one we've just experienced?
    Answer: USDA has a long-standing commitment to school food safety. 
From our pioneering work with the School Nutrition Association to 
establish a food safety credentialing program for school food service 
employees, to our collaborative efforts to establish standard 
procedures for recall actions affecting foods purchased by the 
Department for school use, we have done much to ensure the safety and 
wholesomeness of school meals. The result is that in comparison to 
other food service alternatives, the documented incidence of food-borne 
illness associated with school meals is extremely low. We continue to 
work with schools to improve on this record of success.
    USDA hold and recall processes and procedures have been in place 
for a number of years and have worked efficiently and effectively in 
past recalls that involved school commodities. FNS, in cooperation with 
the National Food Service Management Institute (NFSMI), has provided 
training and technical assistance materials to State agencies and 
school food service managers on these procedures. However, given the 
magnitude of the Westland beef recall, FNS has identified several areas 
where communication can be strengthened and how information 
dissemination about a food recall can be improved to ensure parents and 
students receive accurate and timely information. FNS is working more 
closely with State agencies to provide additional technical assistance 
to effect better implementation of recall processes and procedures. We 
will seek input from our program cooperators to help us in this regard. 
The NFSMI is working to finalize guidance for State agencies to better 
manage future hold/recall situations. Once this guidance is complete, 
there will be an education and training campaign tailored to States and 
school districts. The guidance is expected to be ready in July 2008. 
Furthermore, we are exploring various communication options that will 
allow both FNS and our State agency partners to better transmit food 
safety information directly to schools so they, in turn, can provide 
timely and accurate information to students, parents, and teachers 
about food safety matters. This was a concern we heard during the 
Westland recall, and we intend to be fully responsive.
    Question: USDA is responsible for the selection, oversight and 
auditing of all of the commodity suppliers for the School Lunch 
program. A 2005 report by Assistant Inspector General Robert W. Young 
indicated that USDA maintained contracts with suppliers with known 
recurring food safety violations, and allowed these vendors to continue 
to provide commodities. Do states and schools have control or choice 
about who provides their commodities? Do they have access to all of the 
inspection, safety and audit records for these contractors? Can you 
please describe the selection and monitoring processes, and what 
information is available to the schools?
    Answer: When a school chooses to use their entitlement credits on 
donated commodities, Agricultural Marketing Service (AMS) serves as the 
contractor that selects the vendors. The contractors in the AMS frozen 
beef purchase program are selected through a multistep process. First, 
contractors must prepare a technical proposal that addresses all of the 
Agency's program requirements. This proposal is reviewed by AMS 
auditors who operate out of the Agency's Audit, Review and Compliance 
(ARC) Branch, for completeness and accuracy. Once this proposal is 
deemed to be adequate, a ``pre-award'' audit by an AMS ARC Branch 
auditor is conducted of the Contractor to ensure that the Contractor's 
process in operation is accurately characterized by their written 
technical proposal. There is a written audit report prepared during 
this ``pre-award'' audit. If this ``pre-award'' audit is passed, the 
Contractor is then deemed eligible to submit bids on AMS invitations 
and will be subject to monthly audits of their production. These 
monthly audits also result in written audit reports being prepared.
    Additionally, just because contractors are approved to submit bids, 
it does not necessarily mean they will be awarded any contracts. 
Contracts are awarded on a competitive bid process for each invitation. 
During the purchase year, AMS is issuing invitations weekly and 
typically purchases around 150 million pounds annually. If a contractor 
is awarded a contract, they will then have an AMS Meat Grading and 
Certification (MGCB) Branch employee stationed at their facility during 
all hours of production for AMS-purchased product. These MGCB employees 
perform a number of checks during the day and also complete written 
reports during each day of production. AMS maintains copies of all of 
these audit and certification records that assure compliance with AMS 
specification and contract requirements. Finally, all contractors 
operate under continuous testing protocols that require compliance with 
specified standards to remain eligible to bid and supply products.
    Question: On March 3, The Wall Street Journal published an article 
regarding the weak safety standards that the USDA upholds. The article 
quotes the USDA Inspector General report that in two plants supplying 
ground beef to the school lunch program, ``documentation was not 
available'' to prove that the meat wasn't contaminated. This is despite 
the fact that participation in the school lunch program requires that 
all contaminated meat be properly identified, segregated and 
controlled. If food processing plants aren't required to keep 
documentation, how can USDA be assured that these plants are indeed 
destroying contaminated product?
    Answer: AMS disagrees with the published article in question as we 
believe it to be incomplete and misleading. A couple of points are of 
particular importance. First, it is important to note that OIG reviewed 
this program during its first year of implementation, with only a 
limited number of findings, and most of the issues identified were part 
of the planned second or third year of the phased implementation. 
Second, the concern with regard to documentation had to do with meat 
that had been rejected for use in school lunch production but for which 
plants' quality management plans did not adequately define how this 
product would be segregated and not reused. Prior to, during, and 
subsequent to the OIG audit AMS had a grader physically on-site in the 
plant to oversee the disposition of such product to ensure there was no 
possibility that such meat would be inappropriately used. In addition, 
even before the OIG report was issued, AMS, as a part of its own 
continuous improvement process under this program, required firms to 
strengthen their internal controls by documenting procedures for the 
control and disposition of rejected products beginning July 2004. 
Compliance with this requirement, over and above other controls, is 
further assured through monthly program audits.
    Question: In the 2005 USDA Inspector General report it was also 
noted that the USDA awarded contracts to vendors that the agency knew 
had food safety problems. ``At one unnamed plant, meat samples tested 
during the 2003-04 school year contained both E. coli and salmonella. 
The plant was cited 40 times for USDA violations that year, including 
failure to follow food-safety standards.'' The Wall Street Journal also 
noted that an official at AMS responded to the OIG report by making 
recommended changes. Yet how can we, and parents across the nation, be 
assured that the USDA isn't awarding contracts to vendors that 
continuously receive food safety violations?
    Answer: First and foremost, because of AMS' stringent process and 
product requirements, AMS strongly believes the products it purchases 
for Federal food and nutrition programs, including raw ground beef, are 
as safe as any products purchased by other large volume food buyers. 
Parents can rest assured that all products testing positive for E. coli 
O157:H7 or Salmonella are rejected and not allowed to be shipped to 
Federal food and nutrition program outlets, including schools.
    With regard to the issue of contracts being awarded to vendors with 
food safety violations that was identified in the OIG report, AMS had 
at the time of the OIG audit, and continues to maintain management 
controls that ensure that contracts are only awarded to eligible 
suppliers with strong food safety controls and a proven ability to 
produce safe and high quality products.
    The basis for the OIG finding mentioned above was a one-time 
occurrence that occurred at the very beginning of the Agency's movement 
towards a statistical process control program that the Agency now uses 
to evaluate suppliers to ensure that AMS only does business with the 
highest quality suppliers possible. In fact, in its response to the OIG 
report, AMS demonstrated to OIG that for the School Year (SY) 2004-2005 
and SY 2005-2006 purchasing cycles, all suppliers had approved 
technical proposals and all non-conformances were cleared prior to 
receiving a contract.
    Question: The USDA notification to schools on February 17th 
regarding the recall indicated that the beef was ``unfit for human 
consumption,'' which is an alarming description. Why did USDA send out 
such a strong and urgent message, while at the same time assuring the 
public that the risk from the beef was minimal?
    Answer: Hallmark/Westland Meat Packing Co. voluntarily recalled 
approximately 143 million pounds of raw and frozen beef products that 
FSIS determined to be unfit for human food because the cattle did not 
receive complete and proper inspection. Through evidence obtained 
through the ongoing investigation, the establishment did not 
consistently contact the FSIS public health veterinarian in situations 
in which cattle became non-ambulatory after passing ante-mortem 
inspection, which is not compliant with FSIS regulations.
    Such circumstances require that an FSIS public health veterinarian 
reassess the non-ambulatory cattle which are either condemned and 
prohibited from the food supply, or tagged as suspect. Suspect cattle 
receive more thorough inspection after slaughter than is customary.
    This noncompliant activity occurred occasionally over the past two 
years and therefore all beef product produced during the period of time 
for which evidence indicates such activity occurred has been determined 
by FSIS to be unfit for human consumption, which is a legal definition.
    While it is extremely unlikely that these meat products pose a risk 
to human health, the recall action was deemed necessary because the 
establishment did not comply with FSIS regulations.
    This recall is designated as Class II due to the remote probability 
that the beef being recalled would cause adverse health effects if 
consumed. This recall designation is in contrast to a Class I recall, 
which is a higher-risk health hazard situation where there is a 
reasonable probability that the use of the product will cause serious, 
adverse health consequences or death.
    Question: It is likely that the practices at Hallmark/Westland were 
observed by many employees, yet none came forward to report the abuse. 
One of the most important ways we discover illegal practices is though 
whistleblowers. And while federal employees and government employees 
have broad protections when they blow the whistle, private sector 
employees generally are not protected if they report violations of food 
safety. Would you agree that federal legislation protecting 
whistleblowers would be an important tool in preserving the safety of 
food in the schools? If workers were not worried about being retaliated 
against, couldn't they provide valuable assistance in monitoring 
against blatant illegal activities such as those that occurred at 
Hallmark/Westland?
    Answer: There is an ongoing investigation into the Hallmark/
Westland incident and as soon as more specific information is 
available, that information will be made known to you. However, it is 
important to note that there is a sign in each plant that has a hotline 
number for the USDA Office of the Inspector General, in order to make 
notification of noncompliant practices an accessible option for private 
sector employees in the plants. Plant employees also routinely notify 
FSIS inspection program personnel in events of plant noncompliance with 
regulation.
    Question: How much time passes between ante mortem inspection and 
slaughter? Does the Department have a policy on the maximum amount of 
time that can pass between ante mortem inspection and slaughter?
    Answer: The time that passes between ante mortem inspection and 
slaughter could be several hours, but must be within the same day.
    Question: How many inspectors were assigned to conduct ante mortem 
inspections at the Westland/Hallmark facility?
    Answer: The number of inspectors assigned to an establishment is 
dependent upon the size of the facility, the type of products produced 
as well as their production volume. Hallmark/Westland Meat Packing 
Company had five FSIS inspection program personnel at the facility each 
day of operation. There were three on-line inspectors, one public 
health veterinarian and one off-line inspector. FSIS veterinarians and 
other inspection personnel are not stationed in the ante-mortem area 
for the entire day, although they do return randomly to conduct humane 
handling verification activities. Other inspection activities are 
conducted off-line when ante mortem inspections have been completed. At 
this facility, on average, 90 minutes throughout the day were spent 
verifying humane handling activities in the ante-mortem area. These 
inspectors were present at the slaughter facility every day for the 
entire eight-hour shift.
    Question: Was that number of inspectors higher or lower than it was 
5 years ago?
    Answer: Hallmark/Westland Meat Packing Company was staffed based on 
its current production rates and in accordance with the national method 
of assigning work, which was implemented in 2004. If production and 
processes change, the number of inspectors may also change. There was 
one food inspector vacancy in early 2006 that was promptly filled, and 
there was no other vacancy until late October 2007. That food inspector 
vacancy was filled in early 2008. The on-line positions were covered 
daily and, as necessary, relief inspectors, inspectors hired on an 
intermittent basis, or even an in plant off-line inspector would cover 
the on-line duties.
    Question: Does Westland/Hallmark have a record of prior violations 
before this recall?
    Answer: Yes.
    Question: If so, how frequent are those violations? How often do 
inspections occur? What is the process after a violation occurs?
    Answer: In December 2005, an FSIS District Veterinary Medical 
Specialist conducted a routine humane handling audit and issued 
Hallmark/Westland Meat Packing Company a humane handling related non-
compliance record (NR) because of overly aggressive driving of animals 
and multiple structural inadequacies in the pens. The plant promptly 
implemented appropriate corrective measures. In May 2007, FSIS 
conducted another audit that noted no excessive use of electric prods, 
or any other regulatory non-compliance.
    FSIS inspection program personnel conduct carcass-by-carcass 
inspection and verify that establishments follow all food safety and 
humane handling regulations. FSIS inspection program personnel also 
verify that the establishment maintains proper sanitation procedures; 
it follows its Hazard Analysis and Critical Control Point (HACCP) plan 
and complies with all FSIS regulations pertaining to slaughter and 
processing operations. This requires continuous inspection of slaughter 
and processing operations. Furthermore, offline FSIS personnel conduct 
random humane handling inspections at intermittent times during the 
day.
    If the establishment fails to maintain sanitation, does not follow 
its HACCP plan or violates other regulations, FSIS inspection program 
personnel will issue a citation to the establishment in the form of a 
noncompliance record to document the noncompliance. If necessary, they 
could also take regulatory control action, such as a Notice of Intended 
Enforcement or a Suspension of Inspection.
    Question: Please explain what occurs between a cow passing 
inspection and going on to the slaughter.
    Answer: The inspection process begins with an establishment's 
notification of FSIS that they want animals inspected prior to 
slaughter. Inspection at a slaughter establishment begins in the ante 
mortem area or pen where FSIS inspection program personnel inspect live 
animals before moving to slaughter. It is the establishment's 
responsibility to follow the Humane Methods of Slaughter Act. Egregious 
violations to humane handling requirements can lead to suspension of 
inspection within an establishment. This will stop the plant from 
operating.
    During this inspection, FSIS inspection program personnel observe 
all animals at rest and in motion. Inspection program personnel are 
trained to look for abnormalities and signs that could indicate disease 
or health conditions that would prohibit the animal from entering the 
food supply. If an animal goes down or shows signs of illness after 
receiving and passing ante mortem inspection before slaughter, the 
establishment must immediately notify the FSIS veterinarian to re-
inspect the animal and make a case-by-case disposition of the animal's 
condition. Alternatively, the establishment may humanely euthanize the 
animal. Re-inspected animals allowed to continue to slaughter are 
labeled as ``U.S. Suspect'' and are segregated until the animal has 
received additional inspection by an FSIS veterinarian.
    FSIS public health veterinarians and other inspection personnel are 
not stationed in the ante mortem area for the entire day. They do 
return randomly to verify humane handling, as well as the stunning and 
bleeding process. Other inspection activities are also conducted off-
line inside the slaughter facility when ante mortem inspections have 
been completed. These off-line FSIS inspection program personnel move 
through the different areas of the establishment while performing their 
duties. This gives them the ability to vary their assigned off line 
inspections.
    Post mortem inspection occurs in the slaughter area after the 
animal has been humanely stunned and bled. FSIS inspection program 
personnel perform carcass-by-carcass post mortem inspections. Agency 
inspection personnel are stationed at fixed positions along the 
slaughter line, and are known as on-line inspectors. Inspectors look 
for signs of disease or pathological conditions that would render a 
carcass or part unwholesome or otherwise unfit for human consumption. 
Any carcass in need of further diagnosis or disposition is segregated 
and the veterinarian summoned. The establishment must maintain the 
identity of every carcass and ensure that the retained carcasses do not 
enter the food supply until released by FSIS inspection program 
personnel. After further inspection, if a carcass has no generalized 
signs of disease or pathological conditions, it is passed without 
restriction and may enter the food supply. Off-line FSIS inspection 
program personnel also observe the sanitary conditions of those parts 
of the slaughter area not directly related to carcass inspection, such 
as where the hides are removed.
    Question: How can you be certain that the practices that affected 
the meat produced at Hallmark/Westland are not taking place at other 
facilities given the regulations, and that the defiance of the 
regulations in that plant were taking place while there were USDA 
inspectors on site?
    Answer: The investigation led by OIG with support from FSIS and AMS 
is ongoing. However, we are not waiting for the completion of the 
investigation to act.
    FSIS has already taken a number of steps to strengthen our 
inspection system. As announced on February 28, FSIS has implemented a 
series of interim actions to verify and thoroughly analyze humane 
handling activities in all federally inspected establishments.
    FSIS has increased the amount of time allocated per shift by 
inspection program personnel to verify humane handling activities and 
to verify that animals are handled humanely in ante-mortem areas. FSIS 
is also conducting surveillance activities to observe the handling of 
animals outside the approved hours of operation from vantage points 
within and adjacent to the official premises. A notice has been issued 
to all FSIS inspection program personnel to reinforce the work methods 
for conducting humane handling verification activities at all levels 
and to ensure the greatest utility of the Humane Activities Tracking 
System (HATS) program.
    Surveillance and inspection activities are prioritized and focused 
based on existing data such as the category of livestock handled at the 
facility, humane handling data, observations made at the facility 
during regular inspection and a plant's operating schedule.
    FSIS will continue to collect information in HATS, which provides 
an accounting of the time spent by FSIS inspection program personnel 
performing specific tasks and the results of that inspection related to 
humane handling and slaughter. Starting on March 3, 2008, FSIS 
inspection program personnel assigned to Federally inspected livestock 
slaughter establishments increased the amount of time that they spend 
conducting HATS activities from anywhere between 50-100 percent. This 
increased HATS inspection will continue for 60 days and will be closely 
measured during that time.
    Prioritization will help to ensure the optimal use of resources to 
ensure humane handling and food safety. FSIS is focusing surveillance 
and inspection activities at establishments where older or potentially 
distressed animals are slaughtered, such as facilities that handle 
dairy or veal cattle. At these facilities, the time spent performing 
HATS activities will be doubled. At facilities with contracts from the 
AMS for nutrition assistance programs, regardless of the type or class 
of the animal slaughtered, HATS verification time is being doubled. At 
facilities where non-ambulatory livestock are infrequently presented, 
such as in slaughter facilities that handle young market classes 
including steers, heifers, market hogs, and lambs, an additional 50 
percent of HATS verification time may be required. At least once every 
two weeks, a District Veterinary Medical Specialist or a district 
analyst is verifying that inspection personnel at each official 
livestock slaughter establishment are conducting the appropriate 
increase in HATS verification time. Any plant found not to be in 
compliance will be reported to the in-plant supervisor and the 
frontline supervisor.
    Meanwhile, FSIS will begin reviewing the HATS to determine what, if 
any, adjustments are needed to maximize its utility as a tracking tool 
to improve compliance.
    FSIS is currently auditing all 19 beef slaughter establishments 
that participate in AMS's nutrition assistance program. This is the 
first in a set of audits we will be conducting.
    The investigation being led by OIG with support from FSIS and AMS 
is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    Question: Please explain and define how a product that is legally 
unfit for human consumption is indeed, ok to eat.
    Answer: The term unfit for human consumption is a legal term. It 
was triggered by the failure of the firm to follow a regulatory 
requirement. While this requirement was not met, it is extremely 
unlikely that these meat products pose a risk to human health because 
of the interlocking system of safeguards that exist.
    Question: Please explain explicitly what the role is of each 
inspector at a slaughterhouse.
    Answer: FSIS employs about 7,800 in plant inspection program 
personnel. They inspect more than 6,200 federally inspected 
establishments. These establishments vary greatly in size and type of 
activity conducted.
    FSIS employees conduct carcass-by-carcass inspection at all 
federally inspected slaughter facilities and verify that establishments 
follow all food safety and humane handling regulations.
    Inspection at a slaughter establishment begins in the ante mortem 
area or pen where FSIS inspection program personnel inspect live 
animals before moving to slaughter. During this inspection, FSIS 
inspection program personnel observe all animals at rest and in motion. 
Inspection program personnel are trained to look for abnormalities and 
signs that could indicate disease or health conditions that would 
prohibit the animal from entering the food supply.
    It is the establishment's responsibility to follow the Humane 
Methods of Slaughter Act. Egregious violations to humane handling 
requirements lead to suspension of inspection within an establishment. 
This will stop the plant from operating. Noncompliance records for 
humane handling also can be issued when the violation is less than 
egregious, such as not having water available in pens.
    FSIS inspection program personnel also verify that the 
establishments maintain proper sanitation procedures, follow their 
HACCP plans, and comply with all FSIS regulations pertaining to 
slaughter and processing operations.
    FSIS inspection program personnel perform carcass-by-carcass post 
mortem inspections. Agency inspection personnel are stationed at fixed 
positions along the slaughter line, and are known as on-line 
inspectors.
    Inspectors look for signs of disease or pathological conditions 
that would render a carcass or part unwholesome or otherwise unfit for 
human consumption.
    Any carcass in need of further diagnosis or disposition is 
segregated and the FSIS public health veterinarian summoned.
    The establishment must maintain the identity of every carcass and 
ensure that the retained carcasses do not enter the food supply until 
it is released by FSIS inspection program personnel.
    Off-line FSIS inspection program personnel also observe the 
sanitary conditions of those parts of the slaughter area not directly 
related to carcass inspection, such as where the hides are removed.
    Question: Please provide an update as to the status of the recall, 
specifically on the status of the actively-traced product.
    Answer: With a recall of this magnitude, this process will take 
several weeks to complete. It is the recalling firm's responsibility to 
provide adequate notice of the recall and to advise each of its 
consignees of the need to retrieve and control recalled product. 
Subsequent consignees are then expected to notify their consignees or 
customers of the recall. In accordance with FSIS Directive 8080.1, FSIS 
will conduct 200 effectiveness checks to ensure that all of the 
approximate 9,500 consignees have received notice of the recall and are 
making every effort to retrieve and destroy the recalled product. FSIS 
personnel verify that Hallmark/Westland Meat Packing Company has been 
diligent and successful in notifying its consignees of the need to 
retrieve and control recalled product, and that the consignees have 
responded accordingly. FSIS will also coordinate with FNS/AMS on 
tracking the destruction of recalled product that went to nutrition 
assistance programs.
    Question: We know there is a ``Buy American requirement'' for foods 
provided in the child nutrition programs. How is this requirement being 
met within the school food programs, including the fruit and vegetable 
snack programs?
    Answer: The Richard B. Russell National School Lunch Act requires 
schools located in the contiguous United States to purchase domestic 
commodities and products for the school lunch and breakfast programs 
``to the maximum extent practicable.'' This requirement extends to the 
Fresh Fruit and Vegetable Program (FFVP). Two exceptions which may 
permit purchases of foreign products are: 1) the product is not 
produced or manufactured in the U.S. in sufficient and reasonable 
available quantities of a satisfactory quality; and 2) competitive bids 
reveal the costs of a U.S. product is significantly higher than the 
foreign product.
    USDA continues to provide schools with on-going technical 
assistance to ensure schools have procurement strategies in place to 
comply with the Buy American provision. For example, we have encouraged 
the inclusion of a Buy American clause in all product specifications, 
bid solicitations, requests for proposals, purchase orders, and other 
procurement documents issued. Similarly, school food authorities may 
ask their suppliers to provide certification as to the origin of the 
product. School food authorities are also encouraged to monitor 
contractor performance to ensure compliance with all contractual 
requirements, including the Buy American provision.
    In addition, to ensure school food authorities understand their 
responsibilities under the Buy American provision, the Food and 
Nutrition Service (FNS) issued a memorandum to State agencies in April 
2006 to reiterate the Buy American requirements for all food purchases 
made under the Child Nutrition Programs. At that time, FNS made 
available a set of Questions and Answers (Q&As) that addressed the 
relevance of the Buy American provisions in the context of procurement 
actions under the Child Nutrition Programs, including the FFVP. Both 
the memorandum and the Q&As are posted on FNS' web site to allow for 
easy access by both program participants and the general public.
    FNS also included information about the Buy American provision into 
the Food Buying Guide for the Child Nutrition Program. Approximately 
200,000 copies of the guide were printed and provided to every school 
participating in the National School Lunch and School Breakfast 
Programs. Currently, FNS is finalizing development of a web-based 
procurement training curriculum, which will be released later this 
year, and will incorporate training on the Buy American provisions.
    Question: According to USDA reports, our importation of fresh 
product is highest and our domestic production the lowest during the 
main months of the school year. Given the seasonality of many fruits 
and vegetables are effectively schools forced to use imported product 
because of a seasonal lack of American supply and the desire to offer a 
variety of items in the snack program?
    Answer: The seasonal availability of fresh fruit and vegetables 
certainly plays a role in what is purchased for the Fresh Fruit and 
Vegetable Program (FFVP). However, with the various growing seasons 
across the United States, many domestic fruits and vegetables are 
available at an affordable cost during most if not all of the 
traditional school year.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                    March 14, 2008.
Ms. Penny Parham, Administrative Director,
Department of Food and Nutrition, Miami, FL.
    Dear Ms. Parham: Thank you for testifying at the March 4, 2008 full 
Committee hearing, ``Challenges and Opportunities for Improving School 
Nutrition.'' Below are the questions which Committee members have asked 
you to respond for the record.
    Ms. Woolsey (CA-06) asks that you respond to this for the record:
    Ms. Parham, universal free school breakfast is a legislation that I 
have been working on for many years. Can you share with us some of the 
successes of the universal school breakfast system that you instituted 
in Florida and some of the lessons you've learned since the program was 
established in 2003.
    Please send an electronic version of your written response (in Word 
format) to the Committee staff by COB on Tuesday, March 18, 2008--the 
date on which the hearing record will close. If you have any questions, 
please contact us. Once again, we greatly appreciate your testimony at 
this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

                  Written Responses From Penny Parham

    Thank you for affording me the opportunity to testify at the full 
committee hearing, ``Challenges and Opportunities for Improving School 
Nutrition'' on March 4, 2008. I am happy to respond to Representative 
Woolsey's request that I share some of the successes of the Universal 
School Breakfast Program that we have implemented at Miami-Dade County 
Public Schools and to highlight some of the successes and lessons 
learned since the program was established in 2003.
    To me the most important success of the Universal Breakfast Program 
is the fact that it erased the stigma of eating breakfast at school. 
Prior to the implementation of the Universal Breakfast Program, 90% of 
breakfasts served at school were to students approved for free or 
reduced price meals. There was a perception among students that if you 
ate breakfast at school you were ``poor.'' Now, there is no record of a 
student's eligibility when they eat school breakfast, as all students 
eat breakfast for free. The free breakfast is marketed as such and 
enjoyed by all students at no cost, no eligibility requirement and no 
unintended stigma associated with the service. Another success of the 
Universal Breakfast Program is that it has increased our student 
participation in breakfast by 3 million breakfasts served annually, 
even though we have experienced declining enrollment in the district. A 
third success of the program is that we provide a tangible service that 
benefits the individual student and their family, benefits the school 
by providing an available support ensuring hunger is not an obstacle to 
learning and benefits the District by providing excellent public 
relations and a springboard for before school activities and 
educational opportunities. Last, but certainly not least, this program 
enables us to provide a guaranteed breakfast for students during 
standardized testing.
    In regards to lessons learned, under the USDA Provision 2 Guidance 
for which we operate our Universal Breakfast program, if an individual 
school population improves economically by more than 5% after four (4) 
years, new meal claiming percentages must be established. This year we 
must re-establish our base-year claiming percentages because the 
demographics at individual schools within the district have shifted. We 
are re-establishing our percentages, as required by our State agency, 
but because the District population as whole did not shift 5%, we 
believe extensions based on total district numbers should be granted. 
Approving some but not all schools in a district for Universal 
Breakfast does not eliminate the perceived stigma of free school meals. 
However, Universal School Breakfast must be adequately funded in order 
for districts to choose this as a service option for all students at 
all schools.
    A second lesson learned, is that even with Universal School 
Breakfast, not all students will participate. Annually, we serve over 
twice as many school lunches as breakfast, even though breakfast is 
free and marketed to the community. There are many reasons for choosing 
or not choosing breakfast at school, however, Universal School 
Breakfast provides the open availability to all students and ensures 
that morning hunger will not be an impediment to learning.
    Historically, school meal programs have been thought of as 
providing meals for ``needy'' children, based on economics. However, in 
this day and age of working parents, epidemic levels of childhood 
obesity and access to nutrition information and nutrition education, 
school meals are a valuable service for all school children, regardless 
of their economic need. By providing District's financially viable 
Universal School Breakfast, stigmas evaporate, participation increases, 
and breakfast available at school becomes accepted as part of a normal 
school day.
    Thank you for your interest. If I can be of further assistance 
please do not hesitate to contact me.
                                 ______
                                 
    [Whereupon, at 5:33 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
